<html>
<title> - NATIONAL ENERGY POLICY REPORT OF THE NATIONAL ENERGY POLICY DEVELOPMENT GROUP</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



NATIONAL ENERGY POLICY REPORT OF THE NATIONAL ENERGY POLICY DEVELOPMENT 
                                 GROUP

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2001

                               __________

                           Serial No. 107-47

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
72-826                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma              BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                    ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
TOM DAVIS, Virginia                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 LOIS CAPPS, California
ROBERT L. EHRLICH, Jr., Maryland     MICHAEL F. DOYLE, Pennsylvania
STEVE BUYER, Indiana                 CHRISTOPHER JOHN, Louisiana
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Energy and Air Quality

                      JOE BARTON, Texas, Chairman

CHRISTOPHER COX, California          RICK BOUCHER, Virginia
STEVE LARGENT, Oklahoma              RALPH M. HALL, Texas
  Vice Chairman                      TOM SAWYER, Ohio
RICHARD BURR, North Carolina         ALBERT R. WYNN, Maryland
ED WHITFIELD, Kentucky               MICHAEL F. DOYLE, Pennsylvania
GREG GANSKE, Iowa                    CHRISTOPHER JOHN, Louisiana
CHARLIE NORWOOD, Georgia             HENRY A. WAXMAN, California
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
HEATHER WILSON, New Mexico           BART GORDON, Tennessee
JOHN SHADEGG, Arizona                BOBBY L. RUSH, Illinois
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              THOMAS M. BARRETT, Wisconsin
ROY BLUNT, Missouri                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 JOHN D. DINGELL, Michigan
GEORGE RADANOVICH, California          (Ex Officio)
MARY BONO, California
GREG WALDEN, Oregon
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Abraham, Hon. Spencer, Secretary, U.S. Department of Energy..    37

                                 (iii)

  

 
NATIONAL ENERGY POLICY REPORT OF THE NATIONAL ENERGY POLICY DEVELOPMENT 
                                 GROUP

                              ----------                              


                        WEDNESDAY, JUNE 13, 2001

                  House of Representatives,
                  Committee on Energy and Commerce,
                    Subcommittee on Energy and Air Quality,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:59 a.m., in 
room 2123, Rayburn House Office Building, Hon. Joe Barton 
(chairman) presiding.
    Members present: Representatives Barton, Cox, Burr, 
Whitfield, Ganske, Shimkus, Wilson, Shadegg, Pickering, Bryant, 
Radanovich, Bono, Walden, Tauzin (ex officio), Hall, Sawyer, 
Wynn, Doyle, John, Waxman, Markey, McCarthy, Strickland, 
Barrett, Luther, and Dingell (ex officio).
    Also present: Representatives Eshoo and Harman.
    Staff present: Sean Cunningham, majority counsel; Jason 
Bentley, majority counsel; Joe Stanko, majority counsel; Bob 
Meyers, majority counsel; Andy Black, policy coordinator; Pete 
Kielty, legislative clerk; Erik Kessler, minority professional 
staff member; Sue Sheridan, minority counsel; and Allison 
Taylor, minority counsel.
    Mr. Barton. The subcommittee will come to order.
    We want to welcome you, Mr. Secretary. We want to welcome 
you to your first official appearance before the Energy and Air 
Quality Subcommittee of the Energy and Commerce Committee.
    Today, we are going to hear your views on the national 
energy policy. Last month, the President's National Energy 
Policy Development Group, which you are a very important member 
of, sent a report to the President, to the Congress and to the 
country about what we should do about our Nation's energy 
policy. I have actually read the report, cover to cover, looked 
at the tables and the annex. I am sure my other subcommittee 
members have studied the report in some detail, and I 
personally think that it is a balanced approach and a good 
prescription for what this country needs.
    The word balance is used a lot today in Washington, and my 
guess is we are going to hear it used a few more times today. 
The plan that has been presented to the Congress and the 
country is a balanced plan. It is a truly comprehensive plan 
for a national energy policy. It includes conservation, energy 
efficiency, renewables and other alternative sources of energy. 
They are highlighted in the plan. It also alludes to the need 
for more use of coal, nuclear power, hydroelectric power, 
natural gas and crude oil.
    One of the things that is pointed out in the report is that 
our Nation is a net importer of energy. Just as we have seen in 
California, which is a State that is a net importer of 
electricity, when we have a supply demand imbalance, that could 
cause problems.
    Many of the nations that we import our energy supplies 
from, like Canada, are allies and good friends. The same could 
be said for Mexico, our neighbor to the south and others who 
are not directly located on our borders. We maintain good 
relationships with and would assume that in times of trouble we 
will maintain that relationship, but that is not always the 
case. For example, we import over a half a million barrels of 
crude oil from Iraq, a nation that we went to war against less 
than 10 years ago and a nation which we continue to have 
economic sanctions against.
    Our energy policy for the last decade, in my opinion, has 
been neglected. We have really neglected the supply side of the 
equation. And what we have seen is literally that we have begun 
to pay the piper with higher prices across the board in heating 
oil, crude oil, gasoline, natural gas and electricity.
    I don't think we are in a crisis. I do think we have a 
serious problem, and I think to solve this problem we need to 
use every element of an energy policy, put it on the table, 
study it, vote on it and move forward.
    Many people have said that conservation renewables are the 
answer and the only answer. I have yet to meet a Member of 
Congress who is anti-renewable. There may be one or two, but I 
don't know who they are. The problem with renewables is that if 
you exclude hydroelectricity, they supply \2/10\ths of 1 
percent of a quad of energy for our Nation. A quad is a 
quadrillion Btus, and we use a hundred quads a year of energy. 
So we can quadruple or increase tenfold renewables, and we are 
still not going to make a significant gap any time soon in our 
energy supply situation.
    Many other people talk about conservation. Conservation is 
extremely important, and our Nation has become more 
conservative of its energy uses. Our energy efficiency is one 
of the best in the world. Obviously, it could do better. 
Chairman Tauzin has indicated that the first part of the energy 
package we are going to move in this committee is a 
conservation package, and I am sure he will talk about that in 
his opening statement.
    So we are not ignoring conservation and energy efficiency, 
but, again, if you have a growing nation with a growing 
economy, you have to have growing supplies of energy also.
    Two of the components of your comprehensive policy that we 
are very supportive of are the renewal of nuclear power and 
perhaps increased use of hydroelectric power. We hope to move 
the hydroelectric relicensing bill in this committee very soon. 
We also hope to move legislation with regards to the nuclear 
industry, specifically high-level nuclear waste and Price-
Anderson insurance reauthorization. Hydro and nuclear have no 
air emissions at all. New nuclear technologies and developments 
and incremental hydroelectric capacity can help promote our 
energy security, and we should not ignore them.
    Finally, we have come to our fossil fuels. They are the bad 
guys in the energy debate, because of their emissions and the 
fact that some folks think that we simply just use too much oil 
and we shouldn't do that. We can't take them off the table, 
however, because they provide, between natural gas and oil, 
about two-thirds of our total Nation's energy use. And in 
transportation, it is even a higher number. Our transportation 
infrastructure is almost totally dependent on oil and its 
derivatives, i.e., gasoline and aviation fuel. So we are going 
to have to take a look at our conventional fuel sources in that 
area.
    Similarly, we have to look at coal. Our Nation has become 
the Saudi Arabia of coal. No Nation has more coal reserves than 
the United States of America. We need to solve the emissions 
problem with coal, but coal has to be a part of the supply 
equation, also.
    Energy has not normally been a partisan issue, and I hope 
that it is not going to be a partisan issue in this committee 
and in this Congress. Republican consumers and workers need 
electricity, gasoline and energy, just as Democrat consumers 
and workers need electricity, gasoline and energy.
    In the past, members of this subcommittee and the full 
committee have studied energy issues on a bipartisan basis and 
passed energy legislation on a bipartisan basis. I happen to 
think that the members of the subcommittee are the most 
educated and knowledgeable in this Congress, and I would hope 
that we can--and I certainly intend to work with Mr. Boucher 
and I know Mr. Tauzin intends to work with Mr. Dingell, to put 
together a bipartisan energy package.
    Secretary Abraham, I sincerely want to welcome you today. 
We have already formed, in my opinion, an extremely close 
working relationship. You have got a very, very difficult job. 
In fact, I think you probably have the most difficult job in 
this Cabinet, because energy is such an important issue, and it 
is an issue that has to be dealt with. It can't be put off the 
table.
    So I look forward to your comments, but, more importantly, 
I look forward to working with you, the Vice President, the 
President, EPA and the Department of Interior to really put 
together a comprehensive energy package.
    [The prepared statement of Hon. Joe Barton follows:]

Prepared Statement of Hon. Joe Barton, Chairman, Subcommittee on Energy 
                            and Air Quality

    Today, the Energy & Air Quality Subcommittee holds another in its 
series of hearings on national energy policy. We welcome today the new 
Secretary of Energy, Spence Abraham.
    Last month, the President's National Energy Policy Development 
Group, of which Secretary Abraham is an important member, sent a report 
to the President and to Congress. I have read the report cover to 
cover, and I hope Subcommittee Members have, as well as members of the 
press whose job it is to describe it.
    The word ``balanced'' is used a lot in Washington, but must 
certainly be used here today. This is a balanced plan for a truly 
comprehensive energy policy. Conservation, energy efficiency, 
renewables, and other alternate energy all have their place in the 
plan, as they do in our national policy. Coal, nuclear, hydro, natural 
gas, and crude oil also have their place in the plan, as they do in the 
real world today.
    Our nation is a net energy importer. Just as California needs to 
erode its supply-demand imbalance in electricity, our Nation needs to 
do the same for energy as a whole. Many of the Nations we import energy 
from, such as Canada, are allies and good friends. Others, we maintain 
good relationships with, and will usually work with us in times of 
trouble. But not always. Still others, such as Iraq, love our 
dependency upon energy imports and look to leverage our liability 
against us. This year, our average imports of crude oil from Iraq 
exceed half a million barrels per day.
    Energy policy has been neglected. Our supply has not grown as it 
should. Within the last several seasons, we have begun to pay the 
price, with price spikes in heating oil, crude oil, gasoline, natural 
gas, and, of course, electricity.
    In this time of crisis, or in this troubling time, (if some will 
not let us say ``crisis''), we must put every element of an energy 
policy on the table and ignore nothing. Renewables other than hydro are 
only a very small part of our energy inventory, and in many cases the 
technologies are not yet economically competitive--but we should not 
ignore them, and we should, in fact, encourage renewable technologies.
    Our gains in conservation and energy efficiency have been 
impressive. Today, we are among the most energy-efficient Nations in 
the world. But we cannot ignore further developments in conservation 
and energy efficiency, and find ways to achieve them without hurting 
consumers and businesses.
    Nuclear and hydro energy have two great advantages for consumers, 
environmental groups, and lawmakers--both have no air emissions. New 
nuclear technologies and developments in incremental hydro capacity can 
help promote our energy security, and cannot be ignored. In some parts 
of the country, hydro supplies more than a third of our electricity. 
Nuclear supplies one-fifth of our electricity nationally, and more than 
thirty percent in New England and the Mid-Atlantic.
    Finally, our fossil fuels continue to play an incredibly important 
role in the generation of electricity, the fueling of our cars, and the 
production of goods and services for American consumers. None of them 
should be taken off the table, and we should pursue, not neglect, using 
our natural resource advantages in a comprehensive plan. Our Nation has 
been called the ``Saudi Arabia of coal''. No Nation with such a gift is 
wise to ignore it.
    Energy is not naturally a partisan issue, and it should not be 
partisan here. Republican consumers and workers need electricity, 
gasoline, and energy for manufacturing, just as Democratic consumers 
and workers need the same. Members of this Subcommittee from both 
parties have studied energy issues for a long time and have a great 
understanding of what needs to be done. As we prepare legislation 
subsequent to the Administration's proposal, I want to do so on a 
bipartisan basis. I know the Ranking Member, Mr. Boucher, is ready to 
do the same.
    Secretary Abraham, I welcome you today. You have already shown 
yourself a good study and a forceful advocate. Our Subcommittee 
jurisdiction includes a great deal of your department, and we look 
forward to working with you. This is a critically important time--we 
must get the Nation back on track towards energy stability. The plan 
you will discuss today appears to me to be a good one and will 
accomplish that goal.

    Mr. Barton. Mr. Boucher is not here today. He is in markup 
on the broadband bill in the Judiciary Committee, so we would 
go to the full distinguished committee ranking member, Mr. 
Dingell, for an opening statement.
    Mr. Dingell. Mr. Chairman, thank you; and I commend you for 
this hearing.
    I am delighted to welcome my friend and fellow citizen of 
Michigan, Secretary Abraham, to appear before this committee. 
We are grateful that you are here, Mr. Secretary; and we 
understand that you have been busy and that sometimes it takes 
a little while to getting around to come up here and visit with 
your friends.
    In any event, I would like to say that I am pleased that 
our agenda has shifted from a debate over whether to abolish 
the Department of Energy or to sell off the Strategic Petroleum 
Reserve to a more prudent and national debate over the national 
energy policies. And I want to commend you again, Mr. Chairman, 
for initiating this hearing and proceeding.
    I am not envious of the task which confronts you, Mr. 
Secretary. California consumers face astronomical prices, 
rolling blackouts and a dysfunctional market, which is causing 
real problems, and we can see them extend as far east as the 
crest line of the Rocky Mountains.
    I would like to note that we are not likely to see this 
situation resolving itself, particularly as regards to the 
dysfunctional state of the market in California. Gasoline 
prices have climbed this year, and they can get worse, 
particularly if California's electricity problems forced a 
shutdown of a refinery or two or three in the Western United 
States or if individual refiners decide to hold a little back 
to encourage a modest boost in their bottom line, as the 
Federal Trade Commission reported they did last year.
    In the Pacific Northwest, which is dependent upon federally 
funded hydroelectric power, the lack of adequate snowfall and 
rain leaves you with the unenviable task of having to choose 
between industries like aluminum manufacturing, which is 
historically dependent upon cheap, subsidized electricity, or 
the commercial and recreational fishing industries, which 
depend on the continued existence of salmon and other species 
that are being wiped out by these same hydroelectric plants. Of 
course, these are just a few of the short-term issues.
    The long-term issues involve equally difficult choices. How 
do we export national gas resources in the Rocky Mountains 
without trampling on the rights of hunters or adversely 
impacting the concerns of the people in the area? This is a 
question here, then, of do we give FERC imminent domain 
authority, as the administration suggested, as the only and the 
best way to assure electric transmission lines get built? If we 
do so, what is the way that we define the amount or the way in 
which those easements are given by eminent domain?
    Is there a new way to ensure capacity without trampling on 
the environment, the rights of the States, the rights of 
private property owners? How do we convince our American people 
that the offshore drilling process poses absolutely no threat 
to the protection of the substantial coastal resources or the 
substantial revenues that they receive each year from fisheries 
and coastal tourism? What is the proper mix of initiatives to 
increase supply and initiatives to reduce the demand through 
improving efficiency?
    Now, America is in a peculiar position of being blessed 
with rich and abundant resources of natural energy. However, 
any production of these resources must be tempered by a sound 
approach. We simply cannot blindly drill, dig and detonate our 
way out of today's energy crunch. Clean and safe production of 
coal and nuclear energy affords us a great opportunity to 
strengthen American energy's reserves and to reduce our 
dependence on imports. We should explore these options and not 
dismiss them out of hand, but to do this we must have a real 
commitment to bipartisanship and no more lip service.
    In 1991, when I was chairman of the committee, we started 
work together here on both sides of the aisle with a Republican 
President to put together the Energy Policy Act of 1992. It was 
hard, it was fierce, and it wasn't glamorous, and it wasn't 
easy, but it was serious work, and it required a serious and 
sincere bipartisan effort, which, believe it or not, this 
committee produced. The result of that effort led to the energy 
policy that has for the better part of the decade served as our 
energy policy.
    Today, we are faced with the same tough job, and I hope 
that we can generate the necessary commitment to 
bipartisanship.
    As we begin to consider the President's energy policy, I 
can't help but note that it was developed in secret. The Vice 
President's task force continued to stonewall Congressman 
Waxman and me at every turn in our request for the records of 
meetings in which the policy was discussed. They even refused 
to cooperate with the General Accounting Office, which is also 
investigating the development of that policy.
    I believe the American people deserve to know how their 
energy policy was put together and who had a seat at the table. 
Mr. Secretary, I hope that you can persuade the powers in the 
White House to play straight with the public and with us by 
providing the necessary information and by seeing to it that we 
have an open and a transparent and a proper process for moving 
forward in this matter.
    The administration's first attempt to push its energy 
policy has not yet met with a ground swell of support. Why? 
Perhaps because it is light on substance and perhaps because it 
is light on conservation and perhaps because it is heavy on 
glossy photos and reproductions. Balanced is not a word that 
does that document justice. I think it is time to put aside 
glossy books and break out the chalkboard so we can get 
together to talk about charting a balanced legislative approach 
to the Nation's energy concerns.
    Mr. Secretary, I stand ready to work with you and with our 
distinguished subcommittee chairman and to try, as I did 
before, to put together a truly meaningful and bipartisan 
legislation on energy. I hope that all will join in this 
effort. Thank you.
    [The prepared statement of Hon. John D. Dingell follows:]

    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    Thank you, Mr. Chairman. I am pleased that we have been able to 
arrange for my friend from Michigan, Secretary Abraham, to come before 
this Subcommittee. We have earnestly attempted to have you here sooner 
but, as often happens at the beginning of an Administration, things 
sometimes take longer than we want or expect.
    I would observe that I am quite pleased that our agenda has shifted 
from a debate over whether to abolish the Department of Energy to a 
debate over our Federal Energy policies.
    I am not envious of the task ahead of you, Mr. Secretary. 
California consumers face astronomical prices and rolling blackouts as 
a result of a dysfunctional market. One, I would note, that is not 
likely to remedy itself. Gasoline prices have climbed this year and 
could get worse, particularly if California's electricity problems 
force the shutdown of a refinery in the West, or if individual refiners 
decide to hold a little back to encourage a little boost in their 
bottom line, as the Federal Trade Commission reported they did last 
year.
    In the Pacific Northwest, which is dependent upon federally-funded 
hydroelectric power, the lack of adequate snowfall and rain leaves you 
with the unenviable task of having to choose between industries like 
aluminum manufacturing, which are dependent upon cheap, subsidized, 
electricity, or the commercial and recreational fishing industries, 
which depend upon the continued existence of salmon and other species 
of fish that are being wiped out by these hydroelectric plants.
    Of course, those are just some of the short term issues. The long 
term issues involve equally difficult choices. How do we exploit 
natural gas resources in the Rocky Mountains without trampling on the 
rights of hunters? Is giving FERC eminent domain authority--as the 
Administration has suggested--the only and best way to assure new 
electricity transmission gets built, or is there a way to ensure new 
capacity without trampling on the environment, the rights of states, or 
the rights of private property owners? How do you convince the American 
people that off-shore drilling poses absolutely no threat to the 
substantial revenues they receive each year from coastal tourism? What 
is the proper mix of initiatives to increase supply and initiatives to 
reduce demand through improving efficiency?
    America is blessed with rich and abundant sources of natural 
energy; however, any production of these resources must be tempered by 
a sound approach. We simply cannot blindly dig, drill, and detonate our 
way out of today's energy crunch.
    Clean and safe production of coal and nuclear energy affords us the 
real opportunity to strengthen America's energy reserves and lessen our 
dependence on foreign imports. We should explore these options, not 
dismiss them out of hand. But to do this we must have a real commitment 
of bipartisanship, not more lip-service.
    In 1991, when I was Chairman of this Committee, I started work with 
colleagues on both sides of the aisle and a Republican President to put 
together the Energy Policy Act of 1992. It wasn't glamorous work, it 
wasn't easy work, but it was serious work that required a serious and 
sincere bipartisan effort. The result of that effort led to the energy 
policy that has, for the better part of a decade, served as our energy 
policy.
    Today we are faced with the same tough job; sadly we seem to lack 
the same sincere commitment to bipartisanship.
    As we begin to consider the President's energy policy, I can't help 
but note that it was developed in secret. The Vice President's task 
force continues to stonewall Congressman Waxman and me at every turn in 
our simple request for records of meetings at which the policy was 
discussed. They have even refused to cooperate with the General 
Accounting Office, which is also investigating the development of the 
policy. The American people deserve to know how their energy policy was 
put together and who had a seat at the table. Mr. Secretary, I hope you 
can persuade the powers that be at the White House to play straight 
with the public, and with us, by providing this information.
    The Administration's first attempt to push its energy policy has 
not been met with by a groundswell of support. Why? Because it was 
light on substance and conservation and heavy on glossy photos and 
productions. Balanced is not a word that does the document justice.
    It is time to set aside the glossy book and break out the 
chalkboard so that we can get about charting a balanced legislative 
approach to the Nation's energy concerns.
    I stand ready to work now, as I did before, to put together truly 
meaningful and bipartisan legislation on energy policy.

    Mr. Barton. We thank the distinguished full committee 
ranking member.
    We now recognize the full committee chairman, the 
distinguished gentleman from Louisiana, Mr. Tauzin, for his 
statement.
    Chairman Tauzin. I thank the chairman and particularly want 
to welcome and thank the Secretary of Energy, the Honorable 
Spencer Abraham, for being here with us today and beginning 
this official dialog.
    I want to echo Mr. Dingell's sentiments, first of all. We 
worked before in a bipartisan fashion; and, Mr. Dingell, we 
will again. We can differ on how well balanced that policy 
recommendation we have seen is and how well balanced our 
product is going to be, but I happen to think it is an 
extraordinarily well balanced set of recommendations, Mr. 
Secretary, and we intend to even improve on that as we go 
forward.
    Let me first say that every day, every week, every month 
since I have been privileged to sit on the chairmanship of the 
full committee and work with Mr. Barton as a subcommittee chair 
along with his ranking members and Mr. Dingell, we have been 
preparing for this moment. Our staffs have been working 
quietly. We, of course, have interacted with the Vice 
President's task force, and we are prepared to begin moving an 
energy proposal through this Congress and through this 
committee, and it will be comprehensive, and it will be 
balanced.
    I want to make a few quick points about it. First of all, 
on the Crossfire show that I recently appeared on, Bill Press 
asked me if it wasn't true that we Republicans were making up 
this crisis just to help our oil buddies, implying this was 
some sort of vast right wing conspiracy, designing a crisis 
that we might need to artificially correct.
    Let us test that argument. For the Nation to have a correct 
and sound and decent energy policy, Americans ought to know 
that they have a secure supply of energy, that they have a 
reliable supply of energy, that the energy provided to them is 
affordable and that it respects environmental and conservation 
objectives of our country. It is a four-point test. And the 
question we should ask ourselves is, do we indeed face a crisis 
in any one or all of those four elements?
    Well, first of all, we are much too dependent on foreign 
sources, and Joe mentioned it. When we are buying oil from Iraq 
and turning it into jet fuel to go out and bomb Iraqi radar 
sites, there is something illogical about that. To be 60 
percent dependent upon others for every gallon of gasoline we 
produce is not a very secure world I want my children to grow 
up in. Americans need to be a little more secure in our 
supplies than we are today, particularly when we would like our 
energy to be affordable. Why should we rest believing that we 
can trust others to price it fairly for us when we depend upon 
them for those supplies?
    Is it reliable? Well, we have seen the cracks in the 
reliability system. We have seen pipeline failures that led to 
a series of events of price spikes and incredible shortages in 
the Midwest last winter, and we have seen the California 
situation.
    We know that other potential problems lie in the electric 
grids and the pipeline systems and the marketing systems by 
which we receive our energy. We know about the boutique fuels 
problem and those market dislocations, and we understand that 
Americans are very concerned about the reliability of supplies 
when the lights go out in California and the lights are shining 
in some other part of America, that is not the America that we 
have fought for and dreamed for and wished for our children.
    We want all Americans to share equally in secure, reliable 
sources; and when gasoline prices go up to $3 for a family that 
is struggling to survive and has to have transportation to get 
their kids to school or go to work, as we live further and 
further, in many cases, from our employment because of urban 
sprawl and traffic congestion, do we really have affordable 
energy in this country? When people can't afford to heat their 
homes, keep their homes cool in the summer in my part of the 
country, and people are dying of the cold and the heat in the 
summer, that is not the America I think we all dream for, fight 
for and live for.
    When in fact we all have concerns that we haven't paid 
enough attention to conservation, that we have become a gas 
guzzling society again, and we recognize we can do an awful lot 
more to be prudent about the way in which we use energy in this 
country, really doing our job in conservation, in protecting 
the environment in that regard.
    The answer to all those questions is that we are not yet in 
crisis, but we are approaching it.
    And here are four good points, quickly.
    One, I am delighted we have an administration that wants to 
be proactive here. This committee wants to be proactive. Too 
often, the Congress is reactive to a crisis. America shouldn't 
have to wait before in the long lines at the gas station and 
before Americans simply can't afford to pay their utility bills 
and utilities go bankrupt and lights go out before we take 
action. All the signs are there. We have a crisis in every one 
of those four categories, and I am so pleased that we are 
prepared to be proactive instead of reactive for a change. That 
is exciting to me.
    Second, I know this plan has been criticized as being a 
gift to the administration's friends in the energy industry. 
This is a consumers' energy wish list when you read that list. 
It is a consumers' energy wish list. It is new ways in which 
consumers can take control of this marketplace by reducing 
demand, by conservation and renewable sources, by literally 
impressing upon Americans the fact that if we are going to use 
energy we ought to produce more of it for ourselves instead of 
depending upon reliable sources. And it is so broad that it 
reaches every aspect of potential security and reliability and 
affordable sources of energy for our country, and that is 
exciting to me.
    I think consumers ought to take some real joy in the fact 
that Congress is finally going to be debating a bill that is 
going to help consumers feel comfortable that they can have 
reliable, affordable sources of energy that won't damage and 
destroy the environment and will focus on consumers' 
obligations to be more prudent in the use of that energy in 
America.
    Third, I find very few controversial features of this plan. 
Now I know the press has focused on the controversial features, 
and we are going to do that in our political debates here. We 
always do that. But so much of this plan is noncontroversial. 
So much of it ought to fly through this committee, Mr. 
Chairman, because this committee knows how to work across the 
aisle when we have got a good plan for America. We are going to 
do that, Mr. Secretary.
    Finally, I am delighted we have a legislator in the 
position of Secretary of the Department of Energy. You 
understand this legislative process and you know the role of 
the legislator in crafting and drafting and producing the 
legislation that backs up the proposals and the principles that 
the Vice President has articulated in the draft plan. You know 
that relationship. You respect it. You are someone we can trust 
in that process; and I feel extraordinarily comfortable with 
your expertise, your knowledge, your presentation of the issues 
that, as I have seen them in the press over the last several 
weeks and months, and we are going to have a great relationship 
as we move, I think, a comprehensive energy plan that indeed 
focuses on energy security, reliability, affordability and 
protection of our environment and now conservation objectives.
    Thank you, Mr. Secretary.
    [The prepared statement of Hon. W.J. ``Billy'' Tauzin 
follows:]

 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce

    I would like to thank Chairman Barton for holding this important 
hearing. I would also like to thank our distinguished witness, the 
Secretary of Energy, the Honorable Spencer Abraham.
    We're here today to talk about the President's proposal for a 
National Energy Policy. Some have tried to criticize the President's 
report--unfairly I believe. Anyone who's read the report sees right 
away that this is a balanced, responsible proposal.
    The problems we're experiencing today are the result of a lack of a 
systematic, comprehensive approach to energy policy and our national 
security. It's been almost a decade since we've looked at the big 
picture and thought critically about reducing our Nation's energy 
demands and about how we're going to meet our energy needs.
    People have criticized the report as being an energy industry wish 
list. This is more appropriately called an energy consumer's wish list. 
This report is loaded with policies that will protect the environment, 
encourage efficiency, promote renewables, and ensure affordable energy 
for all Americans for years to come.
    It is refreshing that this report talks openly and honestly about 
how we plan to meet our Nation's energy needs. Not only does it talk 
about renewables and new pollutant standards, but it also talks about 
the source of more than half our Nation's electricity--coal. A number 
of my colleagues on the other side of the aisle would have to agree 
with me that any discussion of how we intend to meet the energy needs 
of the 21st century must involve coal. The questions are how do we make 
it cleaner and more efficient. The President's proposal answers those 
questions.
    It also talks honestly about nuclear power. Two large nuclear power 
plants came back on line earlier this month in California, and prices 
for wholesale power dropped dramatically. Ask Californians if they 
would like to have more nuclear power plants now.
    The bottom line is, this report is loaded with potentially 
bipartisan solutions to our Nation's long-term energy problems. 
Politics aside, there is a lot here that we can all agree must be done. 
There are very few things in this report that are controversial.
    I thank the Secretary and the Administration for the hard work 
they've done putting this proposal together. And I look forward to 
working with my colleagues across the aisle when considering these 
recommendations in a bipartisan fashion.

    Mr. Barton. Thank you, Mr. Chairman.
    Now in the absence of Mr. Boucher to give the ranking 
minority statement, Congressman Markey of Massachusetts, one of 
our distinguished members.
    Mr. Markey. Thank you.
    Welcome, Mr. Secretary. Welcome to the committee.
    There is a part of the last few months that reminds me of 
my favorite television show when I was a boy, which was Rocky 
and Bullwinkle. At the end of every Rocky and Bullwinkle, there 
used to be this little segment where Mr. Peabody, this dog 
scientist, used to take this little freckled-faced, red-haired 
boy Sherman into the way-back machine, and in the way-back 
machine, they used to go and study fractured history from the 
long ago past; and to a very large extent that is what is 
happening here in this administration.
    Back in 1976, when I was being elected to Congress, the 
average automobile got 13 miles per gallon. The auto industry 
said it was technologically impossible to make automobiles more 
efficient, although when I asked my father, pop, what was your 
first car, he said it was a model A, 1930, 46 years before. I 
said, what did it get for mileage? And he said, well, 12, 14 
miles a gallon. I said, how about the Ford Fairlane out there? 
He said, well, 12, 14 miles a gallon. Forty-six years later.
    Well, this Congress passed laws mandating that automobiles 
double their fuel efficiency in the next 10 years, and they 
did, and it was successful. And 10 years later, by 1986, the 
price of oil had dropped to $12 per barrel because we were 
using our technology to be successful.
    The United States only has 3 percent of all the oil in the 
world. OPEC has 76 percent. That is our weakness. We should 
drill in nonenvironmentally sensitive areas all over the United 
States, even on public lands, and Bill Clinton increased that 
over what President Bush and President Reagan had done in the 
1980's and early 1990's. We believe in that. But we cannot 
compete with them in terms of drilling. And the 
administration's proposal to go to the Arctic National Wildlife 
Refuge, to go to other environmentally sensitive lands as an 
answer to this, quote, unquote, crisis is, in my opinion, 
morally wrong, ethically wrong, generationally wrong.
    Is there a national electricity crisis? No, there is not. 
Is there a crisis in California because of a law which was 
framed very poorly and historic drought in the Pacific 
Northwest? Yes, there is. Do the States which touch California 
as a result have serious problems? Yes, they do. Does the rest 
of the country have an electricity crisis? No, it does not.
    Is the answer to drill in the Arctic to build a pipeline 
which will come down to California, to a State that doesn't use 
oil to generate electricity? No, it is not. That oil would only 
go into SUVs to get 14 miles per gallon that should be getting 
25 and 30 miles per gallon, because there has been an amendment 
attached to every appropriations bill for the last 7 years 
since Newt Gingrich took over which prohibits the Congress--
prohibits looking at SUVs because of the increased fuel economy 
standards.
    It is hot outside today, very hot here in Washington. 
Forecasts are that it will go up to 92 degrees. People don't 
like to walk outside on days like today, because for that every 
15 minutes that we are walking outside, there is about 2 hours 
of energy that just drain out through the soles of their shoes. 
They lose their energy. People like to stay inside on days like 
today. They don't like to walk around and take their breaks. 
That is the kind of day it is in Washington.
    Now, 35 percent of all electricity used in the United 
States on days like today is air conditioning. In Texas, it is 
75 percent of all electricity used in the summer is air 
conditioning.
    Now, if you have got a crises and you are trying to solve 
it, wouldn't you look at air conditioning? Well, this 
administration did, pursuant to a law which I passed as the 
chairman of this subcommittee back in 1986, a law which 
mandated that a rulemaking take place which increases the 
efficiency of air conditioners. The Clinton Administration 
finished that rule about 5 months ago. This administration 
looked at that rule and said, oh, that would be too onerous a 
burden to impose upon the air conditioning industry. We can't 
impose that standard.
    Now, this is, by the way, the very administration in a way-
back machine that is trying to argue that we can 
technologically construct the technology that can knock down 
every Chinese and Russian missile, a thousand at a time if 
necessary, coming in the middle of the night at 1,000 miles an 
hour. But if you ask them if it is possible to increase the 
standards for air conditioners by 30 percent, which the second 
largest manufacturer in the country, Goodman, is already 
meeting, they say, oh, that is technologically impossible. How 
could you impose such a burden upon the air conditioning 
industry?
    So when we talk of Star Wars, there is no technological 
barrier that we can't break because of our national security. 
But when we talk about energy, every technological burden, 
every technological hurdle is too high. Suddenly, the 
technological giant becomes a low-tech lilliputian.
    Well, ladies and gentlemen, the budget of this 
administration reflects that. One, their plan is a Trojan horse 
being used by the energy companies to take off of the books 
health and environmental laws which the energy companies have 
bitterly opposed for a generation. And, second, there is 
underfunding for renewables and for conservation. And where it 
is in their budget they tie it to drilling in the Arctic 
National Wildlife Reserve, in the most precious reserve that we 
should be preserving.
    My own feeling is that it is morally wrong, ethically wrong 
for this generation to not first ensure that every SUV and 
every automobile and every air conditioner is made efficient 
over the next 10 years, before we drill in the Arctic 
wilderness or other precious, environmentally sensitive lands 
that should be preserved for generations to come.
    And, second, that this administration should go to OPEC, 
and they could demand that OPEC turn on the spigots as they 
insisted that Bill Clinton do. It is amazing to me that 
Secretary Cheney continues to maintain that OPEC is not to be 
blamed for this problem, that it is a refinery issue inside the 
United States, even though our refining capacity has increased 
a million barrels a day over the last 10 years, while OPEC has 
reduced production by 2.5 million barrels a day since January 
in their announcements. If OPEC increases their production, 
this energy crisis, quote, unquote, largely will disappear. 
That is the reality. There is a direct correlation between the 
production as it is perceived by the marketplace and the price 
at the pump.
    So we are at an historic juncture. We believe that we 
should work together with the majority to construct a policy 
which will work for all regions of the country, but we cannot 
allow for a Trojan horse to be constructed which will be 
primarily used just to destroy health and environmental laws.
    I thank you, Mr. Chairman, and I ask unanimous consent that 
Mr. Waxman's opening statement be included in the record at 
this point.
    Mr. Barton. Without objection, so ordered.
    The Chair wants to announce there is a pending vote, but we 
are going to continue the opening statements and try to not 
have a recess.
    The rules of the committee allow the ranking members 5-
minute opening statements. All other members are allowed 3-
minute opening statements. We are going to try to adhere to the 
3-minute rule for the remainder of the opening statements.
    The Chair would recognize Mr. Ganske for a 3-minute opening 
statement.
    Mr. Ganske. Thank you, Mr. Chairman.
    Well, following Mr. Markey always gets my energy level 
going, and we could just plug in Mr. Markey to increase our----
    And I wanted to thank you, Mr. Secretary, for being with us 
today. This is really an important issue. I had a constituent 
pull me aside in the supermarket recently, and she said, you 
know, I am all for the environment, but I also--I don't want to 
freeze in the winter, and I don't want to cook in the summer. 
And in Iowa, which I represent, it is estimated that in just a 
few years we will have energy shortages, and unless something 
is done about that, we will be seeing blackouts like they are 
experiencing in California. So we need to do something about 
this.
    I do want to take this opportunity to thank this 
administration for making I think a very environmentally sound 
decision, and that was EPA administrator Christi Whitman's 
decision not to grant California a waiver on the clean air 
standards. Whitman said, quote, the administration is concerned 
about the risks of MTBE and drinking water in California and 
other States. Clean air and clean water are equally important. 
We do not want to pursue one at the expense of the other.
    And whereas I hear some of the members of the other party 
talking about this administration being for, quote, big oil, I 
would point out that big oil was not exactly enthusiastic about 
this administration's decision. But I think it was a wise one, 
and I am mentioning this, because it also has energy 
implications.
    As Mr. Markey pointed out, we are very dependent on foreign 
oil. It is important to have renewable fuels as part of our 
energy policy. Ethanol and soy diesel and other types of 
renewable fuels help us reduce our dependence on foreign oil. 
In addition, when those plants grow, they take carbon dioxide 
out of the atmosphere instead of releasing stored 
CO<INF>2</INF> into the atmosphere.
    That doesn't mean that coal shouldn't be part of the 
solution. We do need to devote additional research and 
development funds for helping ensure clean coal technology, for 
example.
    In terms of natural gas, you know, we are butting up 
against supply problems, and we do need to increase this. Most 
of the environmental groups would agree that natural gas is the 
cleanest burning fuel. In fact, the Sierra Club is already on 
the record as being in favor of a pipeline--natural gas 
pipeline from Prudhoe Bay. So we ought to look at that, and we 
ought to look at some more refinery capacity. We ought to look 
at, specifically, more pipelines and high power lines. This 
committee has jurisdiction over interstate energy issues, 
especially in the transmission area; and I think that is 
important. We need to work in a bipartisan way to solve those 
energy problems.
    Just the other day in Iowa, I took my son out to the golf 
driving range. We hit some golf balls. I will tell you, the 
wind was blowing across that field at about 40 miles per hour, 
and we ought to devote resources to expanding wind as a part of 
the energy solution.
    I have looked over the administration's proposals, and I 
believe that this committee will work in a bipartisan fashion 
with the administration to have a balanced policy. But, you 
know, we haven't had much of a policy for the last 8 years, and 
it is time now to move on, solve some problems, stop the old, 
tired, bitter partisan politics that we have seen cause so much 
gridlock in this town for a long time.
    With that, I will yield back.
    Mr. Barton. We thank the gentleman from Iowa.
    We would recognize the gentleman from Pennsylvania for a 3-
minute opening statement, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman; and thank you for 
reconvening the subcommittee's efforts to move forward with a 
cohesive approach to solving our Nation's most pressing energy 
challenges.
    I want to welcome Secretary Abraham and look forward to 
hearing his thoughts on how DOE's mission relates to the 
directives of the national energy report, as well as to the 
administration's budget request.
    As we have learned from California's current energy crisis 
and its relationship to the State's electricity deregulation 
plan, it is critical for all aspects of energy policy to 
interface appropriately with the other. It is critical that we 
have consistent and complementary policies in place that enable 
us to achieve our energy goals in a thorough and timely manner, 
and the key to consistent and complementary policies is 
providing adequate funding to support research and development 
efforts.
    Unfortunately, the national energy report and the 
administration's budget request fall short in this regard. For 
example, the increase of attention to and the funding of clean 
coal technologies comes at the expense of other important 
fossil energy research. Thus, when the national energy report 
and the administration's budget request is looked at carefully, 
I see an approach being advocated that actually discourages 
research into new, more efficient, more environmentally sound 
technologies. In my view, our national energy policy should pay 
special attention to those technologies that are likely to 
provide a significant payoff relative to increased efficiencies 
and potential for market contribution.
    I am particularly interested in seeing a number of 
technologies play a more prominent role in the formation of our 
national energy policy, including gas turbines, fuel cells, 
methane hydrates and combined heat and power. We must set a 
more aggressive schedule for heightening R&D efforts in these 
areas. Additionally, we must set benchmarks and clearly 
articulate what success is within the context of our national 
energy policy. If we do not sufficiently define success, we 
have no real means of monitoring progress.
    Like a lot of people, I was taken aback by the absence of 
concrete, specifically detailed goals in the national energy 
report. Again, how can a policy proposal be appropriately 
reviewed for consideration if a quantifiable objective or 
criteria for success is not identified? And how does one 
justify the indiscriminate shifting of funds away from critical 
programs that support the types of research oftentimes outlined 
as important in the national energy report?
    It would appear that, in many respects, the national energy 
report, as well as the administration's budget request, does 
not adequately address our Nation's most pertinent energy 
concerns. At this point, we don't have a balanced approach to a 
national energy policy but a lopsided one.
    It is of the utmost importance that the final product 
produced as a result of our discussions on a national energy 
policy be a balanced one. We all know the energy demands that 
exist, and we must utilize a diverse portfolio in meeting these 
demands.
    It is not, however, the time to cherry-pick among sources. 
As I have mentioned earlier, our national energy plan must be 
cohesive, and we must have consistent and complementary 
policies in place. We must continue to improve efficiency and 
safety of traditional sources, such as coal, gas, oil and 
nuclear, while also providing R&D support to new alternative 
technologies that enable them to come to market; and we must 
not accept the status quo when it comes to conservation 
efforts.
    As always, I am hopeful that we will be able to reach some 
agreement on these matters. I would like to think that the 
Department of Energy and the administration will work closely 
with the Congress on all energy policy. What we eventually 
decide upon will affect all Americans, and we should all work 
together toward that goal.
    Thank you, and I look toward to hearing from you, Mr. 
Secretary.
    Mr. Shimkus [presiding]. The gentleman yields back his 
time.
    I want to yield to the gentlewoman from California so she 
can make her opening statement and get to her vote.
    Ms. Harman. Thanks to the chairman and thanks to the 
regular chairman, Mr. Barton, for letting me sit on these 
subcommittee hearings every time. It is important, as a Member 
from California, certainly to me and my constituents, that we 
move forward with responsible legislation.
    I am pleased to welcome the person testifying before us 
this morning, because Secretary Abraham was a senator before he 
got there and understands why the anguished voices of 
constituents make such a difference. I think that as you sit 
and listen to us today, Mr. Secretary, you will hear the voices 
of 34 million Californians, all of whom are saying, why can't 
we have relief from the staggering electricity bills?
    I think one of the answers is available to you in your 
capacity as Secretary of Energy and in my more complete 
statement, which I want to submit for the record----
    Mr. Shimkus. Without objection.
    Ms. Harman. [continuing] I include that recommendation.
    We just heard from Mr. Doyle and we heard from Mr. Ganske 
before about the need to invest in renewables. It is our budget 
that has been cut, Mr. Secretary. The investment in renewables 
has been cut by 50 percent in the 2002 budget. The investment 
in energy efficiency has been cut by 30 percent. All the 
statistics show that these programs pay off.
    And I just want to close on this note, Mr. Chairman. I will 
be offering an amendment in full committee when we mark up the 
Barton bill to restore the 2002 funding to the 2001 level. I 
hope on a bipartisan basis this committee will support it and, 
better yet, that the Energy Department will trump me and urge 
the restoration of these programs first. Because I think that 
you can get this done without the need for this committee to 
act. And if you get this done, 34 million people in California 
will say thank you.
    One final comment. The Vice President was here yesterday 
speaking to a bipartisan group of the California delegation. I 
raised this issue then. He did not respond at all. He said 
nothing about this subject. I hope since it is within your 
jurisdiction, Mr. Secretary, that you will bring it to his 
attention again. It should be part of your national energy 
plan, and it will bring tangible, practical relief right now to 
34 million Californians.
    Thank you very much, Mr. Chairman.
    Mr. Shimkus. I thank the gentlewoman, and she better scoot 
if she is going to get there.
    I recognize myself for the allotted time; and I want to 
thank you, Mr. Secretary, for coming and joining us today. It 
is an interesting time to talk about energy, which some of us 
on the subcommittee have been doing for 5 years now; and it is 
good to see Joe back there as a trusted staffer who served with 
us and helped me out many times. And, Joe, welcome.
    I basically say, you know, this country has to make a 
decision. If it wants to use electricity, we have to generate 
it. If we want low-cost gasoline, we have to drill for it, we 
have to transport it, and we have to refine it. So, in some 
ways, we might be looking back in time when we had to make 
those decisions in the past, and those are the same decisions 
in the future. The basic economic supply and demand equations 
work, and they work in the ability to distribute resources the 
best way at the cheapest cost if you allow the markets to work.
    I want to also publicly thank the administration and 
applaud their decision denying the waiver for the Clean Air Act 
for California trying to get out of the Clean Air Act. The 
decision will continue to mean cleaner air for California, 
lower gasoline prices for those areas in the country that add 
oxidents to their gasoline, and it will help our Nation's 
farmers.
    I also think it builds on this debate as far as a national 
energy portfolio, and it will be a constant message that I will 
talk about as having some internal ability to produce our own 
fuels. Of course, the biofuels movement is big and strong, as 
you know, here on the Hill, and we will really want to play a 
key role in a national energy policy.
    I would also like to commend the administration on this 
energy plan, especially their commitment to clean coal 
technology. The State of Illinois and Southern Illinois 
University in particular have been at the forefront of using 
clean coal technology funds to find cleaner ways of burning 
coal. SIU is currently working on a low emission boiler system 
in Elkhart, Illinois, to reduce emissions from coal plants; and 
of course DOE is involved to some extent in that project.
    This focus on clean coal technology by the administration 
shows that you can balance the environment with supply and 
price so that we have clean, reliable, affordable energy.
    I also want to add, in addition to the diverse portfolio of 
fuels, that we need to talk about nuclear power, and of course 
Illinois is a major nuclear power State with about I think 10 
generating facilities, one in central Illinois that is close to 
my district. But we also have a facility in the deep southern 
part of the State of Illinois that is the only U.S. uranium 
conversion facility. If it closes, we would have to rely on 
foreign countries for our uranium to power nuclear plants. 
National securitywise, I think that is very dangerous.
    I have been talking with your agency on the conversion 
plan. It was called Converdine in my metropolitan--down in the 
State of Illinois.
    I know that I have mentioned this many times before, but I 
feel I need to say it again. The previous administration's fuel 
choice was natural gas, mainly because it burns cleaner than 
other sources of fuel. While they were promoting natural gas, 
they were also limiting where and how we get at creating a 
scarce resource. And a lot of these high natural gas prices are 
a part of the high prices this summer, and they were the high 
cost of heating homes in the fall that many of us experienced. 
The result has been much higher than anticipated prices and a 
shortage of fuel. The President's energy plan calls for us to 
have a diverse fuel mix that uses all our Nation's fuels, not 
just one.
    I notice in your testimony that you focus on energy 
efficiency, and you probably know this committee will be taking 
up conservation energy efficiency legislation soon. What I 
focus on in the efficiency issue is getting coal power plants 
greater than 35 percent, and if we increase that, that helps a 
wide range, from the three pollutant strategy also of the 
carbon dioxide issue.
    Also, efficiency in the transmission grid will be very, 
very helpful. I think that is a place where we can put research 
and development.
    I have gone over my time. Many of my colleagues have come 
back. I thank you for this opportunity; and, with that, I will 
yield back my time.
    [The prepared statement of Hon. John Shimkus follows:]

 Prepared Statement of Hon. John Shimkus, a Representative in Congress 
                       from the State of Illinois

    Good afternoon, Mr. Chairman and to all whom have shown up this 
morning. I am looking forward to this hearing today.
    First of all I would like to thank Secretary Abraham for testifying 
this morning. I would like to take this opportunity to applaud the 
administration's decision to deny a waiver from the Clean Air Act for 
California. The decision will mean cleaner air for California, lower 
gasoline prices for those areas of the country that add oxygenates to 
their gasoline, and it will help our nation's farmers. I think it also 
builds on the Bush Administration's plan to increase domestic sources 
of energy. This decision was a win for the environment, a win for the 
consumer and a win for rural America.
    Second, I would like to commend the Administration on this energy 
plan, especially their commitment to clean coal technology. The State 
of Illinois, and Southern Illinois University in particular, have been 
at the forefront of using clean coal technology funds to find cleaner 
ways of burning coal. SIU is currently working on a low emission boiler 
system in Elkhart, ILto reduce emissions from coal plants. This focus 
on clean coal technology by the Administration shows that you can 
balance the environment with supply and price, so that we have clean, 
reliable and affordable energy.
    I know I have mentioned this many times before, but I feel the need 
to say it again. The previous administration's fuel of choice was 
natural gas, mainly because it burns cleaner than other sources of 
fuel. While they were promoting natural gas, they were also limiting 
where we were able to get it, creating a scarce resource. The result 
has been much higher than anticipated prices and a shortage of fuel. 
The President's energy plan calls for us to have a diversified fuel mix 
that uses all our nation's fuels, and not just one.
    I notice in your testimony that you focus on energy efficiency, and 
as you probably know this committee will be taking up conservation and 
energy efficiency legislation soon. What I also hope the administration 
will focus on is making energy more efficient at the generation and 
transmission stages. Currently some utilities are testing 
superconductors to transmit electricity more efficiently. Right now 
coal efficiency is only about 35%. By improving the efficiency of how 
we burn coal and how we transmit power, we can supply more power 
without adding as many generation facilities or without increasing 
pollution. We have seen nuclear power plants becoming much more 
efficient, I believe the 103 nuclear plants that are on-line today, 
produce more power than the 110 nuclear plants than were on-line 10 
years ago. I hope the administration will continue to focus on this 
area as well.
    Thank you.

    Mr. Shimkus. I will go to the gentleman from Ohio, Mr. 
Sawyer, for 3 minutes.
    Mr. Sawyer. Thank you very much, Mr. Chairman.
    I have a longer statement, but I would like to join with my 
colleagues in welcoming Secretary Abraham and saying thank you 
for being here and by saying that I really welcome the proposal 
that you and the President have formulated with regard to 
national policy. I share my colleague's concern that it needs 
work, that it--I believe it is too narrow. I think there are 
some arenas that need sharper focus, and there are other 
elements besides supply that need emphasis.
    But we can all agree that the country will require new 
sources of oil and natural gas and that our capacity to produce 
electricity to meet our needs remains important. But we also 
need to find better ways to get energy to people to actually 
create regional markets and to improve the efficiency with 
which we consume it. In short, we need energy policies that 
reflect the complexity of the problem that we are trying to 
deal with and not simply its urgency. As we have learned from 
California, it is vastly more important that we do it right 
than that we do it immediately.
    Let me just concentrate for a moment on the transmission 
network. Without real improvements, it seems to me we won't be 
able to move significant amounts of energy from new plants to 
waiting customers, and competitive regional markets will remain 
an illusory goal that is just beyond our grasp. There is a lot 
of work that needs to be done to have genuine markets for 
electricity; and, at least so far as I have read, there are 
only limited suggestions in the published plan that I have seen 
so far to deal with that problem.
    We really need a transmission system that resembles an 
interstate highway and not just a collection of two-lane 
blacktops. We need an equitable method for building new 
transmission capacity. We need to remove bottlenecks. We need 
to establish reliability standards for companies so that we 
have reserve energy on hand, to a standard that allows 
companies to be competitive but which has high expectations to 
avoid the kind of problems we have seen in California. We need 
rules that encourage investment in transmission lines by also 
guaranteeing that all suppliers have equal access to that 
interstate highway.
    And something that we really haven't talked much about but 
I think is an important part of this, we need to encourage 
modern transmission technology so we can carry more electricity 
more efficiently over existing rights of way, as well as 
finding ways to site new rights of way.
    In short, Mr. Secretary, I join you in suggesting that we 
need a thoughtful, diverse national energy policy to provide 
for our future needs. We need a policy that recognizes energy 
efficiency as the great untapped energy resource that it is and 
uses it to reduce our need to burn more and more fuel. It is a 
policy that will capitalize on our ingenuity by encouraging 
investment in innovative energy technologies, a policy that 
creates infrastructure for the delivery that matches the scale 
of our interstate highway system.
    We have a great opportunity before us, and I just want to 
say thank you for your being here and for the work that we are 
beginning today.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Tom Sawyer follows:]

  Prepared Statement of Hon. Tom Sawyer, a Representative in Congress 
                         from the State of Ohio

    Thank you, Mr. Chairman. I would also like to thank Secretary 
Abraham for coming today as we begin to discuss a national energy 
policy. Let me begin by saying that I welcome the proposal that 
President Bush made last month for a national policy. I welcome the 
debate that is beginning. The President has helped focus the nation's 
attention on the need to develop a comprehensive approach towards 
energy issues. Unfortunately, the President's plan is overly narrow, 
unfocused, and emphasizes the wrong element. He presents the nation's 
current energy situation as predominantly a problem of supply. But we 
should not allow ourselves to have a false sense of security that we 
can rely on increasing energy production to take care of our future 
energy needs.
    We can all agree that our country will require new sources of oil, 
electricity and natural gas. But we also need to find better ways to 
get that energy to people and businesses, and to improve the efficiency 
with which we consume it. In short, we need energy policies that 
reflect the complexities of the problems that we face and not merely 
the perceived urgency. As we have learned from California, it is vastly 
more important that we do it right than that we do it just now.
    The President is placing faith in the ability of energy companies 
to provide a large enough supply of energy to satisfy our continuously 
expanding demand for energy. It reminds me of the faith with which 
California officials embraced their electricity restructuring plan. 
That wasn't good enough. We must confront our need to be far more 
efficient in our use of energy, and confront our need to build an 
infrastructure of pipelines and transmission lines that is capable of 
getting energy to the people who need it.
    On the subject of electricity, the President's plan suggests that 
1,300 new power plants will need to be built by 2020, an average of 
more than one new plant a week. But the President avoids mentioning a 
recent Department of Energy report (Scenarios for a Clean Energy 
Future) that shows that approximately half of those new plants will not 
be necessary if energy efficiency measures are put in place. The 
President also suggests that relaxing environmental regulations will 
help by allowing the oldest and dirtiest plants to produce more power. 
Reviving old plants is not a necessary step. More plants are being 
planned and built, including nearly 14,000 Megawatts over 1998 levels 
in Ohio alone.
    Moreover, without significant changes to the electrical 
transmission network, we still will not be able to move significant 
amounts of electricity from the new plants to waiting customers, and 
competitive regional markets for retail sales will remain an illusory 
goal beyond our reach. The President has made only the most limited 
suggestions to improve the electrical transmission system. There is far 
more work that needs to be done to have genuine markets for 
electricity. We need a transmission system that resembles an interstate 
highway, not a collection of 2 lane blacktops. We need an equitable 
method for building new transmission capacity in order to remove 
bottlenecks in the movement of electricity. We need to establish 
reliability standards for companies selling power so that they have 
reserve energy on hand to make blackouts less likely. We need rules 
that encourage investment in new transmission lines, while also 
guaranteeing that all suppliers have equal access to the new interstate 
transmission highway. And we need to encourage modern transmission 
technology to carry more electricity more efficiently over existing 
rights of way.
    California stands as a cautionary tale to us as we develop the 
electrical aspects of a national energy policy. Those of us in the rest 
of the country cannot just continue to expect that we will avoid the 
fate of California. We cannot expect that building enough power plants 
will be the singular and sufficient way out of the electricity problems 
that we face. It is not. Two important ingredients are missing from 
that approach. First, we need the efficient transmission highway system 
that I mentioned before. Second, we require policies that allow federal 
and state authorities to enforce the rules of the electricity 
marketplace. But those authorities must have the will to enforce the 
rules. So far I have not seen a demonstration of that will from the 
FERC.
    With regard to national energy policy as a whole, the President 
inaccurately protests that ``we're running out of energy in America,'' 
and so his first response is to follow his instinct to try to expand 
the supply of traditional energy sources. We cannot simply build power 
plants and drill our way out of our country's energy problems. 
California embraced a faulty law because they thought that a 
functioning market for electricity would emerge from whatever plan they 
put together. Similarly, we must look beyond the President's instinct 
to focus on supply as the simple solution to our energy problems.
    We need a thoughtful, and diverse national energy policy to provide 
for our future needs. We need a policy that recognizes energy 
efficiency as the great untapped energy resource that it is, and uses 
it to reduce our need to burn more and more fuel; a policy that 
capitalizes on our ingenuity by encouraging investment in innovative 
energy technologies; a policy that creates an infrastructure for the 
delivery of energy that matches the scale of our interstate highway 
system. We have a great opportunity before us to create such a 
comprehensive and diverse policy, and we should not squander it.

    Mr. Shimkus. I thank the gentleman for his punctuality.
    Now I turn to the Vice Chair of the full committee, Mr. 
Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. This is indeed an honor to have you 
here, and this committee plans to work very closely with the 
Department.
    Let me also thank you for one additional thing that I think 
has been overlooked. I think through the President's--the 
administration's report and through the efforts of you, 
everything is on the table as it relates to energy policy. It 
is amazing to me as I hear opening statements how different the 
view of the world is, especially as it relates to energy. 
Clearly when we look through different windows, Members of 
Congress see different things, just like the American people 
see different things.
    I want to pledge to you on behalf of this committee that we 
are going to be three things to the Department of Energy. We 
will be responsive to the needs that you see and that the 
country sees in energy needs; we will always be balanced in our 
approach to all the issues that deal with issues in the 
Department of Energy; and we will be tough, tough on our 
oversight of the many responsibilities that fall under the 
Department of Energy.
    I want to commend the administration and yourself for what 
I think is truly a comprehensive energy policy. Though it has 
been referred to as a ``slick book,'' I will tell you that it 
is comprehensive.
    Congress is a makeup of the American people. This product 
in the end will have a test of this subcommittee. It will have 
a test of the full Energy and Commerce Committee. It will have 
a test of the House and the Senate; and, ultimately, it must 
pass the test of a majority of the American people, because 
that is the system our Founding Fathers designed.
    So regardless of whether they are supporters or detractors, 
in the end it will become law if a majority of America is 
supportive of it; and that is a system that we have trusted for 
quite a while.
    I could give the same speech that Mr. Sawyer just gave on 
transmission, but it would be the same. It is a shame we had to 
go together, because I think we are the two most passionate 
people as it relates to that national highway that we need for 
electricity transmission, to make sure that the security is 
there.
    And I would tell you that there was one point of Mr. 
Markey's statement that is wrong. Every region does not have a 
crisis today. Every region is susceptible to a crisis tomorrow, 
because the infrastructure is not there to move power like we 
need to.
    Mr. Secretary, let me thank you once again. This energy 
policy will be developed within the legislative branch. We will 
work closely with the administration, but it will have the 
input of the American people through its representatives every 
step of the way, and I pledge to you our commitment to work 
with you on that process.
    Thank you, Mr. Chairman. I yield back.
    Mr. Barton. I thank the gentleman from North Carolina.
    I would recognize the gentleman from Ohio, Mr. Strickland, 
for a 3-minute opening statement.
    Mr. Strickland. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    Mr. Secretary, I suspect you are prepared to answer 
questions for me regarding the Portsmith gas diffusion plant, 
because you know how important that facility is to the workers, 
communities and the economy of southern Ohio; and I appreciate, 
Mr. Secretary, the attention that you have given to that 
facility thus far.
    However, I would like to speak to the bigger picture, and 
that is the importance of maintaining a reliable and economic 
nuclear fuel industry in our country. Undoubtedly, USEC's 
premature decision to cease production at Piketon raises 
important energy policy questions.
    The report issued by the National Energy Policy Development 
Group in May, and I quote, recommends that the President 
support the expansion of nuclear energy in the United States as 
a major component of our national energy policy. I don't 
disagree with that recommendation, but I believe it is 
incomplete, because it ignores our need to maintain a reliable 
and economic domestic fuel supply.
    USEC's decision last June to shut down the Piketon plant 
leaves us with only one operating gaseous diffusion plant in 
this country, located in my friend Ed Whitfield's district in 
Paducah. We heard testimony in this subcommittee on March 27 of 
this year that advanced technology nuclear reactors will result 
in a trend toward higher assay fuel. The Paducah plant is not 
licensed to enrich above 5 percent assay, while the Piketon 
plant is licensed to enrich up to 10 percent. Yet Piketon has 
ceased to produce any product.
    I hope, Mr. Secretary, that you can help me understand the 
administration's--what I perceive to be incomplete approach to 
boost nuclear power supplies. It makes no sense to me to have a 
national energy policy that calls for increasing domestic 
energy supplies and specifically supports the development of 
advanced nuclear reactors yet ignores the fact that in the near 
future there could be no domestic nuclear fuel supply to meet 
the demands of these new reactors.
    Currently, we depend upon Russia for 50 percent of our 
nuclear fuel, and USEC is proposing to import even more fuel 
from Russia's commercial vendors. And last fall the Nuclear 
Regulatory Commission issued a report that predicts that the 
Paducah plant may cease to be economically viable after 2003.
    In October of last year, the previous administration 
proposed a research effort on advanced centrifuge technology at 
the Oak Ridge, Tennessee, site. This initiative includes the 
use of the modern but now empty gas centrifuge facilities at 
Piketon for a centrifuge pilot plant. Experts at Oak Ridge 
suggest that new gas centrifuge mechanisms using carbon fiber 
components could be perfected and deployed at a cost of $52 per 
separative work unit, thus making this a globally competitive 
technology.
    Presently there is no private sector approach emerging to 
ensure that the domestic uranium enrichment industry remains 
competitive in the world market. It seems to me there is a role 
for the Federal Government here; and before his election, 
President Bush agreed. In fact, on October 4, 2000, then 
Governor Bush wrote to Governor Taft and stated, ``If I am 
elected President, my administration will aggressively explore 
how the workforce and the facilities at the Piketon site can 
continue to serve our national interest. I believe that our 
Nation must continue to pursue research and development of new 
technologies for the use of uranium enrichment.''
    Mr. Secretary, I was disappointed that the report from Vice 
President Cheney's Energy Policy Group did not address the fact 
that the U.S. is growing increasingly dependent on foreign 
supplies for its nuclear fuel, upon which 20 percent of our 
Nation depends for the electricity it uses. To my knowledge, 
the report does not in any way illuminate a path forward for 
enrichment technology that would honor the commitments made in 
the October 4 letter by Mr. Bush--President Bush.
    Mr. Barton. If the gentleman could wrap it up. He is about 
a minute and a half----
    Mr. Strickland. Yes, sir. One more sentence.
    Mr. Secretary, we can see the handwriting on the wall, and 
I am hopeful that you, sir, will address these concerns and 
share with us the administration's approach to ensure a 
reliable and economic supply of nuclear fuel before a new 
crisis is upon us.
    And, once again, I thank you for what you have already 
done, sir.
    Mr. Barton. We thank the gentleman from Ohio and commend 
him on his stalwart efforts on behalf of the Portsmith plant. 
He has been ever vigilant on that and continues to be so.
    The gentlelady from California, Mrs. Bono, is recognized 
for a 3-minute opening statement.
    Mrs. Bono. Thank you.
    Mr. Chairman, the ongoing electricity energy in California 
is a sign of trouble for the Nation as a whole. As you well 
know, our energy infrastructure is crumbling. Its supply is not 
keeping up with increased demand. In California, we have 
learned these lessons the hard way. But while the State must 
accept most of the blame associated with its efforts to 
deregulate, I believe the Federal Government has an obligation 
to show guidance and leadership as well.
    In many ways, Washington has helped. Mr. Chairman, under 
your and Chairman Tauzin's leadership, this subcommittee 
approved a bill which would have brought additional supply 
online, while showing compassion for those unable to afford 
these high rates, by adopting my amendment to increase aid 
under LIHEAP. In fact, many of the concepts in your bill were 
implemented by both President Bush and Governor Davis. However, 
I also believe the Federal Energy Regulatory Commission should 
have and still must be more aggressive in issuing 
reimbursements in bringing both electricity and gas prices to 
just and reasonable rates.
    And I believe that while this administration has done a 
commendable job in looking toward the long-term, I call upon it 
to continue working with congressional leadership and 
California Members to address the short-term needs of our 
State.
    Mr. Chairman, the National Energy Policy Report contains 
many valuable recommendations.
    I was quite pleased to see additional emphasis placed upon 
increasing energy conservation and efficiency. Specifically, 
your recommendation of a temporary efficiency-based income tax 
credit for the purchase of new hybrid fuel cell vehicles is 
very much in line with H.R. 1864, which I have introduced with 
Congressman Dave Camp. I look forward to the administration's 
support of this legislation.
    In addition, I applaud the report's recommendations to 
increase America's use of renewable and alternative energy such 
as biomass, wind, geothermal and solar. The increased use of 
landfill methane, for which I have also introduced legislation, 
is also a step in the right direction. California's 44th 
Congressional District has long been a leader in alternative 
energy and I look forward to seeing expanded growth in this 
area.
    Our country must take a comprehensive and serious look at 
long-term energy policy if we are to maintain a robust economy 
and ensure an adequate supply of power to fuel continued 
economic growth. I look forward to continuing to take on this 
challenge with the administration.
    I look forward to Secretary Abraham's appearance here today 
and I thank him for coming.
    Mr. Barton. I thank the gentlelady. We would go to the 
gentlelady from Missouri for a 3 minute opening statement. 
Congresswoman McCarthy.
    Ms. McCarthy. Thank you Mr. Chairman. I am going to put the 
text in the record. I am just going to mention a couple of 
things because of having worked with you over the years----
    Mr. Barton. Without objection.
    Ms. McCarthy. [continuing] you know probably how I feel 
about many of these issues.
    I am delighted, Mr. Secretary, that you are here today in 
your capacity as our Secretary of Energy and I wanted to share 
just a couple of thoughts with you because, as the chairman 
knows, I believe that we can create a win-win with this whole 
issue of energy use. We can address new technologies and make 
those economic development opportunities for our own companies. 
We can then export those technologies to developing countries 
who need not necessarily coal-fired plants but other means of 
producing and obtaining energy. That would be great for our 
economy. That would also be great for global warming and would 
also be great for national security, because we would depend 
less on imports of foreign sources and we would be creating 
many more of our own.
    So with that in mind, I hope you will comment today on the 
Department of Energy's revised budget request which calls for 
less than $4 million for the renewable energy production 
incentive. That is the REPI program. The funding request is far 
short of the estimated $14 million that is needed even for 
eligible projects this year, let alone the $25 million needed 
to fully fund the program, and will primarily be a shortfall of 
funding for landfill gas to energy projects. But landfill gas 
to energy products significantly reduce emissions of methane, 
the second most abundant greenhouse gas.
    I am working on some legislation to reauthorize and improve 
the REPI program and to eliminate the bias against landfill gas 
to energy projects. But the new program will continue to 
require funding. I hope you can give us your thinking on why 
the Department has not requested full funding, the program that 
promotes renewable energy production and reduces significant 
emissions of greenhouse gases. And beyond that, I look forward 
very much to your remarks and to the give and take we will have 
today and as we work together in the future in a bipartisan way 
to address many of these issues that I know the public expects 
us to, and to do so in a collaborative effort.
    Thank you, Mr. Chairman. I would yield back the balance of 
my time.
    [The prepared statement of Hon. Karen McCarthy follows:]

Prepared Statement of Hon. Karen McCarthy, a Representative in Congress 
                       from the State of Missouri

    Thank you, Mr. Chairman, for holding this very important hearing to 
examine the National Energy Policy developed by the Administration. I 
am very pleased to have the opportunity to learn from the distinguished 
Secretary of Energy, Mr. Abraham what the priorities are and their 
proposed legislation to implement their goals.
    By working together in a bipartisan manner, we have an opportunity 
to create a win-win situation with an energy strategy that invests in 
alternative energy technologies for use here at home and for export to 
developing nations. Such a plan fosters economic development, addresses 
global warming and bolsters our nation's energy security.
    Despite the recent attention that the President has been paying to 
issues such as efficiency and alternative fuels, I remain concerned 
that there is not a clear commitment to these concepts as a part of the 
overall national energy strategy. There is a significant discrepancy in 
the funding requests for research and development into alternative and 
renewable fuels compared to budget needs. I understand that the 
Administration has submitted an amended budget request to bolster the 
amount of funds for renewable energy, biomass, and related activities, 
but this will only restore the original budget cuts to current levels 
of funding. This is not a significant commitment to implementing 
widespread use of these vital energy sources.
    I have visited with Dr. James Spigarelli, President of the Midwest 
Research Institute (MRI) in my district, which is the contract operator 
of the National Renewable Energy Lab (NREL) in Colorado to discuss the 
impact of the budget cuts proposed by the President on NREL. While the 
lab itself is slated to receive about a $1 million increase for 
equipment, maintenance and repairs, the lab's research activities are 
slated to take a $195-199 million cut in 2001 and another $140 million 
in 2002. The research to provide the technology that is needed to 
address our nation and our global energy needs will be impossible to 
recapture in the future. Global economic development opportunities will 
be lost.
    I appreciate the Administration's support for investing in new 
technologies identified by former President Clinton and Vice President 
Gore to address the problem of global climate change, I share the 
concerns that have been raised by our citizens and our allies abroad 
regarding the President's rejection of the Kyoto treaty. By backing 
away from our international commitments we are going to reverse a 
decade of progress that has occurred since former President Bush signed 
the original climate treaty in Rio in 1992.
    Our national strategy must help consumers in the near term while 
making the necessary investments in research and development for all 
areas of potential energy supply, including alternative fuels and 
bioenergy, and making each source as clean as possible. This approach, 
incorporating a commitment to energy efficiency, biomass and 
conservation will provide a more balanced and diversified fuel mix for 
the future, bolster our energy security, and help the agricultural 
economy as well.
    I have repeatedly stressed the point during our review of the 
continuing electricity crisis in California and the West that we, as 
policymakers, have an opportunity to make a fundamental change in the 
direction of our national energy strategy that can have a profound 
effect for generations to come.
    We should take this opportunity to learn from the past. A working 
group of national labs released a report last year entitled, Scenarios 
for a Clean Energy Future, which detailed that a solid commitment to 
energy efficiency measures could reduce long term energy use by over 
twenty percent and that nearly twenty-five percent of the energy used 
in 1999 would have been lost had it not been for the energy efficiency 
technologies put in place after the Arab Oil embargo of the early 
1970s. We have an example of the payoff from a commitment to such 
research, in this case the Clean Coal Technology program, in my 
district. Kansas City Power and Light has rebuilt the Hawthorn #5 
plant, after a fire two years ago, with some of the latest clean coal 
technologies that are available to the industry right now.
    Mr. Chairman, I had planned to offer amendments during the markup 
of the Electricity Emergency Relief Act that go to the points I have 
just discussed and I still intend to pursue these important issues. I 
believe that the federal government should lead by example, and that we 
should take the opportunity to learn from our efforts. To that end I 
will continue to work to address conservation efforts at federal 
agencies and plan to offer legislation that reauthorizes and improves 
the Federal Energy Management Program (FEMP).
    I also plan to introduce legislation that will require a study and 
inventory of the existing backup or idle generators at federal 
facilities across the country so that we can learn what our 
capabilities are as far as emergency capacity. These older generators 
could run more often, and cleaner, if they were to run on a mix of 
biodiesel or be retrofitted to run on natural gas. The technology is 
available. Emerson Electric is working with California state government 
authorities to take currently installed diesel gensets and retrofit 
them to operate on a mixture of natural gas (up to 90%) and diesel, to 
achieve substantial reductions in NO<INF>X</INF> emissions. Further 
reductions currently being developed could operate these gensets on up 
to 99% natural gas, with even more emissions reductions. This mixed 
fuel technology has proven successful on mobile diesel sources, such as 
municipal garbage trucks. The addition of after-treatment technologies, 
such as Selective Catalytic Reduction or Auto Catalytic Reduction 
further reduces emissions of NO<INF>X</INF> and PM.
    Furthermore, we need to increase our commitment to bioenergy 
research and development. I plan to champion reauthorization and reform 
of the Renewable Energy Production Incentive (REPI) program that rural 
cooperatives and municipal utilities use so that all utilities can make 
greater commitments to renewable energy and create models that can be 
replicated across the country. I hope, Mr. Secretary, that you can 
explain why the Department of Energy has not requested full funding of 
a program that promotes renewable energy production and reduced 
significant emissions of greenhouse gases by electric utilities.
    Mr. Chairman, our strategy to address climate change can produce a 
reliable supply of diverse fuels that minimize greenhouse gases and 
secure our leadership in energy technology to benefit our consumers and 
to export around the world. I hope that we can continue to work in a 
bipartisan spirit on these additional efforts. Thank you.

    Mr. Barton. I thank the gentlelady from Missouri. We would 
recognize the distinguished Congressman from California, Mr. 
Radanovich, for a 3-minute opening statement.
    Mr. Radanovich. Thank you, Mr. Chairman. I want to give you 
my thanks, and also Chairman Tauzin, for having this hearing. I 
want to welcome you again, Mr. Secretary. Good to see you 
again. I too look forward to your testimony.
    It was mentioned a little bit earlier by someone that ANWR 
would not solve California's problems, and I do say that they 
are exactly right. California's problems really are a crisis in 
leadership, State leadership in California, and although I 
support drilling in ANWR, that is more for the long-term 
interests of our Nation, not to solve California's problems.
    And I would ask the Secretary and the administration to 
perhaps advise California--or recommend three things that they 
can do in order to get out of their energy crisis. And that is, 
No. 1, suggest that the Governor get out of the energy 
purchasing business; No. 2, focus your efforts on making the 
utilities creditworthy again so that they can in turn be the 
energy purchaser for energy in the State; and No. 3, do what 
you can to get the utilities out of the spot market.
    It was the utilities being forced into the spot market that 
caused the problem in the first place. If we get proper 
leadership in the State of California, maybe those three things 
will be out of our problem.
    Having said that, there still is the issue in California of 
supply. And I kind of think energy policy is lot like 
environmental policy in that everybody wants to be green 
everywhere in the country except in their own backyard. I think 
the NIMBY attitude or ``not my backyard'' has been, I think, 
the cause of a lot of the Nation's energy shortage. And I 
congratulate you on taking the leadership--and the President--
the leadership on developing a policy that makes us more 
reliant on our own resources and diversifies our base.
    So thank you very much. I look forward to your testimony 
and look forward to your helping in solving some of the 
national energy problems.
    [The prepared statement of Hon. George Radanovich follows:]

   Prepared Statement of Hon. George Radanovich, a Representative in 
                 Congress from the State of California

    Mr. Chairman, thank you for holding this hearing today on the 
National Energy Policy report.
    President Bush is to be commended for bringing the need for a 
National Energy Policy to the front and center of the nation's 
attention. The consequences of not having an energy policy that can 
satisfy our energy requirements on a sustainable basis have revealed 
themselves in California. There is a need to tell the truth to the 
American people and lay the basis for a new and viable U.S. energy 
policy.
    There are no easy solutions to energy crises, only hard policy 
tradeoffs between legitimate and competing interests. The capacity 
cushion left from the 1970s which allowed us to avoid these decisions 
is now gone. The fundamental challenge we now face is to sustain 
economic growth without sacrificing environmental protection.
    It is time for Congress to move forward from the debates of the 
past and develop a balanced energy security policy that addresses both 
the supply side and the demand side of the energy equation. It is not 
strategically desirable to remedy our present situation by simply 
increasing our dependence on a few foreign sources. We need to respect 
the wisdom of the consumer in making choices about energy use. We need 
new thinking that focuses on improving the efficiency of the regulatory 
processes. We need new solutions that are not simply more corporate 
subsidies and tax credits.
    Critical scrutiny of the Department of Energy budget, and of the 
payback of the investments we have made are essential.
    We best serve the interest of the public by avoiding 
misrepresentation of efforts made in the common interest. The 
President's policy is a balanced first step, and I look forward to a 
sincere effort as we address this urgent national issue. Thank you, Mr. 
Chairman and I await the Secretary's testimony.

    Mr. Barton. The gentleman yield back the balance of his 
time?
    Mr. Radanovich. I did.
    Mr. Barton.  The Chair would recognize the distinguished 
gentleman from Louisiana, Congressman John, for a 3-minute 
opening statement. Congressman John, it looks like, passes. So 
it looks like we go to Congressman Barrett for a 3-minute 
opening statement.
    Mr. Barrett. Thank you, Mr. Chairman. Thank you for 
convening this hearing on the administration's national energy 
policy. I also want to thank Secretary Abraham for being here 
today to offer us more details and answer our questions about 
this plan.
    Spiraling fuel prices in last few years have negatively 
impacted consumers across the country. In Wisconsin, motorists 
have faced the second straight season of unreasonably high gas 
prices, while residents watched their home heating bills double 
this past winter. And while everybody's pocketbooks are 
affected, many low-income families and seniors living on fixed 
incomes have been truly overwhelmed by rising fuel prices.
    It is imperative that Congress and the White House work 
together to address these problems. I think that this will be 
the first challenge we face with the new make-up of the Senate. 
I think that we are going to have to work together if we are 
going to really respond to the needs of this country.
    I am particularly concerned about a parochial issue that I 
am sure Secretary Abraham is familiar with, being from the 
State of Michigan, and that is the directional drilling under 
the Great Lakes. I have seen conflicting reports as to what the 
President's plan intends about that. Obviously I think, Mr. 
Secretary, as you know from the Michigan side, the Governor of 
Michigan has moved forward, indicated he is moving forward 
there. On the Wisconsin side, the Republican Governor and most 
of us have said this is not something that we are interested in 
because we believe that the potential costs far outweigh any 
benefits.
    I am also concerned with the President's plan and lack of 
near-term relief from high prices at the pump and rising 
heating and cooling bills. During the course of the campaign, I 
remember the President saying that if he were elected that he 
would call his associates in the OPEC countries and tell them 
to turn the spigots on. Obviously, we have not seen that with 
this administration. In fact, just the opposite has happened. 
But any truly effective energy plan must include initiatives to 
assure an adequate energy supply, as well as meaningful demand, 
management incentives, and adequate environmental and consumer 
protections.
    We must therefore strive to implement an energy policy that 
emphasizes conservation and energy efficiency, two things that 
were notably missing when Vice President Cheney first started 
talking about this issue. Something that also has to be 
included is measures that preserve our environmental treasures 
and protects American families from price gouging and unfair 
market practices. Again I am hopeful, though, that through an 
open and inclusive debate, we can achieve these goals and craft 
a sound energy policy that protects the American consumer as 
well as America's environment.
    I would yield back the balance of my time.
    Mr. Barton. We thank the gentleman for that statement. We 
would go to Congresswoman Wilson of New Mexico for a 3-minute 
opening statement.
    Mrs. Wilson. Thank you, Mr. Chairman. I thank you for 
holding this hearing and the series of hearings that we have 
had on energy policy over the last 5 months. And I thank you, 
Mr. Secretary, for being here and joining us today.
    We haven't had an energy policy in this country for over a 
decade. I think that the President's plan is a good analysis 
and a very good first step at beginning to develop the first 
comprehensive energy plan we have had in this country in an 
area that has been sorely neglected over the last decade.
    Your predecessor made the comment--and he is a New Mexican 
and he is a former member of this committee--he made a comment 
in Boston last year when the prices were starting to go up, and 
when he was asked about it, he said the Federal Government was 
caught napping. I thought that was a damning indictment of our 
past energy policy and I am glad we are starting to address it.
    We are more dependent on foreign oil today than we were at 
the height of the energy crisis. Fifty-five percent of our oil 
is imported mostly from the Mideast, and the fastest growing 
import source for oil in this country is Iraq. We talk about 
calling OPEC and demanding they turn on the spigots. Who are we 
kidding? Our national security is compromised by the fact we 
are dependent on foreign sources of oil, including from 
countries whose interests are vastly different from our own.
    We made tremendous progress in this country on conservation 
and energy efficiency over the last 20 years and we will not 
give up on that progress. That reduces the demand and preserves 
our precious supply.
    So where do we go from here? We need a balanced, 
comprehensive, responsible energy strategy for this country. 
And I think it has four elements:
    The first is conservation. It must be a pillar of any 
strategy that we put together. There is no going back on the 
quality of life that we all enjoy. And I come from a State, New 
Mexico, that supplies uranium and coal and oil and natural gas. 
We do some of the most far-reaching nuclear research in the 
country. And I have several nuclear reactors, all experimental, 
in my district. I also come from the most beautiful State in 
the Nation. We are not going to compromise that balance.
    We have wonderful air, wonderful water, wonderful lives, 
and we are going to keep it that way. We are naturally 
conservative and will continue to be.
    The second part of this strategy is supply. We must 
diversify and increase our supply. Mr. Secretary, I am going to 
want to talk to you a little bit about natural gas and our 
increasing reliance on natural gas for the production of 
electricity, because we risk getting ourselves into a situation 
20 years from now where we are heavily dependent on natural 
gas, do not have enough domestic supplies of natural gas 
because we failed to diversify the production of electricity, 
including nuclear power.
    It is now time to take nuclear energy out of the ``too 
hard'' column and reconsider the role of nuclear power in this 
country.
    The third part of the strategy--conservation, supply--the 
third is infrastructure. We don't have the infrastructure today 
and the pipelines and the transmission lines and the refineries 
to get the energy where it is needed, when it is needed. We 
need to address that as a Nation both at the national policy 
level and also within industry.
    And the fourth part: government reform. There has been too 
little discussion of this, I think, but the reality is that 
when we are in a crunch is when people focus on the issue and 
where you probably get attention as a Cabinet Secretary in the 
White House and around the Cabinet table. But the interagency 
mechanisms that have existed since 1947, 1948, in this country 
on national security that force the Defense Department and the 
State Department and the CIA and everyone else to work together 
on national security don't exist for energy policy. So when we 
are not in troubled times, the Department of the Interior, the 
Department of Agriculture, the BLM, or the Department of 
Transportation can make----
    Mr. Barton. The gentlelady needs to wrap it up.
    Mrs. Wilson. Yes sir. They make independent decisions that 
affect our supply of energy. We need to reform government so 
that can no longer happen. And I thank the chairman for his 
indulgence.
    [The prepared statement of Hon. Heather Wilson follows:]

Prepared Statement of Hon. Heather Wilson, a Representative in Congress 
                      from the State of New Mexico

    Mr. Chairman, once again, thank you for your leadership on the 
critical energy issues our nation is facing and for holding this very 
important hearing on the National Energy Policy. This hearing is 
critical in moving this committee forward on the development of the 
legislation that will comprise our comprehensive energy plan.
    It is time to move from the discussion of the short-term energy 
issues facing California to a strategy and policy that will support the 
entire nation. It is time to put aside the debate and discussion of 
price caps, alleged price gouging, and insufficient energy supplies 
today and move to a higher level where we can debate and discuss the 
energy future of our nation. We have been without a national energy 
plan for far too long--we are suffering the results of that lack of 
planning today. This energy mess that we are in can not be resolved 
overnight . . . it will take planning, hardwork, and a lot of 
compromise. The Presidents National Energy Policy is a first step in 
moving forward to plan, hardwork, and compromise.
    Our energy policy needs to provide reliable, affordable clean 
energy to support an expanding American economy, growing population, 
and a rising standard of living. The comprehensive energy legislation 
that we are developing should enable all Americans to know that: When 
you flip the switch, the lights should go on, When you fill up at the 
gas station, the price should be reasonable and not driven by a foreign 
dictator; When you go to work, you should have energy to produce the 
goods and services that make jobs, serve customers and improve our 
quality of life; When you come home, you should enjoy clean air, clean 
water, and clean land with your family.
    I believe that:

<bullet> We can meet America's energy needs while making our 
        environment cleaner and healthier.
<bullet> We need a balanced, long term, common sense approach. We can 
        ease some of the crunch, but there are no quick fixes to 
        problems that were years in the making.
<bullet> Most Americans do not believe there are quick solutions.
<bullet> We must reduce our reliance on single foreign sources of oil 
        to protect our national security.
    The Presidents National Energy Policy has many valuable elements--
in fact members on both sides of the isle are saying that there are 
more things they agree with than they disagree about. The issues we 
disagree about are the ones we need to continue to debate. The 
Presidents plan is consistent with what our long-term strategy needs to 
be:

<bullet> Conservation: Continue to reduce demand and improve energy 
        efficiency through incentives, standards and leveraging 
        technology
    <bullet> Conservation must be a pillar of our energy strategy.
    <bullet> In fact, Republicans want to reduce use of energy and the 
            waste of precious resources. We are, naturally, 
            ``conservative''.
    <bullet> Technology and innovation has reduced energy use and the 
            impact of exploration on the environment. We need to 
            continue R&D to advance technologies.
<bullet> Supply: Diversify and increase energy supply while protecting 
        the environment. Nuclear, clean coal, distributed generation, 
        and renewable energy must all be components of our supply.
    <bullet> There is a strong trend toward natural gas-fired electric 
            generation. While cleaner than other options and sometimes 
            less costly, it would be a mistake to rely solely on 
            natural gas for expanded generation.
    <bullet> A new national energy policy will have to balance 
            competing interests--in this case, the need to protect the 
            environment and public health with the need to make sure 
            America`s energy needs are met. Nuclear energy is integral 
            to meeting our needs.
    <bullet> I want to emphasise the need for nuclear energy to be a 
            part of the energy strategy--for too long nuclear energy 
            has been in the too hard column. Today, nuclear power is 
            safer and produces more power than it did 10 years ago. 
            Most of the technologies we see in nuclear plants around 
            the world were developed in America, through the Navy 
            nuclear program or for the commercial nuclear power 
            industry. America lost its technological edge in nuclear 
            power and we need to regain it. Research in new designs and 
            improved efficiencies can change the economics of nuclear 
            power and retain America's position. Nuclear power is 
            critical to addressing our increased energy demand and our 
            continued need for clean air.
      Our energy portfolio must include nuclear power and nuclear power 
            must be addressed in any national energy policy that 
            Congress crafts.
      It`s time to take nuclear energy out of the ``too hard'' column.
<bullet> Infrastructure: Modernize and expand the nation's energy 
        infrastructure including safe pipelines, adequate transmission 
        and refining capacity, and clean power plants.
<bullet> Organization: Integrate federal energy, environmental and 
        economic, and foreign policy development so that we avert 
        future crises over the long haul. This is a key issue: the lack 
        of organization and integration in energy, environmental, 
        economic, and foreign policy has been a major cause of the 
        current energy crunch.
    From what I have read I, would say that the Presidents plan is not 
perfect--but it is a great step forward. There are a number of elements 
that need additonal debate: ANWR, CAFE standards, the use of tax 
incentives, transmission siting and others. However, the plan contains 
the key elements that must be in a national energy policy. Working 
together we can refine this plan and develop legislation for a 
comprehensive energy policy. If we are successful, this may be one of 
our most important accomplishments for our future, our economy, our 
national security and the future of our children
    I look forward to Secretary Abraham's testimony and the discussion 
in this committee. Once again, Mr. Chairman, thank you for your 
leadership and hard work and I look forward to moving forward on 
comprehensive energy.

    Mr. Barton. Thank the gentlelady from New Mexico. The 
gentleman from Maryland, Congressman Wynn, is recognized for a 
3-minute opening statement.
    Mr. Wynn. Thank you, Mr. Chairman. Thank you for calling 
this hearing on what is obviously a very important issue, and I 
am very pleased the Secretary is here to talk to us. I don't 
really have a lengthy opening statement. I do have a couple 
issues, though, that I would mention in the hopes that the 
Secretary would address them in the course of his comments this 
morning.
    The first is what I refer to enforced fair and reasonable 
prices in the California situation. There is, of course, a lot 
of contention on the subject of price caps, but it seems to me 
there is in fact authority to address this concern that hasn't 
been utilized, despite the fact that there is substantial 
evidence of price gouging. And the first response has generally 
been, well, the market is dysfunctional.
    It is my hope that FERC will step up to the plate. If they 
did so, perhaps Congress would not have to do so. And I think 
the administration ought to comment on the subject of fair and 
reasonable prices.
    Second, on nuclear waste--and I kind of piggyback on what 
my colleague said earlier--it is part of the mix and ought to 
be part of the mix, but there is a problem and that is nuclear 
waste disposal. We are behind in resolving this issue. I would 
very much like to know the administration's position on nuclear 
waste disposal, because it seems to me that it is impractical 
to expand the use of this energy source unless we resolve the 
disposal issues that currently exist.
    And finally on the subject of drilling in ANWR, I subscribe 
to the belief that the amount of oil there is probably not 
sufficient to address our energy concerns in a realistic way. 
However, to the extent that the administration believes that 
this ought to be part of the mix, I would be very curious to 
find out if the administration is committed to a ban on exports 
of ANWR oil. Which is to say, it wouldn't make much sense to 
bring the oil out of the ground only to export it abroad to 
make higher profits, thus worsening the situation in 
California, as opposed to--and the rest of the country for that 
matter--as opposed to resolving it.
    So I would be very concerned about your policy on a ban on 
export of ANWR oil. Again, we are delighted to have you here 
and I look forward to your comments. I return the balance of my 
time.
    Mr. Barton. The Chair would recognize Mr. Walden of Oregon 
for a 3-minute opening statement.
    Mr. Walden. Thank you Mr. Chairman, and thank you for 
holding this hearing.
    Mr. Secretary, thank you for being here. I spent quite a 
bit of time reading through the National Energy Policy that the 
Vice President and you and the President put together. I want 
to commend you for the work that went into this and for the 
recommendations that are contained herein. It is clearly one of 
the most comprehensive energy policies this Congress has seen 
in many years and gives us a good blueprint from which to build 
a policy that will make America energy independent for the 
future.
    I am especially pleased at some of the recommendations 
related to alternatives to conservation. And even though we 
have made great progress, as you delineate in here, on 
conservation efforts and have saved greatly, and even though we 
have cleaned up the air considerably from what was the case in 
the 1970's, more work can be done, more incentives can be put 
in place.
    In my own district we rely 70 percent on hydropower for 
generation of power. Of course, that has its own issues related 
to fish, which are very important and that we are dealing with 
in the Northwest. But there are issues related to the 
4(h)(10)(c) credits that I would appreciate getting your 
opinion on, because I think we have clearly come upon the point 
in the process where Bonneville should be able to access those 
fish credits.
    Additionally, Bonneville, as you may know, has gone out and 
secured and gotten commitments for over 2000 megawatts of wind 
power which can be very important in a hydrosystem. So to the 
extent the administration is supportive of incentives to 
increase these alternatives, whether it be geothermal or solar 
or wind, they can provide an extra cushion, and certainly with 
a hydrosystem and wind projects, allow us to store power, as 
you know, in the water and allow us to shape the power curve. 
So I think that is important.
    I am also interested in your views related to the RTO in 
the West as well as the need to allow Bonneville additional 
Treasury borrowing authority so that it can keep pace with its 
aging facility, so we don't end up with a Path 15 type problem 
in the Pacific Northwest.
    So, Mr. Secretary, I look forward to your testimony. I 
appreciate your work on this issue. I commend the 
administration for their rapid response in less than 5 months 
to this problem that has been with us for two decades.
    Mr. Barton. The Chair would note that Mr. Waxman's 
statement has been, by unanimous consent, been put into the 
record at the request of Mr. Markey. But Mr. Waxman is here, so 
we will give them 3 minutes to elaborate on the statement that 
is already in the record.
    Mr. Waxman. Thank you very much, Mr. Chairman. I am pleased 
to welcome the Secretary to our hearing. This is our first 
chance to examine the President's energy policy. And as a 
Californian, I want to express concern over this plan and also 
the administration's stubborn resolve to ignore, I believe, 
ignore the concerns of Western families; not just California, 
but Oregon and Washington.
    We have in the proposal from the administration an industry 
wish list of regulatory changes and the very real needs of 
Californians are going unmet. First of all, the President has 
refused to do anything meaningful to address the incredible 
price gouging that we are seeing in California and the West. 
Wholesale electricity prices have skyrocketed and the 
administration's political supporters have benefited 
enormously, but due to Federal inaction Western families are 
going to be left footing the bill, and regional economies may 
be sacrificed in the process.
    And also, yesterday the Bush Administration denied 
California's request for a waiver from the Clean Air Act's 
oxygenate standard. This is a mind-boggling decision. Democrats 
and Republicans I think unanimously asked for this waiver. It 
benefits ethanol producers that they were denied this waiver, 
who support keeping things as they are, but it means more 
expensive gasoline, possible shortages, possible pollution of 
our drinking water.
    I have deep concerns about the President's policy with 
regard to the environment as part of his energy proposal. And 
all these things I put into my opening statement, which I will 
make part of the record, but I wanted to start off this hearing 
by expressing some real reservations I have, Mr. Secretary, 
about the proposal: whether it is a balanced one; whether 
California and the West is being ignored, if not treated very 
poorly. I yield back the balance of my time.
    Mr. Barton. We thank the gentleman from California. I would 
recognize the distinguished gentleman from Arizona, Mr. 
Shadegg, for a 3-minute opening statement.
    Mr. Shadegg. Thank you, Mr. Chairman. I commend you for 
holding these hearings, and, Mr. Secretary, I welcome you here. 
The topic of this hearing is National Energy Policy, but all 
too often at congressional hearings we talk over the head of 
the average American. It seems to me it is worth some time to 
focus on what National Energy Policy means for the average 
citizen. As my colleague from New Mexico pointed out, we have 
had no energy policy in this country for at least a decade, and 
probably two.
    But what are, then, the consequences of that? Well, as she 
pointed out, we are excessively dependent on foreign sources, 
more dependent than during the energy crisis. Fifty-five 
percent of our oil is imported, and we are growing more 
dependent every week on supplies from Iraq. It is the fastest 
growing source.
    We have not done what we need to do and what we can and 
must do to conserve and to improve efficiency. But also we have 
not done what we need to do to develop domestic sources, and we 
have not built the refining capacity that this country 
desperately needs.
    All of these failures have direct and real consequences for 
the average American citizen. What it means for them is that 
they are paying incredibly high heating fuel bills, they are 
paying incredibly high gasoline bills, so high that they aren't 
able to take vacations they wanted to take, they can't use 
their automobiles. And they are facing extremely high 
electricity bills.
    To add insult to this injury, we are in a situation where 
many of them, at least in California and the western part of 
the country where I live face the prospect of blackouts and 
rolling brownouts. It seems to me the administration has done 
the Nation a great favor by focusing this country on the need 
to have a National Energy Policy and to have that policy be a 
balanced policy. It is critically important that we look at all 
of these things. Sure, we must look at conservation and 
efficiency, but we also have to look at domestic production and 
refining capacity.
    With regard to the topic of price caps, price caps will not 
reduce a single unit of energy. Indeed, the shortage we face 
right now is not because prices have been too high, the 
shortage we face right now is because we are way too dependent 
on foreign sources and way too reliant on having to go 
somewhere else for our energy.
    It is critically important that we face this crisis and we 
face it now. Not in the short run, but the long run is where 
these consequences will hit us the worst.
    I commend the administration on its proposal. I think it 
has done an excellent job in bringing it forward as quickly as 
it has. I look forward to working with you and the President. I 
think the American people have to recognize that they pay the 
price for excessively high electricity bills and excessively 
high gasoline bills. Those are the consequence of no energy 
policy, and the long-term payoff of a good energy policy such 
as the President proposed is reasonable gasoline prices, 
reasonable electricity prices, and a supply that we can all 
rely upon. I thank the gentleman and yield back my time.
    Mr. Barton. I thank the gentleman from Arizona. We will now 
take a 3-minute opening statement from the distinguished 
ranking member of the full Science Committee, Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you very much. I won't even 
take the full 3 minutes. I just would tell the Secretary, 
welcome and thanks for the job you are doing and for the job 
you are going to do.
    We are going to need your expertise. We need your 
intervention. We need you to referee as we try to solve the 
California problem. And we are going to do it, but we have got 
to do it together. Sometimes we have to figure up what it is 
going to take, raise that amount, and go on to the next 
problem, because that is the major issue facing this country 
right today, I think is how to solve the California dilemma. 
And I think we need not to dwell on how we get there, either 
side of what it takes to get there, and get out of there and 
get it settled is what this Congress wants to do, and I am sure 
it is what this President wants to do.
    I want to thank you and extend my thanks to the President 
for the tax cut that we approved here early one Saturday 
morning not too long ago.
    And I would just tell you for my own people, I represent 
the oil field there in Texas, gas patch down through Tyler, 
Kilgore, and that area. And we need some things, we need--the 
first thing I did when I came up here was to try to amend and 
set aside Carter's Fuel Use Act. It was a bad act at the time 
and it was disastrous, but we I think repealed most of it by 
the mid-eighties. We still need to allow expansion of 
geological and geophysical, G&G cost, and delay work on the 
rental payments. We need a 5-year net operating loss carried 
back for independent producers. That is--the Tax Reform Act of 
1986 got that one. That is the act that President Reagan and 
Rostenkowski passed, and one of them knew what was in it, and 
it wasn't Reagan. Otherwise, that probably wouldn't have made 
it through. And we need to eliminate the new income limitation 
on percentage depletion for marginal wells, and we have a lot 
of those. I think all in all, we just need to go all out for 
every type of energy that is out there and drain and squeeze 
the most out of it, get the quickest relief we can get, pull 
our hat down over our ears, and ride it out.
    I yield back my time.
    Mr. Barton. Does the gentleman yield back the balance of 
his time?
    Mr. Hall. I can talk a little longer if you want me to.
    Mr. Barton. I would want you to, but I am not sure we have 
the time for that.
    The gentleman from Mississippi, Mr. Pickering, is 
recognized for 3 minutes.
    Mr. Pickering. Mr. Chairman, thank you, and I want to 
commend your leadership and that of Chairman Tauzin. I want to 
thank the Secretary and the President for putting forward the 
principles and a plan that I think can be a catalyst and 
facilitate our work here on this committee. I believe that 
there is no more important issue facing our country 
economically and from a national security point of view to have 
a present but also long-term plan that will address every 
component.
    To those who want to isolate one component over another, or 
criticize one as not being enough, it has to be all parts, it 
has to be conservation, it has to be efficiency, it has to be 
new environmental technologies, but it also has to be new 
production, new supply. And I think that your plan is common 
sense and comprehensive and it addresses all components of it.
    I look forward to working with you as we put together the 
various working groups, and I believe in a bipartisan way that 
we can begin addressing the long-term energy needs of our 
country in a sound and balanced way. I look forward to working 
with the chairman on this.
    I yield back.
    Mr. Barton. Thank you. Thank the gentleman. There is no 
other member on the Minority side of the subcommittee. We have 
Ms. Eshoo of the full committee. We would recognize Mr. Cox of 
the subcommittee, and then go to Ms. Eshoo of the full 
committee. Mr. Cox is recognized.
    Mr. Cox. Thank you, Mr. Chairman. Welcome, Secretary 
Abraham. Your predecessor, Energy Secretary Richardson, 
famously said we have not had an energy policy for the last 8 
years. You and the National Energy Policy Development Group in 
less than 5 months have put together a National Energy Policy. 
When you take on big challenges, particularly those that have 
been left unattended for so long, you raise big issues, big 
questions, and you generate big criticism. You are to be 
commended for your courage in doing so, but especially for your 
leadership in doing so.
    This report comes to us at a time when we are more 
dependent than ever on unstable sources of Mideast oil. As 
Governor Davis has pointed out, in California we have built no 
new facilities to produce electricity for years. For far too 
long, not just in California but across the country, we have 
been relying upon literally resting--or, not literally--
figuratively resting upon our laurels, relying upon an aging 
electricity infrastructure and power grid, even as our new 
economy makes us more dependent than ever in unprecedented ways 
on electricity for every aspect of our lives.
    I want to commend you, as others have here today, for 
presenting a comprehensive and balanced approach that focuses 
equally on the need for conservation and on the need for stable 
new supplies.
    We have many questions for you, Mr. Secretary, as you know, 
but I think it is most important that we hear your testimony. I 
thank you for appearing before us today.
    Mr. Barton. I thank the gentleman from California and wish 
him the very best in his recovery from his incident. No other 
member of the subcommittee being present----
    Mr. Cox. You are talking about my foot, right?
    Mr. Barton. I was specifically--I am told it was a 3-inch 
splinter went through your foot.
    Mr. Cox. Eight inches.
    Mr. Barton. The gentlelady from California, Ms. Eshoo, is 
recognized for 3-minute opening statement. Welcome her to the 
subcommittee.
    Ms. Eshoo. Thank you, Mr. Chairman. I always appreciate 
your hospitality and your legislative courtesy since I am not a 
member of the subcommittee, but I do appreciate it. And I want 
to welcome the Secretary here. I think this is your maiden 
voyage here at the Congress committee, and I look forward to 
working with you on a whole variety of issues.
    I am just going to keep this extraordinarily brief because 
I have more questions to ask than I have a statement to make. I 
would like to say for the record, Mr. Secretary, as your 
Department and the administration rolls out a National Energy 
Policy, that as a Californian we find some shortcomings.
    I know that my colleague, Mr. Waxman, has spoken about the 
issue of nonwaiver for California. We still hope that we can 
change that. That is a very important issue and it is something 
that we can do on a bipartisan basis. This crosses party lines. 
So I hope that we can change that.
    The other issue they I want to raise, of course, is the 
issue of energy and the energy crisis in California. I have 
some very direct questions to ask you. I look forward to a 
later time, because I know that all of the members of the 
subcommittee have to go first.
    So thank you for coming to us. I wish you well in your 
position. It is important not only for Americans today but for 
future generations that have yet to enjoy what God has blessed 
us with, and I hope that at the end of the reshaping of this 
policy that we will find that between the print, because we are 
the trustees for future generations and I hope the 
administration will see to that as well.
    Thank you, Mr. Chairman.
    Mr. Barton. Thank you, Congresswoman Eshoo. That concludes 
the opening statements of all members present. The Chair would 
ask unanimous consent that those members not present have the 
requisite number of days to put their statement in the record 
at the appropriate place. Is there objection? Hearing none, so 
ordered.
    [Additional statements submitted for the record follow:]

Prepared Statement of Hon. Steve Largent, a Representative in Congress 
                       from the State of Oklahoma

    Mr. Chairman, thank you for holding this morning's hearing to 
examine the Administration's National Energy Policy Report. The 
Subcommittee is fortunate to have with us today Secretary Abraham--Mr. 
Secretary welcome.
    I've carefully read the Administration's comprehensive energy plan 
and I want to commend Vice President Cheney and the other members of 
the National Policy Energy Development Group for their fine work.
    Let's face it, we're in a serious energy crunch. Electricity prices 
are sky high in California and the West. Gasoline prices in some parts 
of the country are nearing $2 a gallon. And we're more dependent now on 
foreign oil than ever before. Who does this impact? Everybody. Why? 
Because to my knowledge energy, be it oil, gas, coal, nuclear, hydro, 
solar, wind, biomass, or geothermal has no racial, religious, gender or 
political bias.
    As I stated earlier, I've read this plan and from my perspective it 
appears to offer a thoughtful and well-balanced approach to meeting our 
nation's energy needs.
    It spells out in careful detail what most of us who took econ one 
in college should already know. When you have an increase in demand 
coupled with a shortage of supply--the result is scarcity with a 
corresponding rise in prices.
    The President's plan provides a blueprint on how to increase 
supplies from a variety of domestic energy sources. Since 65% of our 
nation's energy resources will continue to come from oil and natural 
gas, it's only logical that the plan would seek to maximize those 
energy sources.
    However, contrary to the critics claim that this proposal does 
little to promote renewable and alternative energy, take a closer look. 
There are thirteen separate recommendations promoting cleaner burning 
fuels. By contrast, the House Democratic Caucus Energy plan has four.
    The plan takes into careful consideration American's environmental 
concerns while also promoting energy efficiency and conservation. It 
addresses America's energy infrastructure and delivery system and lays 
out a global strategy to enhance our national security and improve 
international relationships.
    The National Energy Policy Report is approximately 140 pages long. 
In that 140 pages there is nothing that could be interpreted or 
construed as politically partisan.
    The same cannot be said for the House Democratic Caucus Energy Task 
Force's ``Principles for Energy Prosperity.'' As a matter of fact, the 
first sentence of the document reads as follows: ``Democrats reject 
President Bush's misguided notion that America must sacrifice the 
environment in order to maximize energy production.''
    After I finished reading ``Principles for Energy Prosperity'' I 
began to wonder if the House Democratic Caucus Energy Task Force and 
the Democratic Congressional Campaign Committee were one in the same.
    Mr. Chairman, I look forward to hearing Secretary Abraham's 
thoughts and ideas as to what role this Subcommittee can play in 
developing a comprehensive long-term energy strategy.
                                 ______
                                 
Prepared Statement of Hon. Ed Bryant, a Representative in Congress from 
                         the State of Tennessee

    Mr. Chairman, I would like to thank you for holding today's hearing 
and I would also like to thank our Secretary of Energy, the Honorable 
Spencer Abraham for appearing before the Subcommittee to report on the 
proposals of the National Energy Policy Development Group. I look 
forward to hearing Secretary Abraham's testimony and I welcome the 
opportunity to learn more about the Bush Administration's long-term 
energy proposals.
    I believe energy is the single most important issue Congress will 
deal with this year. As I have attended town hall meetings in my 
district and met with constituents, it seems that the high prices they 
have been paying for fuel and power has been a resounding theme. Our 
nation's energy crisis has left no family or business untouched. 
Whether it is homeowners, manufacturers, small businesses, or farmers, 
everyone has been hit hard by rising demand for energy and decreasing 
supplies.
    Let's make no mistake, our nation has been without a comprehensive 
national energy policy for the past eight years. President Bush had 
been in office little more than 100 days when the Administration 
unveiled a blueprint for our long-term energy needs. The President's 
energy plan increases the supply of safe, reliable domestic energy 
while promoting a clean, safe and healthy environment.
    I agree with President Bush that our nation's energy problems must 
be addressed through a variety of means, including increasing supplies 
of traditional fossil fuels, developing alternative sources of energy, 
and promoting conservation. It won't be easy, nor will it occur 
quickly. But we have the technology and enough resources to meet our 
energy needs for decades to come.
    The recommendations of the National Energy Policy Group go a long 
way toward realizing our energy goals. As a Member of this 
Subcommittee, I look forward to beginning work on shaping energy policy 
legislation that reflects the President's proposals. I know our 
Subcommittee will work together in a bipartisan fashion to pass a 
comprehensive national policy because the President's recommendations 
are right and they will make our nation stronger. Again, thank you 
Chairman Barton for holding this important hearing, and thank you 
Secretary Abraham for your presence here today.

    Mr. Barton. The Secretary needs to leave by 1 p.m., so we 
are going to take a break for 4 minutes and then we are going 
to be back so that we can let the Secretary testify and then 
ask questions. So we are going to take a 4-minute break, then 
we are going to be right back here in 4 minutes.
    [Brief recess.]
    Mr. Barton. Welcome to the subcommittee, Mr. Secretary. 
Your statement is in the record in its entirety. We recognize 
you for such time as you may consume to elaborate on it. 
Welcome to the subcommittee.

 STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY, U.S. DEPARTMENT 
                           OF ENERGY

    Mr. Abraham. Mr. Chairman, thank you very much. I 
appreciated the chance today to hear from so many members and 
to get some perspective on their considerations and concerns. 
And I want to thank you for having done, in my judgment, a 
remarkably effective job over the last several months, as we 
have gone through our transition, to work with us at the 
Department. You have actually reached out to me on behalf of 
your committee, on both sides of the aisle really, to set in 
motion practices by which we can work together over the next 
few months to not just address this issue but the other issues 
as well.
    And I offer the same comments and appreciation to 
Congressman Tauzin, to Congressman Dingell, and other leaders 
of the committee. Certainly we wish to do our best to make it a 
dialog, to make it a good partnership.
    Today I would like to make a brief statement. There were so 
many issues raised during the comments of the various members 
that I would like to do my best to be responsive when we get to 
the question period on those issues.
    What I would like to maybe just do is take a little bit of 
time today to talk about the challenges we face and to try to 
briefly summarize how the President with our National Energy 
Plan proposes to address those challenges in the days ahead.
    Today, America consumes 98 quadrillion British thermal 
units, or quads as they are called, a year in all forms of 
energy. Our domestic production is 72 quads, which means that 
the imbalance between demand and supply is made up with 
imports.
    Between now and 2020 our energy demand is projected to rise 
significantly. If the energy intensity of the United States 
economy--that is, the amount of energy needed to generate a 
dollar of GDP--remained constant over those 20 years, our 
demand in the year 2020 would rise from 98 quads per year to 
175. Fortunately, we believe that our plan, current policies, 
and the combined interests of people on all forums and all 
sides of the policy debate will work together to improve energy 
efficiency over that period to the point that the actual energy 
demand in 2020 can be lowered from 175 to 127 quads.
    That means improved energy efficiency can help close much 
of the gap between projected energy demand and projected energy 
production. And we are committed to doing just that.
    However, improved energy efficiency alone cannot do the 
whole job. And for that reason, the United States will need 
more energy supply. The question is, where do we get that 
increased supply when over the last decade domestic supply 
production has remained relatively flat?
    To address those challenges both in terms of achieving the 
efficiency gains we need as well as the supply gains we 
require, our National Energy Plan has adopted an approach that 
we believe is balanced and comprehensive. As the President 
said, we are looking for a new harmony among our priorities. So 
let me just briefly outline the approach for the committee.
    First, our policy balances the need for increased supplies 
of energy with the need to modernize our conservation efforts 
by employing cutting-edge technology to gain the energy 
efficiencies I have talked about. So, for example, as we call 
for recommendations to enhance oil and gas recovery from 
existing and new sources through new technology, we also call 
for recommendations on corporate average fuel economy 
standards.
    Second, our plan calls for diversity in terms of our supply 
sources. With electricity demand forecast to rise 45 percent 
between now and the year 2020, we estimated that--that is, the 
Department of Energy's Energy Information Administration 
estimates the needs for an additional 1300 to 1900 new power 
plants in this country. Current policy anticipates that over 90 
percent of those new plants will be fired by natural gas. A 
number of members of this committee already have commented on 
the potential implications of placing so much reliance on a 
single fuel source. We believe energy security dictates a more 
balanced approach to new power generation.
    In addition to natural gas, the National Energy Plan looks 
to clean coal generation and nuclear power to give us the broad 
mix of energy-to-energy support and energy security from 
traditional sources. But our plan also balances our pressing 
requirements for the aforementioned traditional source of 
energy with the need for renewable and alternative sources such 
as hydropower, biomass, solar, wind and geothermal sources. The 
plan seeks to increase exploration of domestic sources of oil 
and natural gas, and it also recommends tax incentives for the 
use of certain renewables and more focused research on next-
generation sources like hydrogen and fusion.
    Fourth, our energy plan harmonizes growth in domestic 
energy production with environmental protection. This 
commitment to conservation and environmental protection is not 
an afterthought. It is a commitment woven throughout our energy 
policy. Energy production without regard to the environment is 
not an option. For example, in addition to recommendations 
seeking to streamline the permitting process for plant sitings 
as well as building new infrastructure, the National Energy 
Policy also directs the Environmental Protection Agency to 
propose mandatory reduction targets for the emission of three 
major pollutants: sulfur dioxide, nitrogen oxides, and mercury 
from electricity generation.
    We support this balanced approach with 105 recommended 
actions covering the full range of energy challenges 
confronting this Nation, and indeed the world, from how best to 
enhance renewable sources to oil and natural gas development in 
the Caspian Sea.
    The administration can carry out many of these 
recommendations on its own, either through executive orders or 
agency-directed actions. We are moving ahead to implement 
proposals as quickly as possible.
    Just days after the release of our National Energy Report, 
the President issued two executive orders directing Federal 
agencies to expedite approval of energy-related projects and 
directing Federal agencies to consider the effects of proposed 
regulations on energy supply distribution or use. Moreover, 
where appropriate, the President is directing Federal agencies, 
including my own, to take a variety of actions to improve the 
way they use energy and to carry forward critical aspects of 
this policy. For example, I have instructed our Office of 
Energy Efficiency and Renewable Energy to carry out a strategic 
review of its renewable energy research and development 
programs in light of the recommendations contained our National 
Energy Policy.
    Hydropower, geothermal, winds, and other renewables are 
highlighted in our report for the contribution they are making 
and continue to make to energy security. Promising next-
generation technologies will also play a part in solving our 
energy challenges. Both current and future technologies will be 
a part of our strategic review.
    I have asked that the study begin immediately--and it has--
and to be completed by September 1. And its finding will permit 
us to recommend appropriate funding levels that are performance 
based and modeled as public-private partnerships. Twenty of the 
report's recommendations, however, clearly require direct 
legislative action, and I think we will find more areas for 
cooperation than disagreement.
    This committee has a long and proud tradition of passing 
bipartisan energy legislation dating back to the 1970's. I look 
forward to working with the committee to develop energy policy 
legislation consistent with those bipartisan traditions.
    So I believe that we start with a wide base of agreement. 
From what I have heard today, I would say that the agreement is 
in wider consensus than I might have anticipated. We all 
recognize energy is a critical challenge. We all recognize that 
parts of our energy supply and delivery system need enhancement 
or modernization. We all recognize that conservation and 
stewardship must go hand in hand with increasing domestic 
supply.
    Naturally, there will not be complete agreement, and the 
President is strongly committed to the adoption of his 
recommendations. But I truly believe that we have the basis for 
working together to meet America's serious energy crisis.
    Mr. Chairman, I want to thank the members of the committee 
for the very kind reception I have received here today, and I 
do look forward to working with every member of the committee 
as we move forward, both here at the subcommittee and the full 
committee, to address many issues including the challenges 
presented here today.
    [The prepared statement of Hon. Spencer Abraham follows:]

    Prepared Statement of Hon. Spencer Abraham, Secretary of Energy

                              INTRODUCTION

    Thank you Mr. Chairman.
    I appreciate the opportunity to come before this committee today to 
discuss the President's National Energy Policy, which was developed by 
the National Energy Policy Development Group under the direction of 
Vice President Cheney. Before taking your questions, I would like to 
make a brief opening statement.
    My statement will outline the scope of the energy challenge we face 
over the next two decades, summarize the approach the President has 
determined will best address this challenge, and finally emphasize why 
I am optimistic that we can find a consensus in this country on 
policies that promote long-term energy security for our citizens.
America's Energy Challenge 2001-2020
    Today, America consumes 98 quadrillion British thermal units (or 
quads) a year in all forms of energy. Our domestic energy production is 
72 quads. The imbalance between energy demand and domestic energy 
production is made up with imports.
    Between now and 2020, our energy demand is projected to rise 
significantly.
    If the energy intensity of the U.S. economy--the amount of energy 
needed to generate a dollar of Gross Domestic Product--remained 
constant, our energy demand in 2020 would be 175 quads.
    However, our Plan and current policies will improve energy 
efficiency to the point that energy demand in 2020 can be lowered from 
175 quads to 127 quads.
    That means improved energy efficiency can help close much of the 
gap between projected energy demand and projected domestic energy 
production.
    However, improved energy efficiency cannot do the whole job. For 
that reason, the United States will need more energy supply.
    The question is: where do we get that increased supply when over 
the past decade domestic supply production has remained relatively 
flat?
Our Balanced Approach
    To address these challenges, our National Energy Plan has adopted 
an approach that is balanced and comprehensive. As the President said, 
we are looking for a new harmony among our priorities.
    Let me briefly outline this approach for the Committee.
    First, our policy balances the need for increased supplies of 
energy with the need to modernize our conservation efforts by employing 
cutting edge technology.
    And so, for example, as we call for recommendations to enhance oil 
and gas recovery from existing and new sources through new technology, 
we also call for recommendations for changes in Corporate Average Fuel 
Economy standards.
    Second, our Plan calls for a balance in terms of our supply 
sources.
    With electricity demand forecast to rise 45 percent by 2020, we 
estimate the need for an additional 1,300 to 1,900 new power plants in 
the country.
    Current policy anticipates that over 90 percent of those new plants 
will be fired by natural gas.
    We believe energy security dictates a more balanced approach to new 
power generation.
    In addition to natural gas, the National Energy Plan looks to clean 
coal generation, nuclear power, and hydropower to give us the broad mix 
of energy needed to meet growing demand and support energy security.
    Third, our plan balances our pressing requirements for traditional 
sources of energy, such as oil and natural gas, with the need for 
renewable and alternative sources such as biomass, solar, wind, and 
geothermal.
    The Plan seeks to increase exploration of domestic sources of oil 
and natural gas. And it also recommends tax incentives for the use of 
certain renewables and more focused research on next-generation sources 
like hydrogen, and fusion.
    Fourth, our energy plan harmonizes growth in domestic energy 
production with environmental protection.
    This commitment to conservation and environmental protection is not 
an afterthought; it is a commitment woven throughout our energy policy.
     Energy production without regard to the environment is simply not 
an option.
    For example, in addition to recommendations seeking to streamline 
the permitting process for plant sitings as well as building new 
infrastructure, the National Energy Policy also directs EPA to propose 
mandatory reduction targets for emission of three major pollutants--
sulfur dioxide, nitrogen oxides, and mercury--from electricity 
generation.
Building Consensus
    We support this balanced approach with 105 recommended actions, 
covering the full range of energy challenges confronting this nation--
and indeed the world--from how best to enhance renewable sources, to 
oil and natural gas development in the Caspian Sea.
    The Administration can carry out many of these recommendations on 
its own, either through executive orders or agency directed actions. We 
are moving ahead to implement proposals as quickly as possible.
    Just days after release of our National Energy Report, the 
President issued two executive orders directing Federal agencies to 
expedite approval of energy-related projects and directing Federal 
agencies to consider the effects of proposed regulations on energy 
supply, distribution, or use.
    Moreover, where appropriate, the President is directing Federal 
agencies, including my own, to take a variety of actions to improve the 
way they use energy and to carry forward critical aspects of his 
policy.
    For example, I've instructed our Office of Energy Efficiency and 
Renewable Energy to carry out a strategic review of its renewable 
energy research and development programs in light of the 
recommendations in our National Energy Policy.
    Hydropower, geothermal, wind, and other renewables are highlighted 
in our report for the contribution they are making and can continue to 
make to energy security. Promising next-generation technologies will 
also play a part in solving our energy challenges. Both current and 
future technologies will be a part of our strategic review. I've asked 
that the study be completed by September 1st. Its findings will permit 
us to recommend appropriate funding levels that are performance based 
and modeled as public-private partnerships.
    Twenty of the Report's recommendations require legislative action 
and I think we will find more areas for cooperation than disagreement.
    This Committee has a long and proud tradition of passing bipartisan 
energy legislation dating back to the 1970s. I look forward to working 
with the Committee to develop energy policy legislation consistent with 
its bipartisan tradition.
    So, I believe that we start from a wide base of agreement. We all 
recognize energy as a critical challenge. We all recognize that parts 
of our energy supply and delivery system need enhancement or 
modernization. And we all recognize that conservation and stewardship 
must go hand in hand with increasing domestic supply.
    Naturally, there will not be complete agreement and the President 
is strongly committed to the adoption of his recommendations. But I 
truly believe we have the basis for working together to meet America's 
serious energy crisis.
    Thank you, Mr. Chairman. I would be glad to take your questions at 
this time.

    Mr. Barton. We thank you, Mr. Secretary. And again we want 
to welcome you to the committee. The Chair would recognize 
himself for 5 minutes. We are going to allow each member one 
round of 5-minute questions. If there are additional questions, 
we will submit them in writing to the Secretary.
    As I said in my opening statement, Mr. Secretary, I think 
you have got the toughest job in the Cabinet, and I really mean 
that. But my first question is really more of a personal 
nature. Have there been any pleasant surprises as Secretary of 
Energy?
    Mr. Abraham. Well, I have to confess, Mr. Chairman, the 
most pleasant surprise has been the sort of bipartisan sympathy 
with which I have been treated. Both on the Senate side and 
here today, I have enjoyed both the welcome that I have 
received to the job and at the same time the cautionary notes 
from both sides of the aisle, from friends on both sides of the 
aisle, telling me how much they sympathize with my plight. But 
for the fact I was previously unemployed, I suspect I might 
share that viewpoint.
    But obviously the job is a very challenging one but, 
fortunately, I am very happy to report that a number of the 
appointees, the nominees of the President to major positions, 
have now achieved confirmation and another group is moving 
toward that point, and I think as we get our full complement of 
office positions filled that will obviously make my job perhaps 
a little easier.
    Mr. Barton. Well, let me ask you a little tougher question, 
then. You are a former Senator from the great State of 
Michigan. You are very aware that CAFE is not a place you eat 
in a restaurant, it is Corporate Average Fuel Economy, a fairly 
controversial issue in your home State. The President and the 
Vice President and you have come out strongly for conservation. 
Your proposal as it stands would shave 48 quads of energy from 
the projected increase in demand if we did nothing in terms of 
conservation.
    Do you have any thoughts that you would care to share with 
the subcommittee on what a reasonable balanced increase in 
corporate average fuel economy standards might be that this 
subcommittee should consider legislatively?
    Mr. Abraham. Well, our position as reflected in the plan, 
is to recommend that the Secretary of Transportation, who under 
statute has responsibility with respect to CAFE standards, 
makes recommendations and it is in his domain to do so.
    But let me just say I think--Congressman Dingell isn't 
here, but he and I have worked together on this issue on behalf 
of our constituents, but we have worked together on behalf of 
the American citizenry more broadly, with regard to CAFE in 
recent years. We effected last year a compromise in the Senate 
that called upon the National Academy of Sciences to make CAFE 
recommendations by this July, in time for this year's 
considerations of the Appropriations Committee. It was an 
appropriate step to have taken last year. We acknowledged that 
in the recommendations in the President's report.
    I think as you look at the actions taken, without any 
governmental mandates, by the auto industry, you see a move in 
the direction of hybrid vehicles designed to improve fuel 
efficiency. There are two things I would pose to Members of 
Congress--and now maybe I am speaking more because of previous 
roles than I am of my current one. When one considers what 
might be the ultimate standards to take into account, first the 
issue of safety; and second, the issue of the disparity, the 
potential disparity effect on American versus foreign 
manufacturing of changes. I think we need to proceed ahead if 
we are going to change the fuel efficiency standards consistent 
with those very important considerations.
    The National Highway Transportation Safety Administration 
in the past has indicated that reducing the weight of vehicles 
has a direct correspondence to traffic fatalities. Gannett News 
Service in 1999 did a study in which they concluded that 46,000 
Americans have lost their lives as a consequence of changes in 
the size of vehicles that came about in efforts to meet CAFE 
standards. I hope any changes would be considered against that 
backdrop. I also recognize that there can be advantages that 
changes in the fuel efficiency standards might provide to 
nondomestic manufacturing. Any sort of change that might occur 
must have an even, rather than an uneven, impact on the various 
sources of manufacturing.
    Mr. Barton. Okay. This last is not a question as much as it 
is a comment, something to think about. The energy policy 
proposal that the President and the Vice President, you and the 
other Cabinet secretaries have put forward, shows in the year 
2020 we expect to consume 127 quads of energy equivalent in 
this country. You also show that your policies, if enacted, 
would save 48 quads of energy from what the projected demand 
would be if we didn't have any conservation measures. You have 
a supply side to your policy but it is not quantified.
    I don't think we want to become totally energy independent. 
I have not heard the President or yourself or the Vice 
President say we should be independent, but I would like to 
work with you and the other administration officials to come up 
with a quantifiable target for supply in terms of quad, how 
many additional quads of oil, natural gas, electricity, coal, 
nuclear. And think, as a starting point, that you want to save 
48 quads. If our supply component were some--it shouldn't be 48 
quads increase, but something that gives us a target to shoot 
for as we go through the process. Would you be willing----
    Mr. Abraham. Let me point out, first of all, the difference 
that would be remaining is not 48, it would be 29 quads. Let me 
also say that the gains you just alluded to are ones we believe 
will happen with these policies, but also with existing 
policies in place. We would like to go further than that. I 
hope we can. And we will look forward to working to gaining 
even further efficiencies.
    At the same time, we chose not to try to specify, to make a 
guess, to pick fuels of choice or sources. We know what the 
current projections look like. And as I indicated, right now, 
absent any changes, almost all of, for example, the electricity 
generation increase we are likely to achieve over the next 20 
years would be natural gas-driven increases. And a number of 
people have already commented on the potential implications of 
relying on a single source for most of the increase.
    What we propose is the notion of balance between sources, 
both traditional as well as renewable, but also between 
traditional sources, so that electricity, for example--to try 
and be brief here, the current Energy Office Administration 
projections from our Department's independent arm is that as 
natural gas would increase, would see a decline in the role of 
hydropower and nuclear energy in electricity generation over 
the next 20 years and a very slight increase in the role of 
renewables.
    We chose not to try to specifically pick between those 
different sources, but our view was to try to put in place 
policies that would not place total dependency on natural gas 
but would allow nuclear and hydro and renewables to play more 
robust roles than predicted and projected today.
    Mr. Barton. Thank you. I am not trying to put you on the 
spot. I know the natural gas industry says that they would like 
to be around 30 TCF in natural gas by the year 2010, 2015. The 
coal people have some targets in terms of their increase if we 
can help them on clean coal technology.
    We don't expect the oil industry to gain supply, we are 
hopeful we can we can do steady state. So really looking more 
at hydroelectric, renewable, and some of the others, and 
nuclear, to give us some targets. You have a better chance to 
hit the target if you know what the target is. I mean, every 
now and then, you just shoot up in the air and you hit 
something. But most of the time you have got to aim at it. So I 
just need some help in aiming. I figured you are a pretty good 
marksman.
    With that, I would recognize Mr. Markey for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman very much. I have two 
posters that I would like to show the committee. The first is 
from a report by the Federal Government. This is the report on 
January 11, 2001--from the Report of the Commission to Assess 
United States National Security Space Management, an 
organization which was chaired by Secretary Donald Rumsfeld. 
The figure is credited to the Headquarters Air Force Space 
Command. It is captioned, ``Space Systems Will Transform the 
Conduct of Future Military Operations.'' It shows various high-
technology systems anticipated being used by the United States, 
much of which will be coordinated by the Department of Energy 
in laboratories of Los Alamos and Livermore.
    The Commission was established by Public Law 106-65, and in 
the National Defense Authorization Act for Fiscal Year 2000.
    The second poster that I would like to show you is an air 
conditioner from the Web page of Goodman Manufacturing. As I 
mentioned earlier, this already meets the standard that the 
administration suspended as too onerous. Unlike national 
missile defense, the technology is virtually off the shelf 
today. And also, unlike NMD, we know it works because Goodman 
has already tested it for us in the marketplace.
    Now, this is something that Federal employees are going to 
put together. Pretty complex, huh? Technologically 
sophisticated. This is something the private sector is already 
doing. Now, I would like to believe that the FEC employees are 
capable of doing this, but I technologically believe it is 
highly unlikely that we will be shooting down, in a minute and 
a half, Chinese and Russian missiles heading into our country 
in the middle of the night anytime soon.
    On the other hand, Mr. Secretary, your administration has 
decided to roll back the 30 percent improvement in air 
conditioners which the Clinton Administration had promulgated. 
Now, that is going to increase over the next 20 years the need 
for 43 additional 300-megawatt plants that will have to be 
constructed in the United States.
    Now, I was the author, Mr. Secretary, of the House bill 
that gave you the authority to promulgate the national apply 
and efficiency standards. And one of these provisions is a no 
rollback provision. The reason I built that in was that the 
Reagan Administration had actually flouted earlier laws dealing 
with this subject. So let me read you the language from the 
statute. It says: The Secretary may not prescribe any amended 
standard which increases the maximum allowable energy use or 
decreases the minimum required energy efficiency of a covered 
product.
    Here we are talking about air-conditioners. Now, in rolling 
back, Mr. Secretary, the final air-conditioning rule adopted by 
the Clinton Administration, you are in clear violation of this 
no rollback provision, and you are in violation of that law at 
the same time that your administration is saying that there is 
an energy crisis in our country, and you are also saying that 
we have a national security crisis that is going to call for 
the abrogation of the ABM treaty so that we can deploy this new 
technology over the next 5 to 10 years in the United States 
that will theoretically provide an impermeable, technological 
protection for our country.
    Mr. Secretary, are you willing to review your decision to 
abrogate the implementation of the fuel economy standards for 
air conditioners, especially on a day like today where 35 
percent of all electricity in America is heading toward air 
conditioners--in Texas, it is 75 percent of all electricity 
heading toward air conditioners--in order to adopt a standard 
which Goodman Manufacturing has already been able to put out 
there on the marketplace?
    Mr. Abraham. Well, as you know, Congressman, there were two 
standards under consideration. In our judgment, the standard 
which the Goodman Company was proposing was one that would not 
allow for a competitive marketplace to exist. And I believe one 
of the considerations that we are expected to take into account 
as we evaluate setting these mandated standards is not only 
what the payback periods would be--that is, to the consumer who 
has to pay more--and I am not sure what the cost of the Goodman 
product is; I suspect it is considerably greater than other 
types of models, which has an impact on the pocketbooks of 
average families--but also whether or not a competitive market 
will ensue at the end of the process.
    It was not only our judgment, but also, the conclusions 
reached both by the previous as well as the current Justice 
Department that there were significant issues with respect to 
the competitive disadvantages in the marketplace to other 
manufacturers. This is a case where, in fact, there was a 
considerable difference between perspectives as to whether or 
not such a competitive market would exist.
    What I would say to you is this. We were asked when we came 
into office to review three rules that were, in our judgment, 
according to our legal counsel, not in a final stage to have 
triggered the provisions you have just mentioned. We would be 
glad to share with you the legal considerations that we have 
followed. But two of the three we kept in place, and in this 
case we have suggested that instead the rule ought to be a 12 
versus a 13-sere air conditioner standard, both because it 
would more effectively address this question of market 
competitiveness and at the same time be a little more friendly 
to the pocketbooks of average Americans.
    But at the same time, I would note in response to your 
point that in our National Energy Plan, in chapter 4 of the 
conservation chapter, we have been asked and our agency has 
been directed to seek to expand the standards in both products 
in which we already have assessed and placed standards, as well 
as to expand the number of products that we would consider.
    Mr. Markey. I think the chairman----
    Mr. Abraham. I take that seriously, and one of the 
priorities for us is to review appliance standards, but to 
determine if additional ones should be considered, as well as, 
if we go forward into the future, whether or not air 
conditioners will fall into this or not. We will see.
    Mr. Barton. You can tell that the Secretary was a former 
Senator. He tends to give us a lot of answer for a short 
question.
    Mr. Abraham. Well, it was not meant to be a patronizing----
    Mr. Barton. I didn't say that.
    Mr. Abraham. [continuing] or filibustering.
    Mr. Markey. I will just say this, Mr. Secretary.
    Mr. Barton. Briefly, because we have got a lot of members 
and theoretically only an hour to go.
    Mr. Markey. In my opinion, Mr. Secretary, we do have an 
electricity crisis in California. It is not a national crisis, 
but there is an electricity crisis in California. We need 
solutions. So far your solutions have been giving us a faith-
based electricity policy. You will pray for us across the 
country, but not give us specific solutions. There is no near-
term solution, you say.
    But when it comes to where electricity goes, and it is 
primarily at the air conditioners in the summer in most of the 
States in the United States, you have decided not to, in fact, 
impose a tough standard on air conditioners and have rolled 
back, in my opinion illegally, a final rule promulgated by the 
Clinton Administration that will make it much more difficult 
for us in the long term to have our country solve this 
electricity situation, and I think it is an historic mistake 
which the administration has made.
    Thank you, Mr. Chairman.
    Mr. Barton. Before we go to Mr. Shimkus, just so we have 
the complete record, could you put in the record what the 
current air conditioner efficiency standard is, what the 
Clinton Administration proposed, and what the Bush/Cheney 
Administration has promulgated?
    Mr. Abraham. Mr. Chairman, I would be glad to do it, and I 
think people are seeing that we are calling for a significant 
increase, approximately 20 percent, in the efficiency of air 
conditioners. As was noted, if people want more efficient air 
conditioners, today they can go out and purchase them, and I 
think perhaps some will.
    Mr. Barton. But we need the specific numbers.
    Mr. Abraham. I will do that, sir.
    [The following was received for the record:]

----------------------------------------------------------------------------------------------------------------
             Authority                      NAECA\1\           January 22, 2001 Final    July 2001 Proposed Rule
-------------------------------------------------------------           Rule           -------------------------
                                                             --------------------------
                                      Seasonal     Heating      Seasonal     Heating      Seasonal     Heating
                                       Energy      Seasonal      Energy      Seasonal      Energy      Seasonal
           Product class             Efficiency  Performance   Efficiency  Performance   Efficiency  Performance
                                       Ratio        Factor       Ratio        Factor       Ratio        Factor
                                       (SEER)       (HSPF)       (SEER)       (HSPF)       (SEER)       (HSPF)
----------------------------------------------------------------------------------------------------------------
Split system air conditioners.....          10          n/a           13          n/a           12          n/a
Split system heat pumps...........          10          6.8           13          7.7           12          7.4
Single package air conditioners...         9.7          n/a           13          n/a           12          n/a
Single package heat pumps.........         9.7          6.6           13          7.7           12          7.4
Space constrained products other    10/9.7 \2\   6.8/6.6 \2\  reserved \3  reserved \3      12 \4\      7.4 \3\
 than through-the-wall............                                     \            \
Through-the-wall air conditioners       10 \5\      6.8 \4\   reserved \3  reserved \3        10.9          7.1
 and heat pumps: split systems....                                     \            \
Through-the-wall air conditioners      9.7 \6\      6.6 \5\   reserved \3  reserved \3        10.6         7.0
 and heat pumps: single package...                                     \            \
----------------------------------------------------------------------------------------------------------------
\1\ NAECA, the National Appliance Energy Conservation Act of 1987, Pub. L. 100-12.
\2\ Not considered as a separate product class in NAECA, the standards for split system and single package air
  conditioners and heat pumps apply.
\3\ These were space-constrained products, defined in January 22, 2001 notice (66 FR 7196-7197), for which
  minimum SEER and HSPF values had not been determined. Had the January 22, 2001 rule become effective, SEER and
  HSPF values would have been determined in a supplemental final rule.
\4\ Not considered as a separate class in the July 2001 proposed rule, the standards for split system air
  conditioners and split system heat pumps apply.
\5\ Not considered as a separate product class in NAECA, the standards for split system air conditioners and
  split system heat pumps apply.
\6\ Not considered as a separate product class in NAECA, the standards for single package air conditioners and
  single package heat pumps apply.


    Mr. Barton. Because my understanding is you have supported 
an increase in the efficiency.
    Mr. Abraham. Right. That is correct.
    Mr. Barton. But not as high a number as the outgoing 
Clinton Administration proposed. Isn't that correct?
    Mr. Abraham. That is right.
    Mr. Barton. The gentleman from Illinois. And we are going 
to try to continue so that we don't shut the hearing down. So 
if you folks want to go vote and then come back, that would be 
appreciated.
    Mr. Shimkus for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and the rules--the 
numerous rules and regulations promulgated by the last 
administration as they left off, this is one of those last-
minute, in the dark of the night, surprise, and you have this. 
So I think it is meritorious to review those.
    But what is interesting, this is really an ideological 
debate, because my friend from Massachusetts--I am sorry he 
left, but there are votes--is that the market has already 
responded to higher efficiency standards. The market is what we 
are trying to make sure works. We need to have a diversified 
fuel portfolio so that the market can best choose the right 
fuel for the right use. If you continue to put all your eggs in 
one basket, which we have done over the past 8 years, which is 
natural gas, you don't have the flexibility for the market to 
choose the best fuel for the best use, and so that is why I 
applaud the administration.
    One of the last-minute rules that this administration did 
not promulgate, which they had ample opportunity to, was the 
California waiver. The Clinton Administration had a full 18 
months to make a decision on the California waiver but chose to 
leave office without taking a position. The last technical 
submissions from the State of California concerning its 
petitions were submitted in February 2000, a full 11 months 
before the end of the Clinton Administration. I could only 
assume that the Clinton Administration did not see--there was 
no meritorious position, otherwise it would have been lumped in 
with all those other last-minute rules and regulations.
    But it is a great debate, because what it does is it has 
supposed clean air advocates arguing against clean air, and I 
know this is kind of an EPA thing, but it is timely, and it has 
supposed pro-oil individuals against big oil.
    So, again--but make no mistake, there is one proethanol 
Member of Congress. There is many of us, but there is one right 
here supporting ethanol, so I am not trying to, you know, hide 
my true colors. But the reality is the whole debate is 
fascinating from the aspect of those who support clean air are 
talking against ethanol and the oxygen standard, and those who 
should be siding with big oil actually sided against big oil.
    But I do think, as in my opening comment, having internal 
ability to refine and have natural resources of fuel helps 
decrease our alliance on foreign oil, and I think that is very, 
very important.
    And I have to respond also to the other comment on the 
national missile defense. Just because this is one Member of 
Congress--first of all, it is not designed to shoot down every 
missile that will be launched from every country at one time. 
It is designed to be able to knock down a rogue nation, a 
terrorist missile attack. And this is one Member of Congress 
who will--I am willing to take that one shot of a bullet 
hitting a bullet if it means protecting Los Angeles, 
California, or Chicago, Illinois, or Washington, D.C. I am not 
going to be the person who says, no, I didn't think that was 
important enough. I am going to let that go.
    So to my friends on the left who don't--who doesn't think 
national security and the ability to defend our people is that 
important, I would say it is probably the primary role of the 
Federal Government is to protect its citizens.
    Now I will go on two issues. I am going to continually 
focus on the biofuels component of a National Energy Policy. 
Although in southern Illinois, we do have marginal wells. We 
have abundant coal reserves. We do have, as I said, the 
reprocessing uranium facility that is in the deep south in 
Metropolis, Illinois, but, of course, ethanol and biodiesel 
have been projects that I have undertaken. And a couple years 
ago we were able to help pass an addition to the Energy Policy 
Conservation Act, which allowed the fuel addition of biodiesel 
to be considered to help decrease our reliance on foreign oil.
    We have another piece of legislation that has been 
submitted within the last couple of weeks to affect the--and it 
really is through the Transportation Committee, but for your 
information, it does tie in, because any time we use biofuels 
in any percentage, mixture with petroleum-based fuels, it 
decreases our demand for the petroleum-based product. That is 
why ethanol is helpful. That is why biodiesel is helpful.
    And if it can help clean the air--I would just want to put 
on record, Mr. Secretary, so you know, that we have dropped 
legislation on the Congestion Mitigation Air Quality Act, which 
would allow, you know, credit for fuel usage of a renewable 
fuel additive so that you can get credit for the using of 
biodiesel or ethanol in these highly dense transportation 
corridors that are congested, and there is a clean air aspect. 
There is a renewable fuel aspect and all the great things that 
are involved.
    The last thing that I will mention, since I am the only one 
talking, and no one else is around----
    Mr. Barton. We have Mr. John and Mr. Cox here.
    Mr. Shimkus. How am I doing on time, Mr. Chairman?
    Mr. Barton. You are 23 seconds over.
    Mr. Shimkus. Well, then I yield back my time.
    Mr. Barton. All right.
    The gentleman from Louisiana is recognized for 5 minutes.
    Mr. John. Mr. Secretary, thank you very much for coming. 
Being from Louisiana, which is a producing State, I really 
understand the industry as a whole and its impacts from a local 
economic standpoint; and as a Member of Congress for the last 6 
years, I understand energy on the national level and its 
importance to our economic security, and to our national 
security among other things.
    I would like to put this debate into very easy-to-
understand components that all make up a comprehensive energy 
policy. No. 1, I think you have to find it. No. 2, you have to 
refine it. And No. 3, you have to transport it. And each one of 
those components, as simple as they may seem, is a very 
critical component of delivering an energy policy that I think 
all of America wants.
    And I would like to focus just a little bit on the 
transportation part of my breakdown. Now, it is my 
understanding that in California, the pipelines that lead to 
the border can deliver a lot more natural gas, but once they 
get to the border, they get choked out, and from that situation 
other complications happen.
    I would like to focus in on the transportation part of the 
administration's policy and how you envision meeting our 
delivery needs. Whether it is pipelines for natural gas that 
fuel electric power plants or electric transmission lines, 
without them, you really have a bottleneck and a problem. I 
think this is a very important part of the whole energy debate. 
Some people in America seem to be focused on the production 
side, because it is high profile, especially on Federal lands, 
and other things that seem to be a political powder keg. But I 
think transportation of whether it is electricity, gas or crude 
is very important. Could you elaborate on that, please?
    Mr. Abraham. Well, just a broad statement, I would just say 
that we have devoted an entire chapter of the energy plan to 
the infrastructure challenges we confront, for a good reason, 
which is that if we increase supply, or even just maintain 
current supply levels, if we have lack of capacity to deliver 
the supply, as you have indicated we have----
    Mr. John. That is my point exactly.
    Mr. Abraham. [continuing] it affects price. It obviously 
affects shortage issues as well.
    In the plan we are making a number of recommendations. With 
regard to the pipelines, the President directs Federal agencies 
on an interagency basis to try to work together for the 
purposes of designing and developing recommendations to 
expedite the permit process that is involved in pipeline 
siting.
    He also has encouraged FERC to consider improvement in the 
regulatory process which governs the approval of these 
interstate systems. And we also endorse Senator McCain's 
legislation with regard to pipeline safety.
    At the same time, on the transmission side, we have a 
number of recommendations which play a fairly active role in 
development, because with regard to electricity transmission, 
we face a greater challenge, and that challenge comes about 
because of the fact that there is no Federal authority to site 
electricity transmission. We have that capacity with respect to 
oil pipeline, natural gas pipeline at the Federal level. We do 
not have that power with respect to electricity.
    What we have in this country is an electricity transmission 
system that was largely constructed at a time when a local 
power plant serviced its community. It was not developed for 
long-haul transmission. It was not developed for a national 
energy or electricity market. As we have strived for more 
competition in the marketplace of electricity, we have done so 
primarily with regard to price control issues. And California 
has obviously had one type of experience, Pennsylvania another.
    But even as we deregulate on the price side, we still have 
the challenge if there isn't a sufficient number of sellers 
available or buyers or vice versa, and so what we are talking 
about, and actually interestingly it was, I think, well stated 
by Congressman Sawyer's remarks--in his remarks, of the notion 
of moving toward a national highway system for electricity.
    What we propose is several steps to get there: Step number 
1, an analysis by my Department to try to determine where we 
need more transmission, where we need more interconnectivity.
    Second, a process that would involve encouraging the FERC 
to develop a rate structure system that would encourage, 
through rates, the construction of the additional transmission.
    Third, for us to consider the benefits of a national grid. 
That is for the Department to make a review of that and 
recommendations.
    Also looking at the Federal facility, such as the 
Bonneville Power Administration to determine whether they 
need--and somebody--I think Congressman Walden asked about 
this--whether we need to expand their debt availability so they 
can participate in construction.
    But finally, of asking for us to develop legislation that 
would provide the Federal Government with an eminent domain 
power to address situations that might arise where we need 
interconnectivity.
    And there certainly have been many examples in recent years 
where the--where we are talking about interstate situations 
where somebody just won't take the action. The authority lies 
at the State and local level. If a community or a State decides 
it will not site transmission, it may make a problem far more 
acute.
    We have cities in this country that are limited in terms of 
how much electricity they can import, considerably constrained 
in that regard, such as New York. We have States, because of 
their nature, some--for example, Florida, because of being a 
peninsula--where we have similar kinds of limits in terms of 
importation. And within States or within regions, we have 
these. And I don't see--at least it wouldn't be my vision that 
the Federal Government, once having identified these problem 
areas, immediately launch through an imminent domain power, 
siting program.
    Rather, I would hope we could work together to develop 
legislation that once we identify these, we bring them to the 
attention of the appropriate regulators at the State and local 
level; that we work with FERC to perhaps provide a rate 
structure that encourages transmission development. But there 
should be at least a last resort option available to us at the 
Federal level to make sure that we don't have the kinds of 
challenges that some parts of the country confront, of being in 
situation where they literally can't import anymore generation 
where they need it most.
    Mr. John. First, let me encourage you to research and study 
the national electric transmission grid. I think it is 
meritorious. When you are looking at the economy today and all 
these e-businesses that are popping up everywhere, you are not 
sure where they are, and it really doesn't matter. And I think 
that same mindset may overlap on electricity. If it can be 
generated somewhere, does it matter where it comes from if it 
is going to plug into a grid, into a national power grid?
    Mr. Abraham. Well, if I could just say--and I know I may be 
a little bit over here, but if I could just add one other 
point. In addition it would help us--if we were to resolve 
these bottlenecks and so on, help us deal with opening a more 
competitive system, in addition to helping us address 
situations where there might be an electricity shortage in one 
area and a surplus in another that right now can't be used to 
address the shortage.
    And also I think it could open the way ultimately for us to 
address the NIMBY problem, which was referred to by Congressman 
Radanovich. Right now the reluctance of a community to have any 
new generation can create a situation with literally--you know, 
they have a problem there, but they have no option because they 
can't import any more electricity. There are communities that 
would like to increase the amount of generation they have, 
places perhaps where they already are a source, but if there is 
not enough transmission to get any additional electricity from 
there to a more grid-intensive area, they don't have that 
option.
    Mr. John. Well, being from Louisiana, I could sure 
understand that mentality, that we will drill as much as you 
want down at our end. We understand the jobs that are created.
    Finally, let me briefly say that I look forward to working 
with you as we embark upon this issue. In my eyes, I do not 
believe that there is a more important issue facing this 
Congress, and it is not going to be solved this year or next 
year. There is no silver bullet. There are a myriad of things 
that have to be addressed in one package. I think energy 
concerns are a threat to our economy. It is a threat to our 
prosperity. I think it is a threat to our informational 
security. And it is something that we need to work on.
    Being cochairman of the Blue Dogs, we have recognized that, 
and we have activated an energy task force, cochaired by our 
colleague Ralph Hall on the committee and also Max Sandlin, and 
we are putting together principles of an energy policy. And we 
are going to invite you to one of our meetings. I think we will 
play a very important role in this, because it is a very 
important issue, and I look forward to working with you and 
thank you for being here.
    Mr. Whitfield [presiding]. Mr. Secretary, I also want to 
welcome you to our panel this morning, and I was not here for 
the opening statements, but we are delighted that you are here. 
And I particularly am pleased that this administration is 
placing emphasis on all fuel sources, particularly the emphasis 
you are placing on clean coal technology, as well as expanding 
the use of nuclear fuels.
    I would like to ask a few questions just on a few parochial 
issues as well. As you may know, I represent the Paducah 
gaseous diffusion plant, and I was pleased that the 
administration had requested $18 million in the supplemental 
appropriations bill for environmental cleanup at the Paducah 
plant. And I know that you can't speak for what will happen 
here on the Hill, but it is my understanding that at least in 
you all's view, that the entire $18 million was to be set aside 
for the Paducah cleanup. Is that correct?
    Mr. Abraham. Yes. That is my understanding.
    Mr. Whitfield. And then on another issue, I really 
appreciate the Department's continued efforts to move ahead 
with the DUF6 conversion plants at both Paducah and Portsmouth. 
Those plants and the construction are very important obviously 
in trying to convert the depleted uranium hexafluoride into a 
more stable product.
    As you know, the bids were submitted in March, and it was 
our hope that an award would be made no later than August. 
However, it is my understanding that most recent estimates 
indicate that DOE will not award the contract until about 
October. Is that your understanding at this point?
    Mr. Abraham. I would have to check to see if there is any 
updated information. I honestly can't tell you a date, but I 
know that our offices work with yours, and I suspect the 
information you have just indicated is something that reflects 
the most recent estimates on our part.
    Mr. Whitfield. Okay. Good.
    Also, I, along with Congressman Strickland of Portsmouth, 
had written a letter to you regarding the pension benefits for 
the retired employees at both Paducah and Portsmouth. Recently, 
the pension benefits for the retirees at Oak Ridge had been 
increased significantly, but the benefits for retirees at the 
Paducah and Portsmouth facilities was not increased. I have 
talked to your staff this morning, and I know that they are 
going to be working on that. And I just wanted to say to you 
that it is a very important issue, and we appreciate you taking 
the time to look into that and get back with us.
    Mr. Abraham. Well, we will, and I just would like to 
acknowledge the work you have done. We have worked with 
Congressman Strickland as well, as you have indicated and he 
did in his opening statement, to try to address some of these 
issues within our complex. Obviously some of the employees are 
involved that work directly with the Department, but most 
don't. And we are trying to be responsive to their concerns, as 
expressed through you, and we will continue to work with you to 
accomplish that.
    Mr. Whitfield. Thank you.
    At the time USEC was privatized, they became the exclusive 
executive agent for implementing the Russian HEU agreement. The 
National Security Council is reviewing that entire agreement 
and I know that you will be having input into that. I would 
just like to make the comment that I think that USEC has done a 
very good job as the agent for that agreement, and it is my 
hope that they would be able to maintain the exclusive agency 
responsibility in that. I know that this is an ongoing process, 
and I simply just wanted to express my views on that. I am 
assuming that it is your view that we do need to always have a 
domestic capability to enrich uranium in the U.S. Do you agree 
with that?
    Mr. Abraham. Well, Congressman, one of the things which we 
are trying to evaluate in the early days of the new 
administration is precisely what general policies we are going 
to outline in these areas.
    As you indicated, there is a national security review going 
on that embraces both the specific issues that relate to the 
USEC role and, more broadly, the HEU agreement as it pertains 
to nonproliferation, but also as to the national security 
implications both with regard to domestic production 
capabilities, as well as the capacity to import on a long-term 
basis. So that is all part of the review, and those are 
definitely considerations that will be taken into account.
    Mr. Whitfield. Okay. Well, Mr. Secretary, I know that 
everyone on this committee does look forward to working with 
you as we try to solve this energy crisis in America and to 
utilize all fuels available to us. And I see that my time has 
about expired.
    I recognize Mr. Waxman of California for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman, and Mr. 
Secretary. I am pleased to have you here before us.
    We want to work together with this administration, but the 
proposal that we have seen on energy just is so puzzling to me, 
because you would not get a tighter standard to make motor 
vehicles more cost-efficient, to get more fuel use more 
effectively with cars. You wouldn't get as tight a standard on 
air conditioning, which, if we had the standard that the last 
administration proposed, would have resulted in 43 fewer power 
plants from having to be built. We are not going to get other 
areas of conservation. But instead we are being told, well, we 
will just have to start drilling in the national Alaska 
wilderness area, open up all Federal lands.
    We are getting some kinds of sources of energy that are 
being favored. We are getting a subsidy for coal. At the same 
time the administration is proposing a cutback on funds for 
renewables. And there is a 30 percent cut in the conservation 
fund, which is a fund that can be used to make greater 
efficiency use of electricity and other energy. So it is very 
troubling.
    On the one hand, we are being told there is a crisis, let 
us drill, let's produce more energy, let us open up our natural 
resources. We are in a crisis so we need more supply. And yet 
we don't have the effective ways to use our energy more 
efficiently and to conserve.
    How do you answer that?
    Mr. Abraham. Let me try to go through all of those, if we 
can. First of all, let us just talk about energy efficiency and 
conservation. There is a major component of this proposal, an 
entire chapter devoted to recommendations in that area. It 
ranges from--on the one hand, to call for the expansion of 
combined heat and power program systems.
    Mr. Waxman. Well, let me ask you about motor vehicles. That 
is one of the major sources of use of energy. You said in 
answer to a previous question that the proposal of this 
administration is to study tighter fuel efficiency standards. 
Yet the standards were adopted in the 1970's and implemented in 
the 1980's, and we are now in the 21st century. Don't we need 
tighter standards right now to put in place for future motor 
vehicles, particularly those SUVs?
    Mr. Abraham. I would note a couple things. First of all, we 
already have legislation in place that puts the Secretary of 
Transportation in charge of making these determinations, and I 
believe that is really what we have now urged happen. But just 
remember, of course, over the last several years, there has 
been a moratorium on funding to, in fact, make any changes with 
respect to----
    Mr. Waxman. Well, that is a moratorium the Republicans in 
the Congress supported----
    Mr. Abraham. And it is also a moratorium that we do not 
call for in this plan. And indeed, I believe that the House----
    Mr. Waxman. Well, because your plan----
    Mr. Abraham. [continuing] Appropriations subcommittee just 
this week has lifted that moratorium.
    Mr. Waxman. I know there is no need for a moratorium, that 
the administration's proposal is to simply send it out for 
further study by the National Academy of Sciences.
    Mr. Abraham. No. That isn't the case, Congressman. I think 
that, quite the contrary, we envision in this moving forward on 
CAFE taking into account three factors that I think are 
important. One, the study which was a bipartisan compromise 
worked out last year to have the National Academy of Sciences--
and I believe in a few weeks they will have their study 
completed--give us some recommendations that should be 
incorporated into the consideration and taking into account 
safety as well as potentially disparate impact on 
manufacturing.
    If 46,000 Americans have died as a result of mandated CAFE 
standards over the last 20 years, we ought to be looking 
forward in terms of changing standards to make sure that we do 
so in a fashion that doesn't----
    Mr. Waxman. People have died because of CAFE standards?
    Mr. Abraham. That is exactly right.
    Mr. Waxman. How is that happening?
    Mr. Abraham. Because we----
    Mr. Waxman. We have got more cars efficient now than they 
used to be.
    Mr. Abraham. They may be more efficient with respect to 
fuel, it doesn't necessarily mean they are safer. And the 
problem, I think, that the National Highway Transportation----
    Mr. Waxman. You are no longer the Senator from Michigan. 
You are the Secretary of Energy. That argument never stood the 
test of----
    Mr. Abraham. I am equally interested in the safety of 
Americans in this job, and what I would say is that the 
National Highway Transportation Safety Commission has, in fact, 
found a direct correlation between the weight of vehicles and 
traffic fatalities that have ensued. It is not my numbers. It 
is the numbers of NHTSC. It is the calculation done by Gannett 
News Service, taking into account the data provided.
    Now, the issue isn't whether or not we should improve CAFE 
standards. The question is can we do so without any resultant 
increase in the unsafety of vehicles. And I----
    Mr. Waxman. Well, Ford is talking about a vehicle, an SUV, 
in 3 years that will get 40 miles to the gallon. Do you think 
they are going to make one that is less safe than the SUVs on 
the road today?
    Mr. Abraham. I am confident they won't. And they didn't 
need a government fuel efficiency standard to make it. The 
question is whether or not--what we are calling for is for the 
process to move ahead with the Secretary of Transportation, who 
has responsibility under the standards and the statutes in 
place today to make a decision.
    Mr. Waxman. My only point is Ford says they have the 
technology. They can do it. That doesn't mean they will do it. 
And it seems to me if we want it done, and we want to get the 
automobile industry to act, we have got to set in place the 
requirements for them and push them to do it. That is how we 
got them to move forward on safety, on fuel emissions from 
automobiles that pollute the air, on greater efficiency. And 
what I see is this administration telling the automobile 
industry, don't worry about efficiency standards. We are going 
to send it to the National Academy of Sciences and study it for 
a couple more years.
    Mr. Abraham. Actually, that is wrong, Congressman. The 
Congress last year in a compromise on a bipartisan basis sent 
it to the National Academy of Sciences. Their study is due in a 
matter of weeks, and when it is done, it will be incorporated 
in the Transportation Department's statutorily required fuel 
efficiency determination process.
    Mr. Barton. Okay. The gentleman's time has expired.
    The gentleman from Ohio Mr. Sawyer is recognized for 5 
minutes.
    Mr. Sawyer. Thank you very much, Mr. Chairman.
    Mr. Secretary, welcome again. I understand that in your 
answer to Congressman John, that you discussed in some degree 
or other the problems with transmission constraints and the 
need to put a more modern ratemaking structure in place to deal 
with transmission as a freestanding business enterprise, and 
you mentioned Federal siting authority. I am not going to ask 
you to elaborate on that at this point, but I will be 
interested in looking at your response to Congressman John.
    Let me ask you, though, the whole question of RTO formation 
is proceeding today with large numbers of investor-owned 
utilities working to comply with the FERC Order 2000. Do you 
think that we should allow utilities to continue in their 
current progress toward RTO formations in the free market, or 
in the interest of avoiding the kinds of constraints that we 
have seen, formed in some places in the country, does there 
need to be a government role in mandating formation in 
identified places or forcing utilities to divest of 
transmission----
    Mr. Abraham. One of the recommendations in the President's 
plan as I pointed out to Congressman John, the whole chapter is 
devoted to the serious infrastructure problems that you 
identified in large measure in your opening statement. And 
within there a call for trying to address the reliability 
issues. The problem that I see in the brief period of time I 
have been in this job is while we have a variety of, I think, 
10 regional reliability associations or councils, there is no 
teeth in there. There is no authority at FERC to enforce 
reliability measures so that people have some, shall we say, 
latitude in terms of how they behave. So we envision presenting 
legislation that would move in the direction of a national 
reliability council with real enforcement capabilities as one 
leg of the puzzle or the stool.
    Second, we don't make a specific recommendation toward a 
mandatory RTO approach. However, with respect to western RTO, 
in a letter to FERC, I encouraged the inclusion of the 
Bonneville Power Administration because we felt there would be 
a benefit from having that process in the Western States. And 
we see that as a promising way to address some of these 
transmission issues.
    One of the most important assignments I have received as 
part of the National Energy Plan is the requirement by the end 
of this year for us to make a national assessment of where 
bottlenecks exist, to where interconnectivity is required to 
try to address the national highway system you suggested in 
your comments. How we get from that completed project to the 
building and constructing of that is, I think, dependent on, 
one, a rate structure that incentivizes construction on the one 
hand and the ability, at least as a matter of last resort, if 
not otherwise, of the Federal Government to play a role in 
siting where we have an unwillingness on the part of State and 
local officials to do so.
    My hope is once we identify problem areas, perhaps that 
will bring some focus on them and cause regulators to make 
those decisions. But we believe that there needs to be 
ultimately a Federal role, if necessary.
    Mr. Sawyer. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Barton. The gentlelady from Missouri is recognized for 
5 minutes.
    Ms. McCarthy. Thank you very much, Mr. Chairman, and thank 
you, Mr. Secretary. I know in my opening statement, opening 
remarks, I posed some thoughts to you, which I am happy to have 
you get back to me on, budget items.
    I want to pursue in this 5-minute window issues that Mr. 
Whitfield and Mr. Barton both raised, and that is with regard 
to the study, that strategic review, that is to be completed 
September 1. And in your remarks you talk about how important 
it is to maintaining energy security with regard to current and 
future technologies. I couldn't agree with you more.
    But I want to have you elaborate a little bit on what you 
will do following that study, even though we don't necessarily 
know fully what we will find in the study. But I am concerned 
because in the budget process, which we are underway with here 
in the Congress, there are some cuts being made, in particular 
to the National Renewable Energy Lab in Colorado. It is managed 
by Midwest Research Institute in my district, and I have spoken 
to the director at length about this, because I believe very 
much in our energy labs and what they are trying to accomplish 
and that they are, in fact, key to our future energy security. 
But the cuts--the lab itself is going to receive about a 
million dollars increase in equipment, maintenance and repairs, 
but the research activities are said to take about $195 to $199 
million cut in 2001 and another $140 million in 2002.
    Will your strategic review be looking at the consequences 
of those cuts? And what I think personally is that they are 
very untimely, given the commitment we all seem to share in a 
bipartisan way here today for, you know, energy security, next-
generation technologies, you know, elaborating on what those 
technologies mean.
    You and I both know if you set research back for 3 years or 
more, you can't just recoup when you finally find some more 
money. You can't--you just can't pick them up where you left 
them, and we are--at least in this lab I am familiar with--so 
close to the technologies that we need--we need to use, we need 
to export, we need for economic development and energy security 
and national security. I really think it would be impossible to 
resume in the future, and it would be a huge loss for us right 
now.
    So this report that is to be completed by September 1, 
based on your review of it, will you then rethink some of the 
budget items that have not been addressed, you know, and make 
recommendations to the appropriators?
    Mr. Abraham. Mr. Chairman, if I might ask, this is an issue 
brought up by so many members, I would like to just kind of 
give a very comprehensive response--I will do it as quickly as 
I can--there were so many components with respect to the 
renewable energy budget.
    Our budget, if you eliminate congressionally directed 
projects in the renewable energy area from last year's budget, 
is about $60 million less than had been in the 2001 final level 
of appropriations.
    The timeframe in which we developed this budget was almost 
immediate with respect to our arrival in office, and it was not 
a budget that we had the ability to draw conclusions from the 
National Energy Plan development, because the budget had to be 
completed by February 27, and all the details by April 9, and 
the energy plan wasn't finished until May 17. As a consequence, 
it put us in a somewhat difficult position within a variety of 
the budget categories to try to establish priorities.
    What we decided to do in this area was to try to identify 
programs where we saw a clear need for maintaining level 
funding from previous years, and we did that with respect to 
hydrogen, with respect to superconductivity, with respect to 
other areas within the renewable budget, and to retain the core 
competencies, although at a reduced level, of several other 
areas, pending guidance from the National Energy Plan, which we 
have now received.
    If you will look at the National Energy Plan, it gives me 
explicit authority to begin immediately working on a review of 
both the renewables areas, as well as some of the other areas 
in the fossil energy that are somewhat combined for the 
purposes of making new budgetary recommendations.
    Now, the study that I have mentioned actually has two 
phases to it. The first phase has begun. In fact, our newly 
installed Assistant Secretary for Energy Efficiency and 
Renewable Energy, David Garman, is already on the road, having 
public hearings on a regional basis. The first phase of the 
study will be done on July 10, and the purpose of having phase 
1 was to put us in a position to make recommendations that 
would apply to the 2002 budget levels. The final project will 
be completed on September 1, and I would envision that 
providing us with guidance as we work into the 2003 budget that 
will be forthcoming next year, although that process within the 
executive branch is already under way.
    I would note for the record, though, that one thing about 
renewable energy that I hope we can all work together to take 
into account is that a lot of the research in some of the major 
areas, particularly wind, geothermal and solar, is very mature. 
Our Department has spent--we have calculated almost $6 billion 
in current dollar terms over the last 20 years on research in 
these areas, and yet today the contribution to America's total 
energy supply in those three areas is less than 1 percent. And, 
in fact, when our Energy Information Administration was asked 
to estimate what the contribution level would be in 20 years 
down the road, it was only a little bit more than 1 percent. 
Now, I don't think any of us want that to be the case.
    It seems to me the challenge we have is not only on the 
research side, but also on the implementation side, and one of 
the things I have also asked our division, our Energy 
Efficiency/Renewable Energy Division, to do is to look at and 
give us recommendations which will have to assure us of steps 
that ought to be taken to translate into using technologies 
that have already been largely invested in.
    In the budget we have some--or rather in the energy plan, 
we have some recommendations with respect to tax incentives. 
For example, expanding the solar energy tax credit to 
residential as well as commercial applications; an expansion 
also with respect to biomass; and some others, fuel cell 
vehicles.
    But I think there are other factors involved as well. We 
have some siting problems that are regulatory in nature rather 
than research-related with regard to, for example, wind energy 
farms, because people may not want to have that in some 
particular part of their State or community. We have, I think, 
some problems with respect to the uncertainty of some of these 
tax incentives that have been only put in place in the past for 
a short duration, and, therefore, it has caused people to not 
be certain about whether or not there is going to be that 
available in the future.
    We have pricing issues that I think need to be addressed. 
For example, when you are using solar energy, there are periods 
when, in fact, you are a net energy generator. You are 
generating more in the heat of the day than you are using. If 
we can incentivize or provide people who might use a solar 
system the opportunity to benefit at those times through net 
metering, which is available in some places, I think that can 
cause an expansion of that particular renewable.
    And so I think we have got to look at this both on the 
research side, but also on the application side, or else that 1 
percent for those three sources will be the final number, and I 
don't think any of us want that to be.
    Ms. McCarthy. Mr. Chairman, since he is addressing his 
answer to the many members who had raised the issue, may I 
pursue briefly?
    Mr. Barton. You can ask one more question, and then we go 
to Mr. Dingell, and we will go to Mr. Walden.
    Ms. McCarthy. Thank you, Mr. Chairman.
    I thank you, Mr. Secretary, and I do hope that the study 
provides you with the impetus I think we all feel we need to 
make these other forms of energy competitive and available. We 
can look to our European friends for help there as well, since 
they are ahead of the curve on these matters, having had high 
energy costs far longer than we have.
    I wanted to comment or ask your thoughts on revisiting the 
CAFE standards issue that both the chairman and others have 
brought up. I am concerned because this committee has taken a 
look at SUVs and, you know, the danger in them, the design, and 
perhaps the tire issue. We have taken a good look at that. Are 
you suggesting there are some--that there are some data 
available that shows that the deaths due to CAFE standards 
somehow relate to SUVs, because it was my understanding that 
SUVs were exempt from those standards?
    And second, what is wrong with the Secretary of 
Transportation and you collaboratively calling on the industry 
to become more efficient, give them a goal of a mile per gallon 
per year over the next decade and call upon them voluntarily to 
meet that goal for energy security and national security, and 
just send a message that this is what the administration would 
like to see happen, all the while you are pursuing other 
studies on just what we can accomplish. I would like your 
thoughts on both, please.
    Mr. Abraham. Let me say with respect to the safety issue, 
as we address fuel efficiency, I think it is imperative that we 
also consider safety implications. For those of us who have, 
you know, looked at these previous studies, what we see is that 
when fuel efficiency standards came into effect, one of the 
ways that people met the higher standard--one way that 
manufacturers can meet a higher standard of fuel efficiency is 
to make a vehicle lighter.
    Now, if a vehicle is lighter, NHTSA has concluded that 
there is a correlation to more serious accident ramifications, 
and so I want to make sure that if we do change CAFE standards, 
that we take that into account and try to make sure the changes 
aren't ones that bring about any unique consequences on a 
safety front.
    In terms of the industry, you know, first, I think we need 
to execute the already existing statutory requirements that are 
in place today, which call upon the Secretary of Transportation 
to on a--I think it is on an annual basis to make 
recommendations with respect to fuel efficiency. Those have 
been basically stopped because of the moratorium on funding, 
but from what I gather, the moratorium is not likely to be--the 
ban or whatever is not going to be in this year's 
appropriations. At least it doesn't seem to be at this point on 
the House side.
    Ms. McCarthy. Mr. Secretary, if I might speak from my 
heart, since I arrived here in 1995, the auto industry has been 
all over me to support legislation, to deny those CAFE standard 
changes. I think that it has stopped not because of budget 
issues, but because of politics, and I think that is why I 
suggested that you and the Secretary of Transportation call on 
the industry to be a partner in this instead of trying to 
politically keep it from happening.
    Mr. Abraham. Well, my point was only that the appropriation 
process has prevented the Transportation Department from taking 
the action that is otherwise statutorily called upon. I do 
believe the point you made with respect--or perhaps it was 
Congressman Waxman made with regard to industry now moving 
forward to actually have on the road more fuel-efficient SUVs 
even sooner than a timeframe likely would be mandated is a step 
in a very positive direction, and I think we would encourage 
that. And I hope that we will see the entire industry move in 
that direction, but do so in a safe way, do so in a way that 
doesn't have a disproportionate impact on whether it is 
American workers' jobs that are also affected.
    Ms. McCarthy. Well, it is probably very appropriate that 
the President is in Europe this week, because he will see a 
whole lot of fuel-efficient cars, and perhaps his staff can 
gather some of the data on the hazards and dangers of those.
    But, again, thank you, Mr. Chairman, for your indulgence in 
this time, and I yield back.
    Mr. Barton. Thank you.
    The gentleman from Michigan is recognized for 5 minutes, 
Mr.----
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    Mr. Secretary, these are friendly questions, and I think 
they will be susceptible of yes or no answers, and in view of 
the time limit, I hope you will be able to give me that yes or 
no.
    Mr. Abraham. Well, I am very hesitant to say no, I am sure.
    Mr. Dingell. In response to my May 14 letter on various 
waste issues, you attached a chart, indicating the program 
would experience a funding shortfall in fiscal year 2002. If I 
read this correctly, I would say that it tells me that you will 
fall nearly $6 billion short between fiscal year 2002 and the 
repository opening of 2010. Is that correct, Mr. Secretary?
    Mr. Abraham. We believe--I am sorry. I can't answer that 
issue yes or no. We believe that we will have a funding path 
toward a 2010 completion, assuming that----
    Mr. Dingell. But the chart says you will have a shortfall.
    Mr. Abraham. We are committed----
    Mr. Dingell. It is your chart, Mr. Secretary.
    Mr. Abraham. Congressman, we are committed to moving 
forward to request adequate funding to meet the construction 
of----
    Mr. Dingell. I want to address----
    Mr. Abraham. [continuing] If we, in fact, feel we can make 
the recommendation.
    Mr. Barton. Will the gentleman from Michigan yield, and we 
will give you additional time, because I want to back you up on 
this.
    Mr. Dingell. Well, I will be happy to yield to the Chair 
then.
    Mr. Barton. Would the Secretary be willing to work in a 
bipartisan fashion with Congressman Dingell and myself and Mr. 
Tauzin and others to use a nuclear waste fund for the purpose 
which it was intended, which would mean that we have to remove 
the budgetary cap that was imposed, I think, 6 or 7 years ago?
    Mr. Abraham. Mr. Chairman and Mr. Dingell----
    Mr. Barton. Because that is what Mr. Dingell is getting at. 
His committee did that in our nuclear waste bill in the last 
Congress.
    Mr. Abraham. It would be my view that those funds which 
were contributed by ratepayers through their companies should 
be used for exactly those purposes.
    Mr. Barton. Thank you.
    Mr. Dingell. Now, if we don't do something about this, the 
administration has to do something like putting it off budget, 
because there are nearly $10 billion in unexpended ratepayers' 
monies that are supposed to be spent for the waste repositories 
Congress intended. Will you send legislation up to take this 
waste fund off budget?
    Mr. Abraham. We have begun discussions with the Office of 
Management and Budget to try to address how this can be done. 
We actually began those discussions in this year's budget 
period, but we did not have sufficient time to complete them. 
But I have been working with Director Daniels to try to move in 
a direction that would provide some sort of methodology for us 
to have access to those dollars.
    Mr. Dingell. You are now being sued for failure to proceed 
by the electrical utility industry, and it is my personal 
judgment you will lose all of those lawsuits, Mr. Secretary. 
When you lose, what are you going to do?
    Mr. Abraham. First, let me just say when the chairman asked 
me earlier what were the pleasant surprises of this new job, he 
didn't ask what the unpleasant ones were, and one of them was 
that I have been sued more----
    Mr. Dingell. Your unpleasant surprises are without limit.
    Mr. Barton. It was a holdover suit. It is not you 
personally.
    Mr. Abraham. For one, I have been sued more that I ever had 
planned to be in my life; and second, I would just say that the 
ranking member had warned me about virtually all of these 
matters before I took the job, so I was on notice.
    But obviously we believe that as the first step in the 
process, we need to address the issue that pertains to a site 
characterization and recommendation. Whether or not I can make 
that recommendation will be based on sound science. I believe 
if we begin moving forward, if the conclusions that we reach 
after getting the science are that we can make a recommendation 
to the President to seek license--a license to go forward with 
the Nevada site, that that will have a profound influence on a 
number of these issues, including the nature of lawsuits in the 
future.
    Mr. Dingell. Now, Mr. Secretary, I would note that EPA has 
issued standards for protecting public health and the 
environment at Yucca Mountain. If it proves scientifically 
suitable, can you meet the environmental standards that have 
been described to you or for you by EPA?
    Mr. Abraham. Congressman, our--the process that I intend to 
go through once the site characterization science is presented 
to me will be aimed at determining not only whether or not to 
make the recommendation, but whether or not, in fact, we can 
meet the standards that are set. We accept these as very 
stringent, tough standards. There is no question that they are. 
I will certainly make the determination based on my evaluation 
of those standards against the science that we receive. I 
believe that it is feasible for us to meet those standards 
based on at least my preliminary examination of them, but I 
don't feel I should rush to judgment until I have actually 
received the site characterization information.
    Mr. Dingell. Statutory standards on this point?
    Mr. Abraham. I am sorry?
    Mr. Dingell. Will the Congress have to enact statutory 
standards on this point because of the inability to meet the 
standards or to--or to proceed under the standards of the 
Department because of technical difficulties in doing so?
    Mr. Abraham. At this point, I mean, there is no question, 
Congressman, that the standards that EPA has set are ones that 
go beyond either what the National Academy of Sciences or the 
Nuclear Regulatory Commission had established or suggested. 
They are very stringent tests, and certainly our capacity to 
meet them would--I would hope--resolve any issues with respect 
to safety and environmental implications of the site.
    I don't at this point have a recommendation for 
legislation.
    Mr. Dingell. So you can't answer yes or no.
    Now, Mr. Secretary, are you using your authority under 
section 403 of the DOE Reorganization Act to propose a rule 
which FERC would provide relief for--under which price relief 
would be provided for California by FERC?
    Mr. Abraham. No.
    Mr. Dingell. No.
    Do you plan to send up a comprehensive electric 
restructuring bill?
    Mr. Abraham. We have been asked as a part of the 
President's energy plan to do so. The answer is yes. We have 
not begun the actual development of that legislation, because 
it is--one of our goals is to work with the committee and with 
counterparts on the Senate side as we determine the approaches 
that would be receptive here.
    Mr. Dingell. The plan also recommends legislation, quote, 
clarifying Federal and State regulatory jurisdictions. I would 
note that consensus on this has proved impossible. Can you tell 
me whether your bill would preempt State jurisdiction on 
transmission matters if you send such legislation up here?
    Mr. Abraham. I am not sure that it would be contained in 
the same legislation that would deal with electricity 
restructuring, but as I said in the answers to questions from 
Congressman Sawyer and Congressman John, we believe that there 
are an enormous number of bottlenecks that exist in this 
country where transmission siting is desperately needed. We 
have no Federal authority to do so. I would--our first step in 
the process is going to be to try to evaluate where exactly the 
most significant needs exist for either additional transmission 
or interconnectivity. On the basis of that type of an 
evaluation, we also hope to present legislation that would, in 
fact, provide the Federal Government with some eminent domain 
authority to try to address these problems, although, as I said 
in my earlier comments, I would hope that would be only in a 
last resort rather than as a first impression.
    Mr. Dingell. Would you give this authority to FERC, which 
has done an abominable job of implementing current law, or 
would you vest that authority in someone else?
    Mr. Abraham. We have not made a determination.
    Mr. Dingell. The plan also advocates repealing the Public 
Utility Holding Company Act of 1935. Would you support 
consideration of this issue as a part of a comprehensive bill, 
or do you favor PUHCA repeal on a stand-alone basis?
    Mr. Abraham. We support PUHCA repeal. The President 
indicated that in his campaign, and it is part of his platform. 
We have not made a determination as to whether or not to 
include it in--it would be certainly in the legislation we 
intend to draft, but I understand that in the Banking Committee 
of the Senate, it has moved forward as a freestanding vehicle, 
and I guess it is our intent to try to work with Congress to 
determine what the most effective way would be to accomplish 
that objective.
    Mr. Dingell. Now, I would note----
    Mr. Barton. This is going to have to be the gentleman's 
last question.
    Mr. Dingell. And I thank you, Mr. Chairman. You have been 
very courteous, and I appreciate your kindness.
    I would note that FERC concludes that market power is being 
exercised or actually abused in California's wholesale markets. 
Is this a good time to have PUHCA repeal in view of that, 
because PUHCA has a number of consumer protection provisions in 
there which apparently need somebody other than FERC to 
address?
    Mr. Abraham. Well, we still support the position with 
respect to PUHCA repeal. I would say that--and would note for 
the record that it is only since February of this year that we 
have actually addressed the issues of unjust and unreasonable 
prices in California with calls for refunds that have now 
totaled some $124 million to those people who have been forced 
to pay these unjust and unreasonable rates.
    I think that--and the administration supports FERC's taking 
its responsibility seriously to, in fact, call for such 
refunds, and I would urge them to continue to vigilantly pursue 
that.
    Mr. Dingell. Thank you, Mr. Chairman. I appreciate your 
patience.
    Mr. Barton. Thank you.
    We are going to recognize Chairman Tauzin. The Chair is 
going to announce that Mr. Walden, Mr. Doyle, Mr. Luther and 
Mr. Strickland, have you asked questions yet? All of the 
members who are present at 1 p.m. will be given 5 minutes of 
oral questions. Any member that arrives after 1 p.m. will put 
their questions into the record, because the Secretary does 
have a 1 p.m. appointment. So we are probably going to end up 
here until about 1:30.
    With that, Mr. Tauzin, the full committee chairman, is 
recognized.
    Chairman Tauzin. Thank you, Mr. Chairman.
    Mr. Secretary, let me first remind you something you may 
not be aware of. One of the first bills I introduced upon my 
entry to Congress back in the early 1980's, was to repeal PUHCA 
and the reason then is still the reason now. It is an outdated 
piece of legislation that inhibits some utility companies, and 
only some utility companies, from making efficiency investments 
that are critical to their consumers, and I include in that 
energy carburetion, which is one of the carburetions that 
serves the utility consumers of my district who are restricted 
in their capacity to make necessary efficiency investments. We 
are not living in the 1930's and 1935, 1940's when that sort of 
legislation made some sense. Today it doesn't make sense in a 
marketplace of competition, and I would encourage the 
administration to stick with that position, and hopefully we 
can get it done 1 day.
    I want to talk to you a little bit about some of the plans 
we have in the committee and get your thoughts on it. First of 
all, we have focused on the higher-than-necessary gasoline 
prices in our marketplace that consumers are having to deal 
with. And as part of our plans we hope to address very early 
what we consider to be an element of a marketplace that is 
unnecessarily raising gasoline prices for people, and that is 
the extraordinary number of blends and different blends and 
seasonal blends of boutique fuels in our country. And we would 
very much like to introduce and hopefully pass legislation 
somewhat standardizing that process so that if SIPs clean air 
requirements of the various communities do require some 
boutique fuel to help in the air cleanup, that they might have 
a single or several boutique fuels to choose from, rather than 
as many grades and varieties. Second, that there might be some 
easy way to go from winter to summer blends without emptying 
the tanks 1 day and having to fill them up the next day and 
having consumers face empty fuel tanks when they go to the 
marketplace.
    Does your Department agree with us that that is an area we 
ought to address sooner than later?
    Mr. Abraham. Well, I think it needs to be addressed, and I 
would note that in the President's plan, the Environmental 
Protection Agency Administrator has asked to address it. We 
have talked before about the refinery capacity limitations that 
we have as a Nation, the fact that no new refinery has been 
built in 25 years, the last one down in your district.
    Chairman Tauzin. You visited it----
    Mr. Abraham. Which we visited the other day.
    Chairman Tauzin. Thanks for going there.
    Mr. Abraham. The problems of strained capacity are 
obviously exacerbated to the extent that refineries have to 
produce all these multiplicity of fuels. But the problem, of 
course, is that if you have a problem--which we did in Michigan 
last summer when a pipeline near Jackson burst. A neighbor 
can't borrow from a neighbor, and a refinery doesn't have the 
ability to adjust because of these kinds of challenges. So we 
do support moving----
    Chairman Tauzin. In fact, Daniel Yergen called it the 
Balkanization of the American fuel marketplace, because when 
somebody runs short, a pipeline breaks or a refinery is down or 
a ship has a collision in a harbor, we automatically have 
shortages and spikes like we saw in Chicago and Milwaukee last 
year, and that some rationalization of that marketplace would 
make a lot of sense right now. And we are going to try to do 
that. We would ask your support in finding the right formula 
that gets us there.
    Mr. Abraham. Well, there is no question there is a market 
liquidity problem.
    Chairman Tauzin. The second thing is there has been a lot 
of political discussion about whether or not this 
administration and this Congress is going to support a very 
deep and broad conservation effort as part of the energy 
package. Obviously you heard the chairman of the subcommittee 
announce that we intended to make it one of the very first 
things we do in this committee. The secretary of natural 
resources in Louisiana, when asked to comment to the 
administration on our recommendations to the national policy, 
led off with conservation, with the argument that every Btu of 
energy conserved is one you don't have to repeat in production 
over time, and that we ought to move to see as much demand 
reduction as we can get in a marketplace. Do you concur with 
that kind of a strategy?
    Mr. Abraham. Yes, I do, and as you and I have spoken, there 
is the issue of waste as a consequence of some of these 
reliability issues. One of the recommendations in our--in our 
plan has the Department of Energy moving immediately to 
consider expansion, for instance, in research in areas like 
superconductivity, where we believe that conservation 
achievements are most realized.
    Chairman Tauzin. In fact, we saw that in Detroit. One of 
the electric companies is now deploying superconductive--so 
they are here already. We know some of those advances are here. 
I am going to see a demonstration later today from Sandia Labs 
on a 3-year project that really facilitates net metering where 
consumers can put up solar panels and actually sell electricity 
back to the grid when they are not using it instead of trying 
to store it in batteries. All of that makes great sense, and 
our thought is that we ought to move first with a package that 
literally brings together as many good ideas on demand 
reduction and assistance to energy supplies through 
conservation and demand reduction and alternatives as a lead 
item in the package, and then follow it with what else we have 
to do in all the other more difficult areas to get agreement on 
nuclear and other fuel production, including hopefully a clean 
coal technology bill.
    Again, do you endorse that strategy? Do you feel like you 
can work with us on that kind of a plan?
    Mr. Abraham. It is for sure that we can, and I would 
actually say that as a personal matter--I can't speak for the 
White House on this, I haven't consulted with them, but I think 
moving forward in the direction you have just outlined as a 
first step would certainly be a wise course for the committee 
to follow. There is a lot of common ground----
    Mr. Barton. This will have to be the chairman's last 
question.
    Chairman Tauzin. I will not have another question. I simply 
wanted to thank you again. I know this is your first appearance 
on this side, and we deeply appreciate the time you spent with 
us, Mr. Secretary. We will spend an awful lot more time 
together as the months go by.
    Mr. Abraham. Thank you. I will look forward to being back.
    Mr. Barton. I thank the chairman.
    The gentleman from Pennsylvania Mr. Doyle is recognized for 
5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I have several questions. I think 
what I would like to do is maybe just get them all asked right 
up front and then give you some time so that I don't get one 
question in, and you give me a 4\1/2\ minute answer, and he 
bangs the gavel on me. But we do appreciate you being here.
    You said before that there are wide areas of agreement on 
both sides of the aisle on much of what you are trying to do, 
and I want to reiterate that. I know that you and I agree that 
coal is an important energy resource, and that it is going to 
play a key role in our National Energy Policy, and that we both 
agree we have to develop more efficient ways to use the 
resource. Given the abundance we have in the country, it just 
makes good sense to improve the environmental performance as 
well as the efficiency of--and the cost of coal-based 
technologies.
    It used to be a lonely group. I think myself, Ralph Regula 
and maybe Alan Mollohan were a small group of members that were 
really enthused about this kind of research, and today clean 
coal technology appears to be back in vogue. Maybe this year we 
won't have to be fending off so many cutting amendments from 
our friend from Vermont, Mr. Sanders.
    But that being said, I want to raise a concern about the 
lack of support that we are seeing for newer and more efficient 
gas turbine generating technologies. I think there is no 
question that we are going to need gas turbines as part of the 
electricity--electric generating facilities, regardless of 
whether we use coal or natural gas as the fuel. In other words, 
for at least the next generation, the gas turbine is going to 
be a critical technology in the majority of our electric 
generating facilities. And I think we need to be mindful of the 
relationship that exists between clean coal technology and gas 
turbines. We have to move forward with the development of clean 
coal technologies, such as integrated gasification combined 
cycle. But as I understand, today's gas turbines are simply not 
designed to burn that coal gas that would be produced in such a 
technology.
    So many of us view DOE's next-generation gas turbine 
program as a critical element for the future use of coal, and 
that being said, I know that you had made a statement that you 
thought that that gas turbine program is an example of a 
program that the Federal Government should not be funding. So 
one of the things I would like to ask you is wouldn't we be 
much worse off today if we had not funded DOE's successful 
advanced turbine program, which concluded last year, and might 
the Department reconsider supporting the next generation of 
cleaner-burning gas turbines as part of DOE's R&D budget?
    Second, fuel cells. I want to talk a little bit about this, 
too, because I think this is another area where we hear some 
parks and fliers language about--in the national energy report 
about fuel cells, but when you look at the budget request, it 
causes us some concern. I think that this--the DOE's 
cooperative program with industry has resulted in enormous 
improvements in efficiency, while the program's emphasis on 
driving down cost is also finally beginning to bear fruit.
    And I am particularly proud to have research being done in 
my district at--Semens Westinghouse has a manufacturing 
facility in the district, and their solid oxide fuel cell 
technology, which was jointly developed with support from DOE, 
is about to result in 250-kilowatt generators, which can be 
sited in small office buildings or shopping centers to produce 
electricity with virtually no emissions, and the efficiencies 
of these fuel cells will start at 50 percent. And in 
combination with a small microturbine, efficiencies are likely 
to approach 70 percent. Now, you compare this to our current 
fleet that is generating efficiencies around 30 or 35 percent.
    But when we look at the fuel cell program, we are falling 
several years behind because of shortfalls in funding, and when 
you look at the administration's 2002 funding recommendations, 
they are $7.5 million less than last year. So my next question 
is, you know, why aren't we putting more money into fuel cell? 
And we actually need an additional $20 million in that line 
item, not a $7.5 million cut.
    Let me just shift very quickly to one other thing, methane 
hydrates. I sponsored a bill last year which would--I was the 
author of the Methane Hydrates Research and Development Act, 
which was signed into law last year, and we authorized $47.5 
million for funding. We see that the fiscal year 2002 
authorization level was $11 million. You know, if we could just 
find a way to extract 1 percent of the domestic methane hydrate 
resources in this country, we could double our domestic natural 
gas resource base and completely eliminate our dependence on 
foreign oil sources. This is another area where I think we need 
to have increased funding, not reduced funding.
    And finally, I want to invite you--I know you have been to 
the NETL facility down in Morgantown, West Virginia. We have 
one in Pittsburgh, Pennsylvania, too, Mr. Secretary, which I 
would like to extend an invitation for you to visit so that we 
can talk about some of the important work that is being done 
down there. And I look forward to working with you and just 
hearing your answer on these funding levels.
    Mr. Barton. The gentleman is----
    Mr. Doyle. How did I do, huh? You wouldn't cut the 
Secretary off in his answer, would you?
    Mr. Barton. I think the gentleman from Pennsylvania set a 
record. He has literally asked over 5 minutes of pure 
questions, and I lost count at about the seventh question. So 
if you could give us a simple yes or no answer, I will----
    Mr. Abraham. Yes. No. No. No. And yes.
    Mr. Barton. If you can shortly elaborate.
    Mr. Abraham. I will try. First of all, I welcome the 
invitation to Pittsburgh. We actually at the facility in 
Morgantown had the Pittsburgh employees on a closed-circuit TV 
hookup, and we got to see each other sort of from a distance 
over that, but I would like to do that.
    Second, with respect to gas turbines, the issue that we 
confront in the budget process this year which I asked for 
further clarification about has to do with what the next 
generation of turbine research would constitute. The previous 
program came to an end on large turbine generation. The focus 
of the second stage was to be mid-sized turbines of a variety 
that I happen to believe have been already technologically 
advanced, are in the marketplace. As I understand it, there is 
a huge backlog that exists for these sort--the second stage of 
research that at least I believe was being proposed during our 
budget process.
    Again, I mentioned earlier, because of the timeframe in 
which the budget was developed versus the energy plan, we now 
have more guidance, which would include some of these areas for 
us to reconsider. But at least in terms of mid-sized turbines, 
a lot of the technology already exists. There is a multiyear 
backup in terms of orders from companies such as GE and 
Westinghouse that provide these, and I would certainly want to 
make sure that any kind of additional investment would be an 
investment in which the taxpayer money is well spent and not, 
in fact, substituting for money that could be spent in the 
private sector by companies who seem to already be in the 
market with these kinds of units.
    But I will be glad to follow up on the gas turbine issue 
that relates to the coal gasification question that you raised.
    Third, with respect to fuel cell funding, as you noted, we 
have a slight decrease in the budget, about $7 million out of 
$50 plus million, but it does not reflect a lack of interest or 
commitment in terms of the future in this area. I would share 
your view that distributed energy fuel cell technology, 
hydrogen research are areas of real promise in terms of R&D 
funding. And as part of the process that I mentioned earlier 
with regard to the review that is going on between now and July 
10, and the subsequent review through the end of August for 
2002, as well as 2003 funding, these will be areas of prime 
focus as part of that process, and we look forward to getting 
your input on that as well.
    Mr. Doyle. We look forward to helping you plus those 
numbers up.
    Mr. Barton. The gentleman from Oregon is recognized for 5 
minutes.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Secretary, the Northwest Power Planning Council's 
latest electricity analysis shows that there remains a 17 
percent loss of load probability this coming winter in the 
Pacific Northwest. As you know, stream flows as measured at The 
Dalles Dam on the Columbia system are about 53 percent of 
normal due to the drought. Accordingly, Bonneville and other 
Federal operating agencies in the Columbia Basin need to ensure 
reservoirs refilled by the end of summer--provided we get any 
moisture--so that sufficient water will be available to 
generate electricity this winter.
    Do you anticipate the need to issue any secretarial orders 
this summer, such as mandatory power transfers to California, 
that would not allow this basin to refill its reservoirs?
    Mr. Abraham. No.
    Mr. Walden. Thank you.
    There is also a concern, obviously, about Bonneville's 
aging electrical transmission grid. They say they need about 
$775 million in additional Federal Treasury borrowing 
authority. Does the administration plan to support that request 
or some level of increase in their borrowing authority?
    Mr. Abraham. We have recommended in the task force report 
in the President's plan a two-step process with respect to the 
transmission needs of BPA. One is the call for an assessment of 
the--as part of our broader assessment of transmission 
deficiencies, for a determination to be made. We at the 
Department, I would just say, based on the work we have done 
with Steve Wright and others at BPA, believe that there are, in 
fact, infrastructure needs there, and then based on the 
conclusions as to the assessment, a reevaluation of the debt 
service or debt limitation matters. But both of those are 
called for--both those evaluations, we would expect to complete 
them fairly expeditiously and make recommendations to OMB 
accordingly.
    Mr. Walden. Perfect. Thank you.
    I would also like to follow up on the issue of the 
4(h)(10)(c) fish credits that Bonneville is going to need to 
access. As you know, by law 27 percent of the cost of fish 
recovery requirements in the Federal Columbia system are the 
responsibility of the U.S. taxpayer, the ratepayers picking up 
the remainder.
    Does the administration support Bonneville's ability to 
access those fish credits, especially in this year?
    Mr. Abraham. Right. And we are analyzing in a variety of 
ways, as I think you know, the challenge that we face. Just for 
the record, we are committed to long-term contracts, as you are 
aware, that were entered into last October to supply, starting 
this October, some 2,000 to 3,000 more megawatts of electricity 
than we are capable of generating from within the system. We 
are looking at a variety of ways to address that differential 
because of the implications it has for rates that will be reset 
this fall.
    The fish mitigation issue is part of that set of issues we 
are looking at. The issues of trying to buy down some of the 
demand have already begun to be addressed, and we are pleased 
with the process we are making. And so we will continue to 
work, you know, through BPA to--and with them to try to come up 
with a resolution.
    Mr. Walden. Let's go to the RTO West issue. I understand 
you sent a letter in April to Chairman Abair expressing your 
support for an RTO West proposal that would include the Pacific 
Northwest States of Oregon, Washington, Idaho and Montana, and 
also include Nevada and Utah. In that correspondence you argue 
for a separate regional RTO for these States, RTO West that is 
separate, but at the same time coordinated with an RTO that 
might include California.
    I guess my question really involves how all that comes 
together. For example, has BPA been instructed to ensure that 
an RTO has the ability to relieve not only constraints between 
flow paths, but also the flow paths themselves?
    Mr. Abraham. Well, we haven't actually engaged in that 
level of--at least in my office, between the Acting 
Administrator and I and so on, as to instructions with respect 
to the role it would play as a participant in a regional RTO. 
We did feel that there was a benefit to having that 
participation, which was the basis for the recommendation that 
I sent to FERC. But as I said in an answer to an earlier 
question--I think it might have been Mr. Sawyer's--you know, we 
view RTO as being a source of promise with respect to 
addressing some of the reliability issues and transmission 
constraint problems. I can't say today that mandating people's 
participation is called for, as I mentioned earlier, but we 
haven't--and it is to my knowledge--made any specific 
instructions as to positions on the issues.
    Mr. Walden. I think there are some issues beginning to 
surface about how the ability to transfer--emit power over 
these systems is sold, managed, and whether there is created 
economic bottlenecks that can result in congestion pricing that 
maybe isn't necessarily a reflection of actual market forces, 
perhaps lending itself to manipulation that I know you and your 
agency will be keeping a close eye on.
    Let me switch to one other topic, and that is open-loop 
biomass projects. There is a facility out in Oregon that 
generates power by combusting the methane in a garbage--in a 
solid waste facility, storage facility I guess. Given the 
administration's new focus on tax credits to spur energy 
production, would it make sense to extend renewable energy tax 
credits to open-loop biomass facilities?
    Mr. Abraham. That is a very technical question, 
Congressman.
    Mr. Walden. It sure is. I was hoping you would have the 
answer to it.
    Mr. Abraham. This administration is already on record as 
supporting both closed as well as open-loop tax incentives.
    Mr. Walden. Okay. Very good.
    Mr. Chairman, my time has expired. Thank you.
    Thank you, Mr. Secretary.
    Mr. Abraham. Thank you.
    Mr. Barton. The gentleman from Minnesota, Mr. Luther, is 
recognized for 5 minutes.
    Mr. Luther. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    As you know, there has been considerable discussion about 
the prospects of oil and gas drilling in the Great Lakes, and 
it is my understanding that you have stated your opposition to 
offshore vertical drilling in the past. Is this also the 
official administration position with regard to onshore slant 
drilling?
    Mr. Abraham. Congressman, the comments I made were related 
to my personal views at the confirmation hearing that was 
conducted on the Senate side as to Great Lakes drilling. 
Without any specificity as to the methodology that would be 
employed, it reflects my view. It was not at the direction of 
any previous administration policy. In fact, since the hearing 
happened before we took office, I guess there couldn't have 
been. But the position that I took that day reflects my 
opinion.
    I would note that we put no recommendations with respect to 
drilling in the Great Lakes into the energy report, and so to--
since this would be under the Interior Department's portfolio, 
I am not sure if they have taken a position or not.
    Mr. Luther. Does your personal position also include 
onshore slant drilling, that you oppose that personally?
    Mr. Abraham. I have personally taken a position that I 
don't support Great Lakes drilling in a broad way. I have not--
I have honestly not investigated the science or the 
characterizations of the various forms of drilling, and I don't 
want to take your time, so I will just say that as a general 
matter or principle, I don't know much about some of research 
that has been recently conducted.
    Mr. Luther. Do you know if the administration has a 
position on either vertical or slant drilling?
    Mr. Abraham. I don't know that they do. It was not one of 
the recommendations in the report, but I would be happy to 
forward an inquiry to the Interior Department.
    Mr. Luther. That would be great. I know that during the 
fall Presidential campaign, Vice President Cheney indicated 
that technological improvements were making it easier to drill 
in sensitive areas without damaging the environment. Do you 
believe that he was including--he was making any reference to 
areas like the Great Lakes in making those kinds of comments?
    Mr. Abraham. I don't know the context in which he made the 
statement. I mean, it is clearly the case that our Department 
has invested a fair amount of money in research over a long 
period of time, although I would say that we have actually 
reduced the proposal in that area for some of these technology 
investments, because we think the private sector could be doing 
this rather than the taxpayers. But I don't know at the same 
time--I don't know what he referenced. It might have been--I 
don't know of any statement on the Great Lakes that he has 
made. It might have been in the context of ANWR or some of the 
other areas which have been more Federal-focused areas of 
discussion.
    Mr. Luther. To then follow up on what your personal 
position is on this kind of drilling, will you be making a 
recommendation to the--to the administration, to the President 
or the Vice President, with respect to drilling?
    Mr. Abraham. It is my understanding that there is 
legislation that has been introduced--you may well be a sponsor 
of it. I am not sure. As to what the administration might do 
with respect to commenting on the legislation, I can't say. I 
have not been part of any discussions so far, although I guess 
the legislation is fairly recently introduced, at least in the 
Senate, I think. But I don't know. It would typically not be in 
our portfolio, although we might be asked to comment.
    Mr. Luther. You may know that Canada does allow offshore 
drilling. Is there anything that you could do with respect to 
Canada in terms of encouraging them not to expand or to 
outright ban Great Lakes drilling?
    Mr. Abraham. I have no idea what the relevant interaction 
is there. It would seem to me the International Joint 
Commission has responsibility over these kinds of matters, not 
this Department. And, again, in the absence of clarity in terms 
of where the administration's portfolio on this is, I can't 
say, but I do think it is probably the International Joint 
Commission that has the jurisdiction.
    Mr. Luther. Okay. Thank you, Mr. Chairman.
    Mr. Barton. Thank you, Congressman.
    Last but not least, we go to Mr. Strickland of Ohio for 5 
minutes, and would by unanimous consent ask that he restrict 
his questions only to the Portsmouth plant. Actually, you can 
ask anything you want.
    Mr. Strickland. Thank you. And, Mr. Chairman, do I 
understand that we have the privilege of submitting questions 
which we don't----
    Mr. Barton. Yes.
    Mr. Strickland. [continuing] have time to----
    Mr. Barton. You and all the members that are present.
    Mr. Strickland. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. You have been kind and patient 
with all of us, and I certainly appreciate that.
    I have here, Mr. Secretary, hundreds of signatures of 
employees from the Portsmouth gaseous diffusion plant, Mr. 
Chairman.
    Mr. Barton. Just out of the blue, I could have guessed 
that.
    Mr. Strickland. Mr. Secretary, you came to Ohio on March 1 
to announce the DOE's $125.7 million 2-year package for cold 
standby at the facility, and at that time you made a commitment 
for $20 million to be used for worker and community transition. 
The press also reported that $20 million figure. These 
petitions have been sent to me because there are workers there 
who have been terminated who feel that they are not getting 
what was promised and what they have a right to expect. I might 
say that as a first step, the committee should approve the 
DOE's request to reprogram and reprioritize $59 million in 
fiscal year 2001 funds for cold standby winterization worker 
transition.
    Then on October 4, a month later, only $8.4 million was 
reprogrammed for worker transition, and $2.6 million was 
allocated for community transition. According to my 
calculations, that is about $9 million short of the promised 
$20 million, and I was wondering if you could tell me if or 
when we would receive the additional $9 million of that 
resource?
    Mr. Abraham. Well, as a first matter, I don't know that any 
of the monies have been worked out because of the ongoing 
negotiations that are taking place between USEC and the--and 
the union. We have been trying to be helpful to that process 
and obviously have worked with your office, Senator DeWine's 
and Senator Voinovich's.
    In terms of the dollar amounts, I am aware that in this 
fiscal year, we have approximately $11 to $12 million that are 
available. I am not sure that I can comment as to whether there 
would be an additional $8 million. I guess there must be--there 
may be some discrepancy as to the terminology used with regard 
to what budget item that comes from.
    Mr. Strickland. I guess what puzzles me is the--what I 
think was widely perceived to be a promise of $20 million for 
this purpose, and what I would like to ask you is, can the 
community and the workers expect that, or has there been some 
change in the thinking of----
    Mr. Abraham. Well, I am not sure. I would have to review 
for you what the numbers are. What I do recall was making the 
commitment that--on February 27, I believe you and I met, along 
with Senators DeWine and Voinovich. I believe Governor Taft was 
there.
    Mr. Strickland. Yes.
    Mr. Abraham. And you all asked us to act as quickly as we 
could to try to free up money to make it possible for us to 
both move the facility to cold standby and to winterize it, as 
well as to try to act to get more money into the system for 
purposes of community transition matters and other things. The 
number we talked about was around $125 million in the short 
run, and we were able to do that. In fact, we will be able to 
announce it within about 48 hours, working very hard to get OMB 
to do so.
    As to the allocation of that money, I guess I would have to 
reexamine what our records show, because the numbers I am 
familiar with are the 8.4 and the 2.9, I believe. But I would 
be happy to get back to you.
    Mr. Strickland. Mr. Secretary, I am going to be very 
tenacious on this point, because there are lots of men and 
women who feel like this government has an obligation to them, 
and I respectfully request that you take a close look at the 
promises that were made, the money that has been allocated.
    I was also concerned that Federal dollars through the DOE 
was basically turned over to USEC to develop a plan, and part 
of what was being required of the workers in order to receive 
the benefits, these Federal benefits, was to sign a waiver 
relieving this private for-profit company of any liability. And 
it seems to me grossly unfair to allow public resources to be 
used by a private company to leverage a commitment from 
employees that they will not bring suit against them, which is 
their legal right. Would you comment on that?
    Mr. Abraham. We are in an unusual situation, as you know, 
in that we are not directly involved in the negotiations 
between USEC and the union. We have been asked for a variety of 
ways to help work through the transition period here in terms 
of the use of Federal dollars. There are some constraints on 
how those dollars can be used, but to the extent we can be 
flexible, we have tried to be. But when we work with USEC to 
provide a proposal to the union, that is what we do, trying 
to--based on what we consider to be the--you know, the 
objective.
    We haven't had the benefit of working directly with the 
union to figure out what their specific--to negotiate with them 
directly, and so we are kind of in an unusual--almost 
multicushion chrome shop type of relationship, which means that 
we work with USEC to make money available to them. They then 
put together proposals to offer the union. The union, as you 
know, rejected the most recent proposal. I have told our people 
to go back and come up with a hopefully more appropriate and 
effective way to address it, and I think we have tried to keep 
your office up to date on that.
    I am hopeful that USEC will--once we have made that 
presentation--that may even happen today--be comfortable with 
it and move forward, and I hope at that point that the union 
will feel it is an acceptable arrangement. If it is not, I 
don't rule out looking for another avenue, but, again, it is a 
little difficult because of the role we have, which does not 
allow us to be a part of the direct bargaining between USEC and 
the union, and it is obviously a result of the sort of unique 
relationship USEC now has or its independent status as a----
    Mr. Strickland. Mr. Chairman, can I make one further 
concluding comment?
    Mr. Barton. Yes.
    Mr. Strickland. And you have been very gracious, as you 
always are.
    Mr. Barton. No. No. You defend your constituency very ably, 
and I kid about it, but I want you to know you are to be 
commended for it. And what I jest is purely in good-natured 
fun. You are doing an excellent job for your constituents.
    Mr. Strickland. Thank you. I just would like to say to the 
Secretary, I do appreciate what he is trying to do. You know, I 
am critical, but I don't want my criticism to be perceived as a 
personal criticism. I was critical of the last administration, 
certainly, but it seems to me woefully wrong for public 
resources to ever be used to allow a private for-profit company 
to use those resources as a leverage against their employees.
    Mr. Abraham. Well, our intent is not to try to, you know, 
play as a participant in any kind of inappropriate behavior. 
And I don't know the nature of the waiver that you have 
referenced. It may be standard in collective bargaining to seek 
waivers of the right to sue as part of a final agreement. I 
really don't know enough about labor-management contracts to 
answer that. But----
    Mr. Strickland. And it may be, but I don't want it to be 
done with public resources, public dollars.
    Mr. Abraham. Well, then, we need to obviously get more 
information about it. It is--again, though, Mr. Chairman, kind 
of a little difficult situation because of the sort of unique 
status USEC now has as----
    Mr. Barton. Oh, I am very aware of this. The fact that I am 
not a participant doesn't mean I don't understand the dialog, 
because----
    Mr. Abraham. No. It is a unique status that puts us in a 
difficult position in terms of the fact that we are directly 
into these negotiations.
    But we want to work with you, Congressman, and with respect 
to the total dollar amount, what I want to check is I believe 
there were multiple installment periods. I think that what we 
have talked about so far constitutes a first stage, but that is 
just sort of a shot at it today. I will reexamine to see if 
that is----
    Mr. Strickland. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Barton. Thank you, Congressman Strickland. We want to 
thank you, Mr. Secretary, for your courtesy in coming before 
this subcommittee. We look forward to a series of meetings, 
both in the hearing process and in a working relationship, to 
craft this legislation.
    Mr. Abraham. Thank you, Mr. Chairman.
    Mr. Barton. This hearing is adjourned.
    [Whereupon, at 1:30 p.m., the subcommittee was adjourned.]


</pre></body></html>
